<html>
<title> - EXAMINING THE GM RECALL AND NHTSA'S DEFECT INVESTIGATION PROCESS</title>
<body><pre>[Senate Hearing 113-662]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-662
 
                 EXAMINING THE GM RECALL AND NHTSA'S 
                      DEFECT INVESTIGATION PROCESS

=======================================================================

                                HEARING

                               BEFORE THE

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 2, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                     U.S. GOVERNMENT PUBLISHING OFFICE
95-155 PDF               WASHINGTON : 2015                     
                            
_______________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="94f3e4fbd4f7e1e7e0fcf1f8e4baf7fbf9ba">[email&#160;protected]</a>  
                          
                             
                             
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

         SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, 
                             AND INSURANCE

CLAIRE McCASKILL, Missouri,          DEAN HELLER, Nevada, Ranking 
    Chairman                             Member
BARBARA BOXER, California            ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
CORY BOOKER, New Jersey
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 2, 2014....................................     1
Statement of Senator McCaskill...................................     1
Statement of Senator Heller......................................     3
Statement of Senator Boxer.......................................    12
Statement of Senator Klobuchar...................................    15
Statement of Senator Coats.......................................    17
Statement of Senator Nelson......................................    18
Statement of Senator Blumenthal..................................    22
Statement of Senator Ayotte......................................    24
Statement of Senator Rubio.......................................    25
Statement of Senator Johnson.....................................    27
Statement of Senator Markey......................................    29

                               Witnesses

Mary T. Barra, Chief Executive Officer, General Motors...........     5
    Prepared statement...........................................     7
Hon. David J. Friedman, Acting Administrator, National Highway 
  Traffic Safety Administration..................................    44
    Prepared statement...........................................    46
Hon. Calvin L. Scovel III, Inspector General, U.S. Department of 
  Transportation.................................................    56
    Prepared statement...........................................    57

                                Appendix

Response to written questions submitted to Mary T. Barra by:
    Hon. Claire McCaskill........................................    79
    Hon. Edward Markey...........................................    79
Response to written questions submitted to Hon. David J. Friedman 
  by:
    Hon. Claire McCaskill........................................    81
    Hon. Edward Markey...........................................    81


    EXAMINING THE GM RECALL AND NHTSA'S DEFECT INVESTIGATION PROCESS

                              ----------                              


                        WEDNESDAY, APRIL 2, 2014

                               U.S. Senate,
      Subcommittee on Consumer Protection, Product 
                             Safety, and Insurance,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:29 a.m. in 
room 253, Russell Senate Office Building, Hon. Claire 
McCaskill, presiding.

          OPENING STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. This subcommittee will come to order.
    It was a rainy night on March 10, 2010. Brooke Melton, who 
was 29 years old and a pediatric nurse, was driving her 2005 
Chevy Cobalt to meet her boyfriend for her birthday dinner 
outside of Atlanta. As she was driving on the highway, her car 
suddenly lost power. Unable to control the vehicle, it 
hydroplaned, crossed the center line, and slammed into another 
vehicle at 58 miles per hour. Her car ended up in a creek. The 
airbag never deployed.
    Ken and Beth Melton, her parents, rushed to the hospital, 
but she was dead when they arrived. In their nightmare of 
grief, they hired a lawyer--a trial lawyer. They ask him to 
help them understand what had happened and, if possible, hold 
whoever was responsible accountable. And he went to work, 
spending his own resources, to get to the bottom of what 
happened to Brooke on that rainy night in Georgia when she was 
on her way to celebrate her birthday.
    He hired an engineer to help him. Together, Mr. Cooper, the 
lawyer, and Mr. Hood, an engineer, began to identify a defect 
that someone at General Motors had discovered years before. 
There was a problem with the ignition switch in Chevy Cobalts. 
It could easily be bumped or brushed or pulled from ``on'' to 
``accessory'' or ``off,'' powering down the car, disabling the 
power steering, disabling the power brakes, and preventing the 
airbags from deploying.
    After 2 years of fighting General Motors for documents and 
a timeline of events at a deposition in April of last year, Mr. 
Cooper finally confronted General Motors with the facts. 
Someone at General Motors had switched out the unsafe ignition 
switches in several car models and covered it up by using the 
same part number for the same switch--for the new switch--had 
covered it up by using the same part number for the new switch.
    The simple work of the engineer hired by the trial lawyer 
representing the Meltons had discovered the defective part and 
its replacement with the same number. And when Mr. Cooper 
confronted General Motors' Mr. Ray DiGeorgio, their lead switch 
engineer, with the evidence of the part switch, he lied. He 
said he didn't know anything about it.
    Documents--``General Motors Commodity Validation Sign-
Off''--signed on April 2006, bear the signature of, in fact, 
Ray DiGeorgio, spelling out in the document also, ``New detent 
plunger was implemented to increase torque force in the 
switch,'' with the box checked, ``Resubmission, doing 
engineering changes.''
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator McCaskill. Further, it is now clear that GM knew of 
the faulty switch in 2004, knew the airbags were not deploying 
in 2005, and in late 2005 knew someone had died. We don't know 
how many people crashed because of this cover-up. We do know 
that many died, including Ms. Melton and at least one of my 
constituents, a Missouri woman who died in a crash in 2009 in 
the suburbs surrounding Saint Louis.
    So there is great work done by a trial lawyer and an 
engineer he hired in exposing a serious safety issue with a 
product--work that should have first been done by GM and 
secondly by Federal regulators. And then there is the Federal 
regulators' failure to spot a trend, even though the TREAD Act 
was passed specifically to give this regulatory agency the 
information it needed to catch exactly this type of problem.
    And a culture of cover-up that allowed an engineer at 
General Motors to lie under oath, repeatedly lie under oath. It 
might have been the old GM that started sweeping this defect 
under the rug 10 years ago, but even under the new GM banner, 
the company waiting 9 months to take action after being 
confronted with specific evidence of this egregious violation 
of public trust.
    Thousands of my constituents in Saint Louis and Kansas City 
areas go to work for General Motors every day, building some of 
the finest cars on the road. I am proud of them, and I am proud 
of their work. This is not their failure. They and the American 
public were failed by a corporate culture that chose to conceal 
rather than disclose and by a safety regulator that failed to 
act.
    With this hearing, I intend to identify potential problems 
in our auto safety system and work with Chairman Rockefeller, 
Ranking Members Thune and Heller, and the other members of this 
committee to rectify these problems so that this tragedy 
hopefully is never repeated again. It is time that we finally 
get this right so that it doesn't take an enterprising trial 
lawyer and an engineer that he hired to bring to light what 
NHTSA should have known long ago and what General Motors should 
have fixed long before Ken and Beth Melton lost their daughter 
Brooke.
    Our job today is to learn as much as possible about the 
failures of General Motors and the regulators to keep 
unsuspecting daughters, fathers, wives, and sons safe.
    Senator Heller?

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Thank you, Chairman McCaskill. And thanks 
for holding this hearing.
    And thank you, Ms. Barra, for appearing in front of us 
today.
    I want to begin by offering my deepest sympathies to the 
families and friends of those who have been affected by these 
tragedies. I also want you to know that we will get to the 
bottom of why it took so long to get these vehicles off the 
road.
    As many of you know, General Motors has issued a recall of 
over 2.2 million vehicles due to problems with the ignition 
switch that GM has admitted to knowing about in some form as 
early as 2001. These faulty ignition switches have linked to 13 
deaths. GM has now recalled certain years of Chevy Cobalts, 
Pontiac G5s, Saturn Ions, the Chevrolet HHR, the Pontiac 
Solstice, and the Saturn Sky.
    Last Friday, it was reported that sometime in 2006 or as 
late as 2007, General Motors changed the ignition switch part. 
A whole new part was manufactured and sold, but GM kept the 
same part number for that new part.
    Now, in my hometown of Carson City, we have an engineering 
company that builds pistons and rods for NASCAR teams. I have 
talked with them, talked with owners, talked with other 
builders in Nevada, and I can tell you this: If a company sold 
a part that was changed in any way and did not change the model 
number or the serial number on that part, it would cause 
significant problems for these businesses, these individuals, 
and, of course, the racing teams themselves.
    Ms. Barra, you know that I have raced cars for years. I 
have used GM testing facilities on some of the cars that I have 
raced. I have blown engines, broke transmissions, broke rear 
ends, lost my brakes, throttle stuck, and my ignition quit on 
me. And I tell you this because we break those engines down, 
those transmissions, those rear ends to find out exactly what 
the integrity of those parts are and how they broke, why they 
broke, and the difference, of course, being winning or losing.
    And I can tell you, based on my experience, that it is 
incredibly unusual for a car company to change a car part and 
not change the part number. Government investigators have now 
requested that GM provide any documents chronicling the switch 
change and who within the company provided it. I am also 
requesting today that GM provide this committee with that same 
information.
    But that is only part of this issue. We also need to 
recognize that when GM emerged from bankruptcy in 2009 the 
Federal Government owned 60 percent of the company because 
taxpayers bailed the company out. So GM knew of this issue in 
some capacity over 10 years ago. They changed the part but 
didn't tell anyone. They asked for a taxpayer bailout, and the 
current administration had to step in and restructure the 
company.
    Through all of this, GM was unable to determine that they 
should pull 2.2 million vehicles off the road. This is why, 
from where I am sitting, GM has a lot of explaining to do, both 
to this committee and to the taxpayers.
    Here is the issue for GM. It looks like there are multiple 
moments when the company faced conflicts of interest. And you 
said it yourself yesterday, Ms. Barra. GM has a culture based 
on cost, not safety. So many people are wondering if GM did not 
initiate a recall because GM could not survive one in 2006 or 
they did not initiate a recall because the Government owned 60 
percent of the company.
    It is possible that GM has an explanation for why it took 
so long to pull these cars off the road. However, after 
yesterday's hearing, I am afraid we are not going to get too 
many answers today. I hope GM is in a position to speak to what 
happened more specifically. That is why we called you here. And 
I think GM should take the opportunity today to explain their 
actions and help this committee get to the bottom of what 
happened.
    There is also another side of this story. This is whether 
the National Highway Traffic Safety Administration received all 
the information from early warning reports that it needed to 
determine if further investigations were warranted. NHTSA 
received 260 complaints over 11 years that these vehicles were 
turning off while being driven, yet NHTSA did not move forward 
with a recall investigation in 2007 or 2010.
    I wrote to NHTSA asking very simple questions regarding 
their process in recalling vehicles and what they saw in 2007 
or 2010 that compelled them to pass on any investigation. I am 
very disappointed in NHTSA's ability to respond to my letter in 
time for this hearing. When we are looking at incidents in 
which individuals died, I expect more from NHTSA than what they 
showed today. And I think NHTSA knows that they can do better. 
And they need to do better.
    That being said, it is my understanding that the secretary 
of transportation has requested an internal investigation to 
conduct an audit of NHTSA's handling of the GM recall. 
Secretary Foxx also stated that he has directed NHTSA and the 
department's general counsel to jointly conduct a due-diligence 
review. And I am pleased by both of these developments and look 
forward to the reports.
    We need to ensure that consumers are safe on the road. We 
need to understand the facts of this recall. There are many 
questions that need answering, and I hope that today's hearing 
begins to provide some answers to the U.S. taxpayers and to 
what they deserve.
    So thank you, Chairman McCaskill.
    Senator McCaskill. Thank you, Senator Heller.
    Ms. Barra, welcome. We respect and appreciate your presence 
here today. And we welcome your testimony.

 STATEMENT OF MARY T. BARRA, CHIEF EXECUTIVE OFFICER, GENERAL 
                             MOTORS

    Ms. Barra. Thank you very much. My name is Mary Barra, and 
I am the Chief Executive Officer of General Motors. I 
appreciate the opportunity to be here today.
    More than a decade ago, GM embarked on a small-car program, 
and, sitting here today, I cannot tell you why it took years 
for a safety defect to be announced in that program. But I can 
tell you we will find out.
    This is an extraordinary situation. It involves vehicles we 
no longer make. But it came to light on my watch, so it is my 
responsibility to resolve it. When we have answers, we will be 
fully transparent with you, with our regulators, and with our 
customers.
    While I can't turn back the clock, as soon as I learned 
about the problem, we acted without hesitation. We told the 
world we had a problem that needed to be fixed. We did so 
because, whatever mistakes were made in the past, we will not 
shirk from our responsibilities now and in the future. Today's 
GM will do the right thing.
    This begins with my sincere apologies to everyone who has 
been affected by this recall, especially to the families and 
friends of those who lost lives or were injured. I am deeply 
sorry, and the men and women of General Motors are deeply 
sorry.
    I have asked former U.S. Attorney Anton Valukas to conduct 
a thorough and unimpeded investigation of the actions of 
General Motors. And I have received updates from him, and he 
tells me his work is well along. He has the free rein to go 
where the facts take him, regardless of outcome. The facts will 
be the facts. Once they are in, my leadership team and I will 
do what is necessary to assure this doesn't happen again. We 
will hold ourselves accountable.
    However, I want to stress, we are not waiting for his 
results to make changes. I have named a new Vice President of 
Global Vehicle Safety, which is a first for General Motors. 
Jeff Boyer's top priority is to quickly identify and resolve 
any and all product safety issues. He is not taking on this 
task alone. I stand with him, my senior management team stands 
with him, and we welcome input from outside GM--from you, from 
NHTSA, from our customers, our dealers, and our current and 
former employees.
    I have asked everyone on our team to keep stressing the 
system at GM and work with one thing in mind: Our customers and 
their safety are at the center of everything we do.
    Our customers who have been affected by this recall are 
getting our full and undivided attention. We have empowered our 
dealers to take extraordinary measures to treat each case 
specifically. If people do not want to drive a recalled vehicle 
before it is repaired, dealers can provide a loaner or a rental 
free of charge. To date, we have provided nearly 13,000 loaner 
vehicles.
    Our supplier is manufacturing new replacement parts for the 
vehicles that are no longer in production. We have commissioned 
two lines and asked for a third, and those parts will start 
being delivered to dealers next week.
    These measures are only the first in making things right 
and rebuilding the trust with our customers. I would like this 
committee to know that all of our GM employees and I are 
determined to set a new standard. I am encouraged to say that 
everyone at GM, up to and including our Board of Directors, 
supports this.
    As a second-generation General Motors employee, I am here 
as the CEO, but I am also here representing the men and women 
who are part of today's GM. And I can tell you that they are 
dedicated to putting the highest-quality and safest vehicles on 
the road.
    In addition, I announced yesterday that we have retained 
Kenneth Feinberg as a consultant to help us evaluate the 
situation and recommend the best path forward. I am sure this 
committee knows Mr. Feinberg is highly qualified and is very 
experienced in the handling of matters such as this. Having led 
the compensation efforts involved in 9/11, the BP oil spill, 
and the Boston Marathon bombing, Mr. Feinberg brings expertise 
and objectivity to this effort.
    As I have said, I consider this to be an extraordinary 
event, and we are responding to it in an extraordinary way. As 
I see it, GM has both civic responsibilities and legal 
responsibilities, and we are thinking through exactly what 
those responsibilities are and how to balance them 
appropriately. Bringing Mr. Feinberg on is the first step.
    I would now be happy to answer your questions. Thank you.
    [The prepared statement of Ms. Barra follows:]

     Prepared Statement of Mary T. Barra, Chief Executive Officer, 
                             General Motors
Introduction
    Chairman McCaskill, Ranking Member Heller, members of the Committee 
. . .

    My name is Mary Barra, and I am the Chief Executive Officer of 
General Motors.
    I appreciate the opportunity to be here today.
    More than a decade ago, GM embarked on a small car program. Sitting 
here today, I cannot tell you why it took years for a safety defect to 
be announced in that program, but I can tell you that we will find out.
    When we have answers, we will be fully transparent with you, with 
our regulators, and with our customers.
    As soon as l learned about the problem, we acted without 
hesitation. We told the world we had a problem that needed to be fixed. 
We did so because whatever mistakes were made in the past, we will not 
shirk from our responsibilities now and in the future. Today's GM will 
do the right thing.
    That begins with my sincere apologies to everyone who has been 
affected by this recall. . .especially to the families and friends of 
those who lost their lives or were injured. I am deeply sorry.
    I've asked former U.S. Attorney Anton Valukas to conduct a thorough 
and unimpeded investigation of the actions of General Motors. He has 
free rein to go where the facts take him, regardless of the outcome. 
The facts will be the facts. Once they are in, my management team and I 
will use his findings to help assure this does not happen again. We 
will hold ourselves fully accountable.
    However, I want to stress that I'm not waiting for his results to 
make changes.
    I've named a new Vice President for Global Vehicle Safety, Jeff 
Boyer (announcement is included below). This is a first for GM. Jeff's 
first priority is to quickly identify and resolve any and all product 
safety issues. He is not taking on this task alone. I stand with him. 
My senior management team stands with him. And we will welcome input 
from outside GM--from you, from NHTSA, from Mr. Valukas' findings, from 
our customers, from our dealers, and from our current and former 
employees.
    This latest round of recalls demonstrates just how serious we are 
about the way we will do things at the new GM. We identified these 
issues. We brought them forward and we are fixing them. I have asked 
our team to keep stressing the system at GM and work with one thing in 
mind--our customers and their safety are at the center of everything we 
do.
Customers
    Our customers who have been affected by this recall are getting our 
full and undivided attention. We're talking directly to them through a 
dedicated website, with constantly updated information, and through 
social media platforms. We've trained and assigned more people to our 
customer call centers, and wait times are down to seconds. And, of 
course, we're sending customers written information through the mail.
    We've empowered our dealers to take extraordinary measures and to 
treat each case specifically--and they are doing a great job taking 
care of our customers. Here's what we are doing with our dealers: if 
people do not want to drive a recalled vehicle before it is repaired, 
dealers can provide them a loaner or rental car--free of charge. If a 
customer is already looking for another car, dealers can provide an 
additional cash allowance for the purchase or lease of a new vehicle.
    Our supplier is manufacturing new replacement parts for the 
vehicles that are no longer in production. We have commissioned two and 
asked for a third production line, and those parts will start to be 
delivered to dealers as soon as possible.
    These measures are only the first in making things right and 
rebuilding trust with our customers. As I've reminded our employees, 
getting the cars repaired is only the first step. Giving customers the 
best support possible throughout this process is how we will be judged.
    I would like this committee to know that all of our GM employees 
and I are determined to set a new standard. And I am encouraged to say 
that everyone at GM--up to and including our Board of Directors--
supports this.
    I'm a second-generation GM employee and I'm here as the CEO, but 
I'm also here representing the men and women who are part of today's GM 
and are dedicated to putting the highest-quality and safest vehicles on 
the road.
    I recently held a town hall meeting to formally introduce our new 
VP of global vehicle safety to the company. We met at our Technical 
Center, one of the places where the men and women who engineer our 
vehicles work. They are the brains behind our cars, but they are also 
the heart of GM.
    It was a tough meeting. Like me, they are disappointed and upset. I 
could see it in their faces, and could hear it in their voices. They 
had many of the same questions that I suspect are on your minds. They 
want to make things better for our customers, and in the process, make 
GM better.
    That's what I'm committed to doing.
    I would now be happy to answer your questions.
    Thank you.
                                 ______
                                 
                               Attachment
2014-03-18
                 GM Announces New Vehicle Safety Chief 
         Jeff Boyer named Vice President, Global Vehicle Safety
    DETROIT--General Motors CEO Mary Barra today named a new vehicle 
safety leader whose first priority will be to quickly identify and 
resolve product safety issues.

    Jeff Boyer, has been named to the newly created position of Vice 
President, Global Vehicle Safety, effective immediately. Boyer, who has 
spent nearly 40 years in a wide range of engineering and safety 
positions at GM, will have global responsibility for the safety 
development of GM vehicle systems, confirmation and validation of 
safety performance, as well as post-sale safety activities, including 
recalls.

    Boyer will provide regular and frequent updates on vehicle safety 
to Barra, senior management and the GM Board of Directors.

    ``Jeff's appointment provides direct and ongoing access to GM 
leadership and the Board of Directors on critical customer safety 
issues,'' said Barra. ``This new role elevates and integrates our 
safety process under a single leader so we can set a new standard for 
customer safety with more rigorous accountability. If there are any 
obstacles in his way, Jeff has the authority to clear them. If he needs 
any additional resources, he will get them.''

    ``Nothing is more important than the safety of our customers in the 
vehicles they drive,'' said Boyer. ``Today's GM is committed to this, 
and I'm ready to take on this assignment.''

    Boyer, 58, will report to John Calabrese, Vice President of Global 
Vehicle Engineering and become a member of Global Product Development 
staff, led by Mark Reuss, Executive Vice President, Global Product 
Development, Purchasing and Supply Chain.

    Boyer began his GM career in 1974, as a co-op student and has held 
several senior engineering, safety and process leadership positions, 
including the role of a total vehicle integration engineer. His most 
recent position since 2011 was Executive Director of Engineering 
Operations and Systems Development. Before that, Boyer served as 
Executive Director of Global Interior Engineering and Safety 
Performance where he was responsible for the performance and 
certification of GM vehicle safety and crashworthiness. He holds a 
Bachelor of Science in Electrical Engineering from Kettering University 
and a Masters of Business Administration from Michigan State 
University.

    Senator McCaskill. Thank you, Ms. Barra.
    I want to briefly go through your resume. Beginning in 
2004, when this defect was discovered by someone at GM, you 
were Executive Director of Manufacturing Engineering, from 2004 
to 2005. In 2005 to 2008, you were Executive Director of 
Vehicle Manufacturing Engineering. From February 1, 2008, to 
July 2009, you were Vice President of Global Manufacturing and 
Engineering. From July 30, 2009 to February 1, 2011, you were 
Vice President of Global Human Resources. From February 1, 2011 
to August 2013, you were Senior Vice President of Global 
Product Development. And from August 2013 to January 15, 2014, 
you were Executive Vice President of Global Product 
Development.
    Is that a correct----
    Ms. Barra. Yes.
    Senator McCaskill.--rendition of your resume over the last 
decade?
    Ms. Barra. Yes.
    Senator McCaskill. In April and May of last year, GM's 
employees were deposed in the lawsuit, trying to get some kind 
of justice for Brooke Melton. They were confronted in the 
deposition with the fact that there were two different parts 
with the same part number and the different torque on both of 
those parts, leading to the malfunction of the ignition switch.
    At that deposition, General Motors had a lawyer. And it was 
very clear at that deposition that there were two parts with 
the same number and that they had been switched out and that 
one of them was defective.
    When that lawyer for General Motors left that hearing, who 
did he report to?
    Ms. Barra. I don't know which lawyer was at that trial, so 
I can't answer that question.
    Senator McCaskill. Well, hold on, and I will get it for 
you.
    You have some lawyers here with you today, don't you? Don't 
you have your general counsel with you?
    Ms. Barra. Yes, I do.
    Senator McCaskill. You are free to confer with him if he 
would like to tell you who that lawyer would report to after 
that deposition.
    Ms. Barra. Again, we are doing a full investigation with 
Mr. Valukas, and all of the individuals that are associated 
with this incident will be a part of that, and the findings 
will be conclusive----
    Senator McCaskill. It was Mr. Philip Holladay, appearing on 
behalf of General Motors, from the King & Spalding law firm in 
Atlanta, Georgia.
    Ms. Barra. OK. So he didn't report to General Motors then. 
He was part of King & Spalding.
    Senator McCaskill. Well, but he would have reported to his 
client. He was there representing you. He was your agent----
    Ms. Barra. Yes, ma'am.
    Senator McCaskill.--at that deposition.
    Ms. Barra. Yes.
    Senator McCaskill. So he would have--I guarantee you, if I 
am a lawyer and I am at a deposition where this bombshell has 
been dropped on my client, that there are two different parts 
with the same number, one of which is defective, I guarantee 
you I don't go back and tell the folks at the law firm. I am on 
my cell phone in the lobby saying to General Motors, ``We have 
a problem.''
    Ms. Barra. I agree.
    Senator McCaskill. I need to know who would typically be--
would it be the general counsel's office that the lawyers that 
you hire would report to you on litigation?
    Ms. Barra. It would have been part of the senior legal 
team.
    Senator McCaskill. OK. It would be very important for us to 
identify who that lawyer reported to after that deposition.
    Ms. Barra. OK. I will--that will be part of Mr. Valukas's 
investigation.
    Senator McCaskill. Now, I am assuming that when that 
happens there is an investigation internally.
    Ms. Barra. When--one of the findings that we have had from 
Mr. Valukas already as he has done his study is that, within 
General Motors, there were silos, and as information was known 
in one part of the business, for instance the legal team, it 
didn't necessarily get communicated as effectively as it should 
have been to other parts, for instance the engineering team. 
That is something that I have already corrected today.
    Senator McCaskill. Ms. Barra, I am not asking whether or 
not the lawyers called the engineers. I am asking whether or 
not lawyers in a multimillion-dollar lawsuit, where there has 
been evidence of a defective switch and a replacement that had 
never been identified to the public being presented to the 
lawyers for your company, not reporting that up to the 
executive level of your company.
    Those lawyers work for the executive level; they don't work 
for the engineers. They are hired by your senior counsel. That 
is who hires those lawyers, his office, correct?
    Ms. Barra. Yes.
    Senator McCaskill. OK. So what I want to know is, what 
investigation began after that deposition?
    Ms. Barra. That is part of the investigation that we are 
doing.
    Senator McCaskill. So you don't know whether or not 
anything happened after that investigation.
    Ms. Barra. I don't have the complete facts to share with 
you today.
    Senator McCaskill. OK. Well, that is incredibly frustrating 
to me, that you wouldn't have a simple timeline of what 
happened once you got that knowledge.
    So it went on for 9 months. You have no idea, even though 
you were in the executive level of leadership at the company at 
the time. It was never discussed anywhere in your presence----
    Ms. Barra. Correct.
    Senator McCaskill.--for 9 months, even though this had 
occurred.
    Ms. Barra. I became aware of the defect and the recall on 
January 31.
    Senator McCaskill. OK. So let me do quickly that.
    On February 7, you issued the first recall. Twelve days 
later, Mr. Cooper, the trial lawyer, wrote to NHTSA, pointing 
out that, in addition to the recall you had done, it was not 
complete. He pointed out there were four other models that had 
the defective ignition. Six days later, you, in fact, recalled 
those vehicles.
    On Monday of last week, Mr. Cooper filed a court pleading 
in California alleging there were additional cars that should 
have been recalled, and not been recalled, because they had 
defective switches placed in them during repairs. Last Friday, 
4 days later after that pleading, GM finally issued the third 
round of recalls.
    Is this the new GM, Ms. Barra? Is this the new GM that 
takes a lawyer having to write to NHTSA and a court pleading in 
court for you to finally recall all the cars that had been 
impacted by this defective switch?
    Ms. Barra. As we looked at the first population of 
vehicles, we immediately go and then read across to the other 
vehicles that may have the same part. Often, when you have the 
same part in another vehicle, it can be a different 
configuration, a different geometry. As we looked into that 
population, we then recalled that population.
    And then we immediately started to look at where were the 
spare parts. From a General Motors perspective, for GM dealers, 
we could go to dealer records and understand where, if a dealer 
put a spare part into a vehicle, we knew the VIN, but then as 
we worked with our supplier, we learned that they had sold 
these parts to other third-party repairers where there were no 
records kept.
    When we learned that, we immediately went out and recalled 
the entire population of all of these vehicles because we 
couldn't be certain if there was a vehicle that had a part put 
in that we couldn't track.
    Senator McCaskill. And I think it is great you have done 
all that. It just is worrisome to me that it took three shots 
after 9 months.
    Senator Heller?
    Senator Heller. Thank you.
    Ms. Barra, the public is very skeptical of General Motors, 
and let me explain to you what they are seeing.
    At some point in the last decade, GM knew that there was a 
problem with a faulty ignition switch, which led to the death 
of 13 people. In late 2006 or early 2007, GM replaced the 
ignition part but kept the same part number and did not tell 
anyone.
    Shortly thereafter, GM needed the U.S. taxpayers' loan to 
bail them out. The company was provided so much assistance that 
when they emerged from bankruptcy the Federal Government in 
2009 owned 60 percent of the company.
    So from where I sit, it looks like GM was not forthcoming 
with the American people who bailed them out. It looks like 
there were multiple moments where the company had conflicts of 
interest, either with initiating a recall at a time when GM was 
not financially sound or when the Government owned 60 percent 
of the company.
    So what I am going to do is allow you to explain yourself 
to the American people. And I think we need to know whether you 
believe the company acted in the best interest of the consumers 
who bought your car and the U.S. taxpayers who bailed you out.
    Ms. Barra. Well, first of all, I agree, it took way too 
long for this to come to our attention and to do the recall. 
And we have admitted that. We have also apologized; it is 
tragic that there have been lives lost and lives impacted with 
this event.
    From the part-number perspective, I find it completely 
unacceptable that a part would be changed without a part 
number, the actual identifier, being changed. That is not a 
process of good engineering; that is not an acceptable process. 
It wasn't then, and it clearly isn't now. And as we do our 
investigation, we will deal with that situation, because that 
is not acceptable for good engineering principles.
    But as I look at the culture of the company during the 
timeframe--this part was designed in the late 1990s, it went 
into vehicles that went into production in 2003, the latest of 
which went out of production in the 2011 timeframe--the culture 
of the company at that time had more of a cost culture focus.
    And I can tell you, we have done several things since the 
bankruptcy to create a new culture at General Motors, to be 
focused on the customer, starting with rewriting our values. 
The first value is the customer is our company; the second is 
relationships matter; and individual excellence.
    We have also taken quite a bit of bureaucracy out of the 
vehicle development process and the structure itself. We have 
dramatically improved our quality organization and our customer 
experience organization.
    So there have been dramatic improvements made in General 
Motors since that time.
    Senator Heller. Ms. Barra, I read the transcripts from 
yesterday's hearing, and you have said most of this when you 
were on the other side of the Capitol. And you said that safety 
comes first at GM, that you don't look at cost, GM looks at the 
speed in which it can fix it, and you said that there was a 
change, that GM has gone from a cost culture to a safety 
culture.
    I want you to explain that. And in explaining that, does 
that mean that in 2006 General Motors was more concerned with 
the bottom line as opposed to recalling their vehicles?
    Ms. Barra. When we look at--when the complete investigation 
is done--there were documents that were produced yesterday, 
that, if those are in complete context, that they valued cost 
over quality once we knew there was a safety defect, that is 
unacceptable.
    In today's culture, we don't condone that. And it starts 
with leadership, myself, our leadership and product development 
across the company. If there is a safety defect, there is not a 
calculation done on business case or cost of whether to do the 
recall. It is how quickly can we get the repair and put the 
right part or fix or inspection, whatever needs to be done, to 
make sure the vehicles are safe that our customers are driving.
    Senator Heller. So let me ask you again. If safety was not 
the highest priority in the past, is it fair to assume that GM 
only acts in the best interest of GM at all times? Was that 
true in 2006?
    Ms. Barra. Again, that is a very broad statement. I would 
say that there have been times in the past where there has been 
a safety focus. General Motors is a 100-year-old company. I can 
tell you now, from post-bankruptcy, there is a focus on the 
customer and on safety and on quality.
    Senator Heller. I have more questions, but I will wait.
    Senator McCaskill. OK. We will have another round of 
questions for Ms. Barra.
    Senator Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you, Ms. Barra.
    I have here a timeline of when the company knew there were 
problems. It starts in 2001. In 2003, a service technician of 
GM noted that there was a stall while driving. And it goes on, 
and there is a constant theme here of the thing is getting 
worse and worse through the years.
    Now, you are new at your job, but you have been at GM for 
how many years?
    Ms. Barra. Thirty-three.
    Senator Boxer. Thirty-three years.
    So when this was first discovered, you were Executive 
Director of Competitive Operations Engineering, where you 
developed and executed strategies to improve the effectiveness 
of vehicle manufacturing and engineering.
    But you didn't know of this?
    Ms. Barra. Correct.
    Senator Boxer. Nobody told you about this.
    Ms. Barra. Correct.
    Senator Boxer. OK.
    And then you were plant manager of Detroit-Hamtramck 
Assembly in 2003 to 2004, where you were responsible for day-
to-day plant activities related to safety, people, and quality.
    And, still, you knew nothing about this?
    Ms. Barra. We didn't build any of these models at the 
Detroit-Hamtramck----
    Senator Boxer. In that position, you knew nothing about 
this, correct?
    Ms. Barra. Correct.
    Senator Boxer. OK.
    And then in 2004 to 2005, you were Executive Director, 
Manufacturing Engineering, responsible for developing and 
implementing global bills of process and equipment to optimize 
capital deployment and manufacturing operating costs. And you 
developed and continuously improved lean cost initiatives.
    You knew nothing about this when you were executive 
director of manufacturing and engineering?
    Ms. Barra. Correct.
    Senator Boxer. You knew nothing.
    How about when you were Vice President of Global 
Manufacturing Engineering, 2008 to 2009? You knew nothing?
    Ms. Barra. Correct.
    Senator Boxer. And you still knew nothing when you were 
Vice President of Global Human Resources.
    Ms. Barra. Correct.
    Senator Boxer. You are a really important person to this 
company. Something is very strange, that such a top employee 
would know nothing.
    Now, have you seen photos of your cars that have had that 
ignition problem and that the problem led to deaths? Have you 
seen photos of those cars, what they look like?
    Ms. Barra. Yes.
    Senator Boxer. I have another one for you to look at. The 
people are here. Mary Theresa Ruddy of Scranton, Pennsylvania, 
died at the age of 21. She was a senior at Marywood University. 
Her parents are here, her family.
    And I guess it is somewhat shocking after the Pinto--and 
that goes back to when I was first an elected official. I was 
shocked that there was such a cold and calculating way that 
Ford decided not to fix a fatal flaw in their fuel tank. And we 
learned through lawyers, as our Chairman has pointed out, they 
made a very--through discovery--they found out there was a very 
careful cost-benefit analysis, and Ford decided it was cheaper 
for them to pay off the families of the dead than to fix the 
problem that would have cost them $11 a car.
    Did you make that kind of calculation over at GM in this 
situation?
    Ms. Barra. I did not.
    Senator Boxer. Do you know of anybody who did make it?
    Ms. Barra. That is the purpose of the investigation that 
we----
    Senator Boxer. But you don't know now.
    Ms. Barra. Correct.
    Senator Boxer. You haven't asked, and you don't know.
    Ms. Barra. I have asked for an investigation----
    Senator Boxer. Do you know if GM ever used this kind of 
cost-benefit analysis in its history?
    Ms. Barra. There were documents shared with me yesterday 
that, if they are true as we go through the complete timeline, 
will demonstrate that it is completely unacceptable----
    Senator Boxer. Well, I didn't ask you that. I said, do you 
know if GM ever used this kind of cost-benefit analysis in its 
history? Do you know?
    Ms. Barra. If it was used for a safety item, it would be 
unacceptable.
    Senator Boxer. It is okay to do for a safety item; is that 
what you are saying?
    Ms. Barra. I said the opposite of that.
    Senator Boxer. Well, you didn't.
    Ms. Barra. Well----
    Senator Boxer. So what about in 1973, when GM engineer 
Edward Ivey concluded it was not cost-effective for GM to spend 
more than $2.20 per vehicle to prevent a fire death? Do you 
know about that?
    Ms. Barra. I have heard of that.
    Senator Boxer. You have heard of it? You haven't looked at 
it, looked into it?
    Ms. Barra. General Motors today finds any time there is an 
incident----
    Senator Boxer. Well, you know, today and today--yesterday I 
did something that I am accountable for. It is not about--you 
have been involved in this since you became CEO. Have you not 
looked into this?
    Look, Mr. Ivey's study placed the value of a human life 
lost at $200,000 and estimated the company could cost-
effectively spend only $2 for rear-impact protection to prevent 
to fuel-fed fires and that a burn death would cost the company 
$2.40 a vehicle. Through this analysis, GM determined it would 
not be cost-effective to pay more than $2.20 per car for each 
burned death.
    So you talk about today's GM, but evidence shows that as 
recently as 2005 GM used a cost-benefit analysis to determine 
that fixing the problem was, quote, ``not an acceptable 
business case.''
    Are you aware of the situation in 2005? Has that been 
called to your attention?
    Ms. Barra. I was aware in general of the Ivey letter. I 
have never seen it.
    Senator Boxer. What about 2005? Is that the new GM or the 
old GM, 2005?
    Ms. Barra. General Motors Company was formed in 2009.
    Senator Boxer. OK. So the old GM in 2005, you are not aware 
that they used a cost-benefit analysis to determine that fixing 
the problem was not, quote, ``an acceptable business case.''
    Ms. Barra. Again, if it is a safety issue, there should not 
be a business case calculated.
    Senator Boxer. But you don't know anything about this?
    Ms. Barra. That is why we have hired an investigator. We 
are going back over a period of a decade to understand exactly 
what happened.
    Senator Boxer. OK. I will hold for the second round. Thank 
you.
    Senator McCaskill. As people know, the Commerce Committee 
does order of arrival, just to remind everyone. Every committee 
does it different, but Senator Rockefeller does order of 
arrival, and I will respect him in that regard. I respect him 
anyway.
    [Laughter.]
    Senator McCaskill. I respect him in all regards.
    [Laughter.]
    Senator McCaskill. But I also will respect him in that 
record. So next would be Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Senator McCaskill. 
Thank you for holding this hearing.
    Ms. Barra, one of the families involved in this is a young 
woman who was killed named Natasha Weigel from Albert Lea, 
Minnesota. I met with her dad, Doug, yesterday. I talked to her 
mom, or to her mom's husband yesterday.
    And this young girl was in Wisconsin. She was in a Cobalt 
with some friends, and suddenly the ignition went off, and the 
car barreled 71 miles per hour into trees, and two of the girls 
were killed, including Natasha.
    And she was a hockey player, young girl. And one of the 
letters that her dad gave me that she wrote to him just a few 
months before she died, she talks about--this is her words: ``I 
wouldn't be the good goalie I am now if it wasn't for you, Dad, 
standing behind the net, behind the glass. Just knowing you 
were there made me trust myself better, and I definitely felt 
secure to know you had my back.''
    And I think you understand that these families need someone 
to have their back. They want to have the backs of their kids, 
at least the memories of their kids.
    And I think this is--a lot about what this is about, 
including a major change in process that we clearly need in GM 
and probably in the transportation field in terms of how we 
look at these things.
    And as you look at this internal evidence, I think the 
things that we need to know include: Why did GM open numerous 
internal reviews but not elevate the issue to a formal 
investigation until 2011? Why was GM's management not aware of 
critical decisions being made related to the defect? Did GM 
disclose the issue during the company's bankruptcy proceedings? 
These are the things that are on the minds of the American 
people.
    And then on the Government side, with NHTSA, did NHTSA have 
sufficient resources to do a prompt, thorough investigation? 
Did NHTSA have the technical expertise and technology to 
evaluate this growing evidence? I know in our case, in the 
Weigel family, a complaint was made with NHTSA way back when 
Natasha was killed. What could NHTSA have done differently as 
it was receiving complaints over this very long period of time?
    So my first question of you is really about this internal 
process. And I would like to know what factors, as we have just 
seen these recalls, with more and more of them rolling out over 
the last few weeks, what factors does GM consider when it is 
examining whether or not to elevate a potential safety defect 
to a higher level of review?
    Ms. Barra. In today's General Motors, we look at--I mean, 
as an incident is learned about--and it can come from any 
source, it can come from our dealers, it can come from testing, 
it can come from outside, it can come from a claim being made. 
And it gets assigned to a team of knowledgeable engineers. They 
investigate, try to understand what is happening, try to 
understand, you know, if there is an incident, what it could 
cause. That then gets reviewed by a team, a cross-functional 
team, and then goes to a final group to make a decision. That 
is the process that is used.
    Senator Klobuchar. And what is the single most important 
factor the company considers when looking at whether to do a 
recall?
    Ms. Barra. The most important thing is if there is a safety 
issue. And we have actually, over the last 2 years, made great 
strides to quickly get information, look, and get into the 
field as quickly as possible.
    If you look at the data right now of General Motors, we 
actually do more recalls than anyone involving smaller 
populations. Because we are trying to get--if we find 
something, we are trying to get in and fix it as quick as we 
can.
    Senator Klobuchar. And do you think there will be further 
recalls to come here with different models?
    Ms. Barra. I believe, as we find problems, large or small, 
we will do the right thing. And if it requires a recall, we 
will do a recall.
    Senator Klobuchar. OK.
    Now, we have the issue of claims with many of these 
families that have been involved. Do you think that families 
have equal opportunity to compensation, regardless of whether 
and when GM went through bankruptcy?
    And if you could also describe--you just announced this 
appointment, Mr. Feinberg----
    Ms. Barra. Right.
    Senator Klobuchar.--how this would work, so that these 
families would get their compensation.
    Ms. Barra. And we hired Mr. Feinberg late last week. We 
have our first meeting with Mr. Feinberg on Friday. And it is 
open right now. He has guided us on the different things that 
we need to consider. Again, as I have said, we have civic and 
we have legal responsibilities. We are going to work through 
those.
    I anticipate, based on the timeline he has given us, it 
will take about 60 days. That is the timeline he has told us to 
plan for as we explore and look at all the different options. 
We have not made any decisions. All options are still open. But 
I don't have a decision today.
    Senator Klobuchar. So do you think that these families 
should be able to be compensated regardless of the bankruptcy 
issue?
    Ms. Barra. That is why we hired Mr. Feinberg, to work 
through this issue.
    Senator Klobuchar. OK.
    Last question, as my time is running out. What does GM have 
to do to regain the American public's trust?
    Ms. Barra. We have to work every day, and I am 150 percent 
committed to it, as is my team, to make sure we are putting the 
safest and the highest-quality vehicles on the road across the 
globe. And that is what we will work tirelessly to do. That is 
what the men and women of General Motors want to do.
    Senator Klobuchar. Thank you.
    Senator McCaskill. Senator Coats?

                 STATEMENT OF HON. DAN COATS, 
                   U.S. SENATOR FROM INDIANA

    Senator Coats. Madam Chair, thank you very much.
    Ms. Barra, yesterday, correct me if I am wrong here, but I 
believe you said that GM--you did say that you had hired Mr. 
Feinberg to investigate the matter, but you also did not commit 
to sharing the results of that investigation with the public 
and with Congress, instead saying--and I think I am quoting you 
correctly--you will share what is appropriate.
    After a night's sleep on that question, is that still your 
position, or do you think it would be appropriate to share 
everything Mr. Feinberg discovered with us and with the public?
    Ms. Barra. Well, first of all, I would like to add to that.
    The specific question I was asked was about the findings 
from Mr. Valukas's study. Mr. Valukas is doing the complete 
investigation, the external investigation of what happened over 
this more-than-a-decade period. And when I said we would share 
what is appropriate, we will share everything and anything that 
is related to safety of our vehicles, that is related to safety 
regarding this incident. We will share that with the customers, 
we will share that with you, and with our regulators. If we 
learn things that are broader from a safety perspective, we 
will share that.
    The only thing, and the reason why I used ``what is 
appropriate,'' is if there is an issue of competitiveness, 
because we have opened up everything to Mr. Valukas, that would 
be something that we would--again, if there was a safety issue, 
we would override on the safety side, but other competitive 
issues--and then, also, as an employer, we have 
responsibilities on privacy to some of our employees as part of 
the employment agreement. I have to respect that, as well.
    But, clearly--and I appreciate the opportunity to clarify 
this--anything remotely related to safety of vehicles or 
anything that could improve the process, if, for example, we 
could have done better with NHTSA, will readily be shared in a 
very transparent process.
    Senator Coats. Well, I am glad you clarified that, because 
I think your comments raised concerns for all of us.
    So just to make the record clear, anything related to a 
safety issue will be shared with the public and with Congress?
    Ms. Barra. Absolutely.
    Senator Coats. Were you aware of this problem when you were 
offered the CEO position at GM?
    Ms. Barra. I became aware of the recall on January 31. I 
was aware in late December that there was analysis going on on 
a Cobalt, but I didn't even know what the part was.
    Senator Coats. Well, whether you like it or not, you have 
become the face of the problem----
    Ms. Barra. Absolutely.
    Senator Coats.--but, hopefully, also, the face of the 
solution.
    But it is important that, I think, we understand what your 
role was during your 33 years and, more important than that, 
that this investigation point out just who knew what and when 
did they know it.
    I would suggest to the Chair that perhaps a follow-up 
subcommittee hearing potentially involve those who held the 
leadership in the key positions at GM during the timeframe that 
we are looking at here. And that would include some government 
officials, also, since it owned the company, 60 percent of the 
company, for a considerable period of time.
    And so I say that because I think we need to hear from 
people who had held key positions in GM that perhaps had 
knowledge of this situation and made a decision, either on a 
cost basis or for whatever reason, to come before the Committee 
and explain their role, rather than dumping the whole issue on 
GM's new CEO.
    But, again, as I said, you have taken on this duty. And 
like many before you, including presidents of the United 
States, what was anticipated for your role turns out to be 
something very, very different. But we are going to need your 
complete cooperation as we work through this difficult issue.
    But I think also I would suggest to the Chair and the Vice 
Chair that we seriously consider bringing before us those who 
were in positions of responsibility when these decisions were 
made.
    Senator McCaskill. Thank you, Senator Coats. We will, in 
all likelihood, do some kind of follow-up hearing on this, and 
I think it would be helpful to hear from some of the people in 
key places. I would certainly love to talk to, under oath, 
the--I should say ``under oath.'' In a committee setting, I 
would like to talk to the legal team about how they handled the 
lawsuits around this defect.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Madam Chairman.
    Ms. Barra, I have been a General Motors customer virtually 
all my life and have been very satisfied. I am concerned by 
virtue of what we have learned, is there a corporate culture. 
And since you are the new sheriff in town, you are going to 
have to get into that culture.
    As Senator Boxer had mentioned, back in 1973, that accident 
of the fuel fires, and so an engineer for GM wrote the value 
analysis of auto-fuel-fed-fire-related fatalities. And Senator 
Boxer had already talked about that.
    Madam Chairman, I would ask that that be entered into the 
record, that engineer's report.
    Senator McCaskill. Without objection.
    [The information referred to follows:] 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Nelson. Now, given this potential culture problem 
in GM, since I am a GM customer, if I were to have a recalled 
Chevrolet Cobalt, would you recommend that I drive home in it 
tonight?
    Ms. Barra. If you take all the keys off the ring except the 
ignition key or just use the ignition key, our engineering team 
has done extensive analysis to say that is safe to drive. If--
--
    Senator Nelson. What if I were going on a long trip?
    Ms. Barra. Again, if you don't have anything else on your 
key ring, and I recommend just the ignition key, you are safe 
to drive the vehicle. The analysis has been done over weeks.
    Senator Nelson. I suspect that Cobalt drivers would not 
take comfort in that advice, knowing what has come up. And you 
all may want to revise that advice.
    You mentioned here that GM has hired Ken Feinberg. You 
know, he is accustomed to large claims. He handled the BP oil 
spill in the Gulf. You all have confirmed 13 deaths. Does this 
suggest, with Feinberg coming on board, that the number of 
deaths and injuries is going to be potentially much higher?
    Ms. Barra. We are starting our work with Mr. Feinberg on 
Friday. We think he is an expert in this area. And we want to 
do what is right, so we thought he was the person with the most 
expertise to go forward.
    And I would also, to the previous question, if a person is 
not comfortable driving their Cobalt or one of these models, we 
are providing loaners free of charge.
    Senator Nelson. With Feinberg on board, does that suggest 
that GM is going to compensate owners who feel the need that 
they have to park their car, other than the loaner that you are 
speaking about?
    Ms. Barra. Again, working with Mr. Feinberg, there are many 
aspects that we need to work through with him, and so that is 
why he, on his timeline, is saying it will be about 60 days.
    Senator Nelson. The Center for Auto Safety has suggested 
that they think this defect may have caused over 300 deaths. 
That is a big difference from the 13 that you have 
acknowledged. Why do you think those numbers are so far apart?
    Ms. Barra. My understanding is there are data sources from 
the FARS database where it captures a proportion of incidents 
that occurred in those vehicles using broader criteria. In some 
cases, the way airbags are designed, they are not intended to 
go off, depending on the crash.
    And if you would like me to have--we have a team that is 
very knowledgeable. They have spent virtually their entire 
career working on airbags and understanding that. We could 
share that.
    Senator Nelson. Tomorrow, you are going to have to formally 
respond to NHTSA about what the company did and did not know. 
Companies are legally required to report safety defects within 
5 business days of discovering them, and so this information is 
going to be critical to determine whether GM broke the law.
    While we are waiting on this determination, can you tell us 
whether you think that GM informed the Government and the 
consumers pursuant to the law in order to prevent those 
accidents?
    Ms. Barra. I want to know that answer just as much as you 
do, and that is why I have got Mr. Valukas, who is doing this 
report, and we are working on all the information that NHTSA 
has requested, to provide that in a timely fashion.
    Senator Nelson. Thank you.
    Senator McCaskill. Let me see who is next. Senator Booker 
is not here. It will be Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Madam Chairman, and thank 
you, Senator McCaskill, for holding this hearing.
    Thank you, Ms. Barra, for being here today. You and I have 
met before, haven't we?
    Ms. Barra. Yes, we have.
    Senator Blumenthal. And I am going to tell you now what I 
said then, which is that I have enormous admiration and respect 
for your career, what you have accomplished, and the leadership 
that you have provided to GM. And I also have enormous respect 
for your company. It is an iconic, enormously important 
manufacturing company, and it produces terrific products, 
generally.
    And I know that you are accompanied here by a regiment of 
lawyers and a battalion of public relations consultants and 
that your breaking with the culture is a very difficult step. 
But let me, with all due respect, suggest three steps, at least 
three steps, that you can take if you really want to break with 
the culture and show the leadership that I think is worthy of 
GM and worthy of your leadership.
    Number one, commit to a compensation fund that will do 
justice for the victims of the defects that killed people in 
your cars.
    Number two, warn drivers who are currently behind the wheel 
of those cars that they should not drive them until they are 
repaired because they are unsafe.
    And, number three, support the measure that Senator Markey 
and I have proposed that would improve the system of safety 
accountability going forward, require more disclosure to the 
public and better transparency and reporting by the car 
manufacturers in case of defects to the Federal agencies.
    And the Federal agencies have a substantial share of the 
blame in this instance.
    I think it is pretty much incontrovertible that GM knew 
about this lethal safety defect, failed to correct it, and 
failed to tell its customers about it, and then concealed it 
from the courts and the United States. So I think these steps 
are appropriate, and I hope that you will adopt them, despite 
whatever the complexities that you see and whatever the advice 
is that you are getting.
    And I want to know, first of all, what is it that Ken 
Feinberg has to work through to convince you that there should 
be compensation to these victims?
    Ms. Barra. Ken Feinberg has just indicated to us that, as 
he goes in, he interviews a lot of people, tries to get a 
complete understanding of the process----
    Senator Blumenthal. But he is not--and excuse me for 
interrupting you, but we all have 5 minutes here, so I am 
trying to make the best use of it as possible. He is not a 
bankruptcy expert.
    And right now GM is still in courts across the country 
invoking a blanket shield from liability that is the result of 
its deception and concealment to the Federal Government. I 
opposed it at the time, as Attorney General for the state of 
Connecticut, not for seeing that the material adverse fact 
being concealed was as gigantic as this one.
    But why not just come clean and say, we are going to do 
justice here, we are going to do the right thing, we are going 
to compensate the victims, knowing that money can't erase the 
pain or maybe even ease it, but it is the right thing to do?
    Ms. Barra. Our first step in evaluating this is to hire Mr. 
Feinberg, and we plan to work through this with him and 
understand his expertise. As I have said, there are civic as 
well as legal responsibilities, and we want to be balanced and 
make sure we are thoughtful in what we do.
    Senator Blumenthal. Let me go on to the next step. Let me 
show you the recall notice. And I am sure you have seen it. It 
says, ``The risk increases if your key ring is carrying added 
weight, such as more keys or the key fob, or''--and I stress 
``or''--``your vehicle experiences rough road conditions or 
other jarring or impact-related events.''
    Even with all the weight off the key chain, doesn't that 
recall notice tell you that cars should not be driven where 
there are rough road conditions or other kinds of potential 
jarring events?
    Ms. Barra. The testing that has been done has been on our 
proving ground that has extensive capability where the vehicle 
would be jarred. And with just the key or the key and the ring, 
it has performed.
    Senator Blumenthal. Is it your testimony here today that 
those cars are as safe as any other car on the road today?
    Ms. Barra. Again, as you look across all the safety 
technology that is on vehicles from the past to present, there 
is variation on safety based on the technology that is on cars 
today. So there is variation across the whole population.
    Senator Blumenthal. Is that Cobalt car, as driven now, safe 
for your daughters to drive? Would you allow them behind the 
wheel?
    Ms. Barra. I would allow my son and daughter to drive--
well, my son, because he is the only one eligible to drive--if 
he only had the ignition key.
    Senator Blumenthal. So the added risk, if you have only the 
ignition key, of driving that car on the road is zero? There is 
no additional risk of driving the unrecalled Cobalt on the 
road?
    Ms. Barra. The testing that we have done as it relates to 
this indicates that the weight would not cause that issue.
    Senator Blumenthal. My time----
    Ms. Barra. And if someone----
    Senator Blumenthal.--has expired----
    Ms. Barra. Can I just say, if someone is uncomfortable, 
though, we are providing loaners. If someone asks for a loaner, 
a loaner is provided.
    Senator Blumenthal. Well, again, I would respectfully 
suggest that you advise your customers to get loaners rather 
than driving these cars.
    Thank you, Madam Chairman.
    Senator McCaskill. Senator Ayotte?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Madam Chairman.
    Ms. Barra, you described the situation with the duplicate 
parts, the duplicate ignition switches. One had the defect, one 
didn't; however, the same part number was kept. And as I 
understand that, that happened--the part was actually approved 
by the chief engineer in 2006. And then the redesigned ignition 
switch was put at some point into the model during the 2007 
year. And you have described that as an unacceptable practice.
    You know, I have to say, when I look at this situation, 
particularly the fact that there are indication that GM may 
have known as soon as 2001 about the problems with the ignition 
switch, the fact that there would be two identical parts--in 
other words, one is defective and one isn't--and that you 
didn't change the part number strikes me as deception. And I 
think it goes beyond unacceptable; I believe this is criminal.
    And I guess my question to you is, have there been any 
other instances where GM actually is changing a part and fixing 
a defect and keeps the part number the same? Because this, to 
me, is not a matter of acceptability; this is criminal 
deception.
    Ms. Barra. I am not aware of any. And it is not an 
appropriate practice to do. It is not acceptable. It is 
crucial, it is engineering principle 101 to change the part 
number when you make a change.
    Senator Ayotte. Yes, I think it is just--obviously, someone 
made the decision and it was approved by GM to do this. And I 
would like to know whether it has ever been done in any other 
instance.
    Because I think that we should get to the bottom of that, 
in terms of deception, in terms of the potential safety issues 
that can flow from that, of not triggering for people that 
there is actually a part that is being fixed but not with a 
different number. So it is really a matter, I think, of being 
honest and truthful with the public here.
    So I would like to get a follow-up answer to that as this 
investigation goes forward. Because I don't see this as 
anything but criminal, when I see the change in this part 
number.
    I also wanted to ask about--the Chair asked you about the 
deposition in April or May of last year, where clearly in the 
deposition the trial counsel had raised this issue of the two 
parts with the same number, one defective, one not.
    And does the General Counsel report directly to the CEO?
    Ms. Barra. Yes.
    Senator Ayotte. Yes. And I find it shocking that something 
like that, and I share the Chair's concern, wouldn't have gone 
directly up through the leadership of GM. And so I think this 
is a very important issue that we need to understand, even a 
year ago, what was told and who knew what when.
    Because it seems to me--I am a lawyer by background, as 
well. This would have been shocking for me to hear in a 
deposition representing a client, and I would have gone to the 
top if I heard something like that to make sure that my client 
understood what was happening and the risks that they faced.
    I also wanted to ask you about, with regard to the taxpayer 
bailout of GM in 2009. At that point, had there already been 
lawsuits filed related to the ignition switch?
    Ms. Barra. I can't answer that question. I don't know.
    Senator Ayotte. I would like to know whether GM actually 
notified the administration's Auto Industry Task Force, which 
helped administer the taxpayer bailout, about the ignition 
switch. But I would assume that if there were any lawsuits that 
had been filed that were pending with regard to the safety of 
the products of GM that this would have been something that 
would have brought to the attention of the Administration.
    And I would like to know what information was provided to 
that task force or to other officials in the Administration as 
we provided taxpayer dollars to GM to address the bailout and 
the bankruptcy. So I think this is an important issue, as well, 
and obviously an important issue, I think, for NHTSA, as well.
    So if you could get back to us on that, I would appreciate 
it.
    Thank you.
    Senator McCaskill. Senator Rubio?

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Madam Chair.
    Ms. Barra, you have been at GM for how many years?
    Ms. Barra. Thirty-three.
    Senator Rubio. Thirty-three years. You have discussed a lot 
today about the culture at General Motors and the change in the 
culture. Can I ask you about the culture at GM in your years 
there? Was there a culture at GM at any time that you have 
worked there of discouraging bad news about the company?
    Ms. Barra. I think the culture wasn't always as welcoming 
of bad news. You know, again, it was not across the whole 
company, but in pockets it wasn't always as welcomed as it 
should have been.
    Senator Rubio. And at senior management positions, in light 
of, for example, the bankruptcy and the subsequent need for the 
Federal Government to intervene and bail out the company for it 
to survive, did you notice that that culture was exacerbated 
during that time? That at that point in time there was a 
particular amount of resistance toward any sort of bad news 
about the company, like, for example, faulty ignition switches?
    Ms. Barra. I wouldn't draw that conclusion.
    Senator Rubio. So you were never involved in and you never 
saw any conversations with regard to the need to diminish the 
amount of bad news about the company or anything that would be 
disruptive, even if it involved safety issues?
    Ms. Barra. No. No.
    Senator Rubio. OK.
    So let me ask you this question now, leading to the next 
point.
    Based on what you know over the last few weeks, having 
dealt with this issue, can you tell us whether General Motors 
intentionally misled its customers and Federal regulators when 
someone decided to delay disclosing or fixing the faulty 
ignition switch?
    Ms. Barra. I don't know. That is why we are doing the 
investigation.
    Senator Rubio. But you won't rule that out?
    Ms. Barra. Mr. Valukas has the reins to go wherever the 
facts take him. And the facts are the facts, and we will deal 
with those.
    Senator Rubio. It seems the purpose of this investigation 
is to deduce two things: first, the process that led this 
decision to be made, how was it that this decision was made, so 
that you never do that again. That is the first part of the 
investigation.
    The second part and the one that I think is important--
because this is not just about General Motors. There are other 
companies out there making all sorts of products. And what we 
never want to do is live in a country where companies can 
decide that, as a business model, we will decide not to make 
fixes to things despite the fact that they are dangerous 
because it would cost too much money to fix it.
    That is a dangerous precedent. You know, if I owned a 
restaurant and poison was part of my ingredients and I decided 
not to change the recipe because it cost too much money and 
someone died, they wouldn't just close down my restaurant, I 
would go to jail.
    So my second question is, is part of this investigation to 
identify who decided or what group of people decided not to 
disclose these flaws and to do something about them in a timely 
manner, is part of the investigation to identify those 
individuals who made those decisions?
    Ms. Barra. If there were decisions made by individuals that 
were inappropriate--and some of the things that I have seen I 
am very troubled by--as Mr. Valukas completes his findings, my 
team, my leadership team, we will take steps. And if that means 
that there are disciplinary actions, up to and including 
termination, we will do that. We demonstrated that already when 
we dealt with the India Tavera issue last year.
    Senator Rubio. But if someone was negligent, if someone 
said, ``We have this information, we don't think it is a big 
deal, we shouldn't do anything about it,'' that is negligence, 
and certainly someone like that should not continue to work for 
the company.
    But will you also look for evidence in that investigation 
that, in fact, people knew that this was a problem but decided 
that the costs weren't worth it? Are you also in search of 
that, to see if, in fact, there were individuals or a culture 
in the company created by a group of individuals that 
encouraged employees to make these sorts of cost-benefit 
analyses based on economics and not on customer safety?
    Ms. Barra. As I have said, that type of analysis on a 
safety issue or a safety defect is not acceptable, it is not 
the way we are going to do business, and that is not the 
culture--we will make sure that that is not the culture we have 
going forward.
    Senator Rubio. But, again, my question is, will you look to 
see if, in fact, there was a decision made by a group of 
individuals not to move forward on this because of its cost?
    Ms. Barra. Yes.
    Senator Rubio. You want to know the answer to that 
question?
    Ms. Barra. I want----
    Senator Rubio. And we will know the names of these people, 
and we will know the process by which they made that decision, 
as well?
    Ms. Barra. We will work on the process. In raising the 
names, I have to make sure that I stay consistent with employer 
laws that I have. But trust me, we acted swiftly when we had 
issues with individuals who are no longer with the company in 
the past.
    Senator Rubio. Yes. And I would follow up by talking to 
your counsel and ours, as well, but I am not sure there are any 
laws that allow companies to shield an individual who made, at 
that point, what appears to be a criminal decision not to move 
forward on a safety item because of some sort of internal 
economic consideration.
    Ms. Barra. I guess, we need to complete the investigation 
and have the facts in front of us. And we will act not only 
from a company perspective, but if there are issues beyond that 
that have to be dealt with, we will deal with those.
    Senator Rubio. I have one last question. Will you fully 
cooperate with the Justice Department if they want to conduct a 
concurrent investigation alongside the internal one?
    Ms. Barra. We will fully cooperate with the Justice 
Department.
    Senator Rubio. Thank you.
    Senator McCaskill. Senator Johnson?

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Madam Chair.
    Ms. Barra, like Senator Klobuchar, I met with the 
stepfather and mother of Natasha Weigel. And that accident 
occurred in Wisconsin, so this hits pretty close to home.
    Your background is electrical engineer, correct?
    Ms. Barra. Correct.
    Senator Johnson. And so you have been with GM for 33 years. 
In that capacity, I would imagine General Motors has been a 
real leader in terms of total quality management in their 
manufacturing process?
    Ms. Barra. We have improved our quality dramatically over 
the last several years.
    Senator Johnson. OK. I have a manufacturing background 
myself. I ran a plant for 31 years.
    In your engineering capacity, I would imagine you dealt 
with the quality management system in a pretty robust fashion, 
correct?
    Ms. Barra. Correct. In the manufacturing arena, yes.
    Senator Johnson. OK.
    I want to drill down a little bit in terms of where 
Chairman McCaskill and Senator Ayotte went, on the change of 
that part number. I have gone through a lot of quality audits, 
and of course the reason you have different numbers for 
different parts is for traceability, correct?
    Ms. Barra. Correct. A number of reasons, but that being the 
key one.
    Senator Johnson. A real key one. So if there is a problem, 
there is a defect in the manufacturing process, you can trace 
back exactly where that happened.
    So you called that a not good engineering principle. That 
is really just a total violation----
    Ms. Barra. Correct.
    Senator Johnson.--of a total quality management system, 
correct?
    Ms. Barra. Correct.
    Senator Johnson. And, again, total quality management has 
been part of GM for how many decades?
    Ms. Barra. For, I would say, at least my career, and it has 
been improving along the way.
    Senator Johnson. And the engineering departments, in 
particular, are totally focused on those TQM principles, 
correct?
    Ms. Barra. Correct.
    Senator Johnson. Wouldn't there be--when you change a part, 
OK, there is going to be an awful lot of engineering that goes 
into changing that part, correct? There are going to be 
subparts that go within a part----
    Ms. Barra. It depends on the change in the----
    Senator Johnson. Well, let's say an ignition switch. How 
many--there are multiple parts to an ignition switch, correct?
    Ms. Barra. Correct.
    Senator Johnson. So when you redesign that, there are going 
to be different parts combined with that part.
    Ms. Barra. And then the part number that General Motors 
uses as the sub-assembly comes to us would have a unique 
individual part number.
    Senator Johnson. So it would be very difficult within a 
total quality management system to have multiple changes in 
part numbers combined in an assembled part and then not have 
that part number changed in a completely different part, 
correct?
    Ms. Barra. I agree.
    Senator Johnson. Almost impossible.
    Ms. Barra. It is wrong.
    Senator Johnson. Which means it wasn't just a mistake. 
Somebody had to proactively make sure that that part number did 
not change, correct?
    Ms. Barra. That is why we are investigating, to learn 
exactly why that happened.
    Senator Johnson. But, again, within a total quality 
management system, with everything that goes into changing a 
part, an assembled part, so there are going to be different 
part numbers combining into that part, there is really no 
conceivable way, within a total quality management system, with 
computers as they are today, with the types of controls you put 
in a total quality management system, that within that system a 
new assembled part would not have a different part number.
    Ms. Barra. I agree with you, and that is why I find it so 
disturbing.
    Senator Johnson. So, basically, what the conclusion would 
be is that process, that procedure, that computer system was 
purposefully overridden.
    Ms. Barra. That is why we are doing the investigation.
    Senator Johnson. OK. Well, again, that is the assumption we 
have to make, right?
    Now, also within that traceability part of a total quality 
management system, we should be able to quickly identify who or 
what departments were involved in that, correct?
    Ms. Barra. And we are doing that.
    Senator Johnson. OK. Now, again, I am no attorney, I can't 
really speak to criminality. But it is going to be pretty 
important to find out who was responsible for overriding the 
quality system to change that part.
    Ms. Barra. I want to understand why those actions were 
taken.
    Senator Johnson. And the only reason anybody would make 
sure in a total quality management system that a part number 
didn't change would be to hide the fact that that part changed 
for some reason, correct?
    Ms. Barra. I would like the complete investigation to be 
completed before I start making assumptions.
    Senator Johnson. OK.
    I have no further questions. Thank you.
    Senator McCaskill. Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Madam Chair.
    This is a Chevy Cobalt 2006 ignition switch. This is the 
same design that failed, shutting off vehicle airbags and 
killing innocent victims. We now know that the difference 
between this switch and one that would have worked was the 
difference between life and death. And do you know the other 
difference? The other thing that we now know? That it would 
only cost $2 to repair--$2. And that is how little this 
ignition switch would have cost.
    And it was apparently $2 too much for General Motors to 
act, despite a decade of warnings, accident reports, and 
deaths. And while a number of investigations are ongoing to 
determine exactly how many times this evidence was covered up 
by GM or ignored by NHTSA, there is one clear conclusion that 
we can make, and that is: It is much more difficult to cover up 
evidence that is publicly available.
    Ms. Barra, if I have a car accident and decide to report 
the details to NHTSA, NHTSA puts that information into a public 
consumer complaint data base. But if I made the very same 
complaint to General Motors instead of to NHTSA, GM can deem 
all the details of my complaint to be confidential business 
information. And it does that every single time.
    You told Senator Coats that you would have all of the 
information, that you would share anything and everything 
related to GM's Cobalt situation. My question to you is this: 
Will you commit publicly to disclosing all documents, including 
accident reports, notices that a fatal accident could have been 
caused by a safety defect, and all details of consumer 
complaints GM receives about all of its vehicles going forward, 
Cobalt or any other vehicle?
    Ms. Barra. I understand there are different things being 
looked at to see what we should be reporting to NHTSA. And we 
will actively support looking at what we think would be useful 
to help, you know, speed the process of understanding a defect 
or understanding why something happened.
    We will work cooperatively. And I understand there is 
legislation under way, and we would be happy to review and 
provide input.
    Senator Markey. All right. So let's reach the legislation, 
because it is clear that if you are not going to commit to 
doing it voluntarily, that we need legislation that mandates 
it.
    The families are here. The victims are here. They want to 
be vindicated, themselves, but they don't want other families 
to ever suffer what they have suffered.
    So Senator Blumenthal and I have introduced legislation, an 
early warning reporting system. Let me ask you this: Our bill 
would require automakers to submit the documents that first 
alerts them to fatal accidents involving their vehicles to the 
searchable early warning reporting system. Would you support 
that legislation?
    Ms. Barra. Again, that legislation is being reviewed by our 
team. We are providing input. We need to review the entire 
legislation.
    Senator Markey. Number two, it would require the 
Transportation Department to publish materials it receives 
about safety incidents that it currently keeps secret. Could 
you support that for families across America?
    Ms. Barra. Senator, as this bill is put forward, we would 
like to review it in its entirety and provide input, and then 
we will comply with whatever legislation is passed. And we will 
work proactively with NHTSA to try and make sure the most 
helpful information is brought forward.
    Senator Markey. Number three, it would require the 
Transportation Department to upgrade its data bases to give 
consumers the tools they need to protect the members of their 
family. Can you support that?
    Ms. Barra. The answer, again, we will look at--I would like 
to look at the legislation in its entirety and provide input 
and work with NHTSA to make sure the appropriate information 
that will be most helpful is what is made available.
    Senator Markey. Fourth, it would require the Transportation 
Department to use the information it has to better identify 
fatal defects before they claim more innocent lives. Can you 
support that legislation for every auto company in America?
    Ms. Barra. Again, I would like to look at the legislation 
in its entirety, look at what makes the most sense, working 
with NHTSA to make sure the most valuable information is put 
forward.
    Senator Markey. I am very troubled that you are not willing 
to commit to ending this culture of secrecy at General Motors.
    Ms. Barra. I didn't say that.
    Senator Markey. Yes, you have, OK? And I know this, OK, 
because I have tried year after year, for more than 10 years, 
to have legislation passed that would require the disclosure of 
all of this information, and it was the automobile industry 
that killed my legislation year after year.
    And this is the moment now for you to say more than that 
you are sorry, but that you are going to commit that families 
get the information to make sure that it never affects any 
other family in America again.
    And you should be in a position right now, Ms. Barra, I am 
telling you this, to say, ``We will disclose this information. 
We will make it available.'' You have had more than 2 months 
now to make this decision. You have had more than 2 months to 
think about what went wrong. You have had more than 2 months to 
think about why you worked to kill legislation, as a 
corporation, for years that provided a consumer database so 
that individual families knew that their families could be 
harmed.
    And yet you still do not have an answer. You still do not 
understand what the American public wants. They need the 
information to protect their families. And it is important for 
everyone to know that General Motors is still not giving us the 
``yes'' the American people want to that question.
    Senator McCaskill. Ms. Barra, how many lawsuits relating to 
the defect, both pending and closed, as well as settlements, 
has GM been a defendant or a co-defendant?
    Ms. Barra. I don't have that information. I can provide it 
to the Committee----
    Senator McCaskill. I am assuming you have had some briefing 
from your counsel about your exposure on this defect?
    Ms. Barra. We have not talked about exposure. It is very 
important, once we realized the situation, we immediately hired 
Anton Valukas. We don't want to have multiple investigations. 
We thought it was most important to have----
    Senator McCaskill. I am not asking about investigations. I 
am saying, as the CEO of General Motors, you have not had a 
briefing by your general counsel about the litigation that is 
ongoing against your company concerning this defect? You have 
not had that conversation?
    Ms. Barra. I have been focused on getting the parts for 
customers.
    Senator McCaskill. We would like to know how many cases 
have been filed. We would like to know how many cases have been 
completed. We would like to know how many are settled and, most 
importantly, how many of those required confidentiality. How 
much Whac-A-Mole has been going on, in terms of trying to deal 
with these lawsuits on a one-off basis and leveraging what a 
lawyer wants to do for their client with the requirement of 
secrecy.
    Has Mr. DiGeorgio been fired?
    Ms. Barra. As the investigation has only been going on for 
a couple weeks, we have already made process steps. As I return 
to the office, we will start to look at the people 
implications.
    Senator McCaskill. So he has not been fired.
    Ms. Barra. No, he has not.
    Senator McCaskill. OK. Is he still working there every day?
    Ms. Barra. Yes.
    Senator McCaskill. OK. And you know that he lied under 
oath.
    Ms. Barra. The data that has been put in front of me 
indicates that, but I am waiting for the full investigation. I 
want to be fair----
    Senator McCaskill. OK. Well, let me help you here. He said 
several times he had no idea these changes had been made. Here 
is a document that he signed under his name, Mr. Ray DiGeorgio. 
He signed it on April 26, 2006, approving of the change.
    Now, it is hard for me to imagine you would want him 
anywhere near engineering anything at General Motors under 
these circumstances, and I, for the life of me, can't 
understand why he still has his job.
    And I think it is--I know you want to be methodical, I know 
you want to be thorough, I know you want to get this right. But 
I think it sends exactly the wrong message, that somebody who 
perjures repeatedly under oath--he wasn't just asked the 
question once. He was asked the question over and over again.
    Now, here is the really important question. This document, 
which is completely relevant to any lawsuit that is filed 
against GM around these crashes, would have been included in 
any document request from any lawyer representing a family. 
This document was not given to Mr. Cooper. This document was 
withheld from the lawyer representing the family of Brooke 
Melton. He didn't even find out about this document until after 
his case had been settled.
    How do you justify withholding a key piece of documentary 
evidence in a litigation concerning a part that was changed 
without a part number change that is spelled out in this 
document for anyone to read? How does that happen?
    Ms. Barra. I cannot--I don't condone not providing 
information when requested, you know, in a legal proceeding. 
And if that was done, we will deal with the individuals 
accountable for that.
    Senator McCaskill. Well, I think it is very important that 
we find out how many cases this document was provided to 
counsel and when it was requested. It is clearly within the 
scope. I guarantee you, there was not a request for documents 
being made of GM around these cases that the scope of the 
request did not include this document.
    And I want to know in how many cases they buried this 
document. Because this is what happens in America. Corporations 
think they can get away with hiding documents from litigants 
and that there will be no consequences. And I want to make sure 
there are consequences for hiding documents. Because this is 
hiding the truth from families that need to know. And it is 
outrageous, and it needs to stop.
    Last month, the Department of Justice announced a $1.2 
billion settlement in a criminal case against Toyota. It 
resulted in a massive recall, unintended acceleration; we have 
talked about it in these hearings.
    What is particularly relevant to you--and I want to put 
this on the record--is the facts around the redesign of a part 
in that criminal case. And I am going to quote from the facts 
of that settlement.
    Toyota redesigned a part using, ``a designation that 
entailed no part number change.'' Department of Justice said 
that Toyota engineers did this explicitly to, quote, ``prevent 
their detection from NHTSA.''
    And I know this has gone over with you time and time again, 
but I wanted to make sure we got that in the record, that we 
have had it occur with another car manufacturer.
    Finally, I want to talk just for a minute about the nature 
of the defect. I am confused about this. When I was going 
through all the documents preparing for this hearing, in his 
testimony, Acting Administrator Friedman says that GM's own 
technical specifications for the Cobalt call for the airbag 
system to contain an independent power source that is armed and 
ready to fire for up to 60 seconds after the vehicle's power is 
cutoff. That is in GM's specifications to NHTSA.
    Is that an accurate description of the technical 
specifications?
    Ms. Barra. I don't know. I would have to go back and review 
that. And I can provide that information.
    Senator McCaskill. Because there seems to be a problem 
here. Because if the specifications say that airbag deploys 
when power is off and we know these airbags are not deploying 
when power is off, then we have a much bigger problem. That 
means we could have airbags across the entire automobile 
industry that do not have the appropriate sensors in there that 
allow for the deployment even when the power has gone off 
during some kind of collision or, in this case, because of a 
defective part.
    That would be information we would also like you to follow 
up on.
    Ms. Barra. OK.
    Senator McCaskill. Finally, two things for the record.
    Will you commit to coming back in front of this committee 
when you can answer the questions?
    Ms. Barra. Yes.
    Senator McCaskill. And, second, all the information you are 
providing to NHTSA on Friday, would you be so kind as to 
provide a copy of all of that information to this committee?
    Ms. Barra. Yes.
    Senator McCaskill. Thank you.
    Senator Heller?
    Senator Heller. Thank you, Chairman.
    You have answered most of the questions with the response 
that there is an ongoing investigation, you want to see the 
results of that. Do you have a target date for when that review 
will be complete?
    Ms. Barra. I hope to have that done within 45 to 60 days.
    Senator Heller. Forty-five to 60 days. I think that is 
important for us to know.
    Ms. Barra. And I have asked Mr. Valukas to go as quickly as 
he possibly can but not sacrifice accuracy for speed.
    Senator Heller. What opportunities will we have to review 
that?
    Ms. Barra. As I said before, any information related to 
safety, anything related to this incident, anything we think 
would help, you know, from a NHTSA broader--we will provide it. 
The only thing we won't is issues of competitiveness, or if 
there are privacy issues, we have to comply.
    Senator Heller. How broad will this review be?
    Ms. Barra. I have asked Mr. Valukas to--there are no 
boundaries and there are no sacred cows. I want to make sure we 
have a complete understanding, because only with a complete 
understanding can we make all the changes we need to make from 
both a people and a process perspective.
    Senator Heller. Is Delphi a vendor or a subsidiary?
    Ms. Barra. Delphi is a supplier, not a subsidiary.
    Senator Heller. OK. OK. Will this overview include looking 
at Delphi and their participation in this?
    Ms. Barra. To the extent that Mr. Valukas goes in that 
direction and we get information from them, yes.
    Senator Heller. I think it would make some sense to talk to 
people at Delphi and find out, in their words, and perhaps 
bring them to this committee to find out what their 
understanding is and make sure--to determine, you know, their 
involvement in this particular case.
    Can you tell us whether or not this is a one-time 
occurrence?
    Ms. Barra. As I look at it, I see it as a very 
extraordinary situation. There have been many, many cases where 
we have been quick to act from a safety recall process. And, as 
I mentioned before, often we are known to do more recalls of 
smaller population because we want to get to issues as quickly 
as we can.
    Senator Heller. So you have no recall of whether or not a 
similar situation has occurred in the past, where two different 
parts had the same part number?
    Ms. Barra. I am not aware of that. That is bad engineering.
    Senator Heller. Do you think it was an oversight on Delphi?
    Ms. Barra. I don't know. And that is what I hope to learn 
with the investigation. I want to understand all the parties 
involved and what they did, what was wrong, what was not 
following process, et cetera.
    Senator Heller. What would you consider the financial 
stability of GM in 2005, 2006, and 2007, just before the 
taxpayers bailed them out?
    Ms. Barra. Poor.
    Senator Heller. What do you think would have been the 
damage done to the public image if the company had initiated a 
recall of these cars in 2005?
    Ms. Barra. I can't--I can't, you know, guess what that 
would have been. Obviously, it would have been less than it is 
now. And it would have been much better to have this issue 
resolved, because it clearly took too long.
    Senator Heller. Do you think GM would have survived if they 
had recalled cars in 2005?
    Ms. Barra. I can't guess.
    Senator Heller. Do you think the company took that into 
consideration?
    Ms. Barra. I did not take that into consideration and know 
of no one who did.
    Senator Heller. That perhaps GM would have gone under had 
they initiated a recall in 2005?
    Ms. Barra. I don't know.
    Senator Heller. All right. Thank you, Ms. Chairman.
    Senator McCaskill. Senator Boxer?
    Senator Boxer. Ms. Barra, I really hate to say this, but if 
this is the new GM leadership, it is pretty lacking. And maybe 
this round, you can change my mind. I will give you another 
chance to. But leadership means stepping out with a fresh 
start, and I don't see it.
    For example, you had Mr. Blumenthal, Senator Blumenthal, 
show you the recall notice, and you still won't say that 
everybody who has these cars should get rid of it, even though 
the recall notice says, if your keychain is heavy or you go 
over rough roads--have you seen this winter? In Vermont, they 
had 94 occasions of snow. Do you know what that does to the 
infrastructure? Look, you should have said, ``You are right.''
    Then Mr. Markey, Senator Markey, who is a great leader on 
this, says, will you support just making transparent the 
reports to the company that there is a problem with a car, put 
it out there? Oh, no, you can't--you can't answer that either.
    So then my question, in March 2005, your GM people said it 
cost too much to fix these cars. The code words, ``None of the 
solutions represents an acceptable business case.'' Now, that 
was a public document. GM gave that document over. Oh, you 
can't even talk to that. You don't know anything about 
anything.
    And, Madam Chairman, who is not here, I am going to ask 
unanimous consent to place in the record more pictures of Mary 
Theresa Ruddy's car. And what kind of a death follows that kind 
of a crash, you can see from there.
    So, without objection, I will put that in.
    [The information referred to follows:] 
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                            ------                                

    Senator Boxer. Now, it is my understanding you are 
recalling many of your cars now. Not all of them, but if people 
want to, they can say, please pay for a loaner. Is that 
correct?
    Ms. Barra. That is correct.
    Senator Boxer. Well, that is the right thing to do. But do 
you support a law that would say recalled cars like yours can 
no longer be rented or loaned? Do you support a law like that?
    Ms. Barra. If there is a safety issue on the vehicle--and 
we made sure on these vehicles that they are grounded, all of 
these----
    Senator Boxer. No, no. Do you support a proposed law by 
Senator McCaskill and myself that would say recalled cars like 
yours can no longer be rented or loaned? We have a law. Do you 
support that law--that proposal, that bill?
    Ms. Barra. I would like to read the whole bill before I say 
if I support it or not.
    Senator Boxer. You would like to read it? You haven't read 
it?
    Ms. Barra. No, I have not.
    Senator Boxer. Well, it is been out a long time.
    Are you aware that recalled cars can be rented or loaned? 
Are you aware of that?
    Ms. Barra. I know that----
    Senator Boxer. So you can send your owner of one of these 
cars to a rental place or get a loaner and they could lease and 
they could get a defective car. Are you aware of that, that 
there is no law that says----
    Ms. Barra. I know, because I have checked for the vehicles 
here, that they are grounded.
    Senator Boxer. Say that again.
    Ms. Barra. For this specific issue, one of the first things 
we did is made sure that the rental agencies----
    Senator Boxer. I am not asking you about that. I am asking 
you, do you support a law that Senator McCaskill and I and 
Schumer and others have proposed that would say, if a car is 
recalled, it cannot be leased or loaned?
    Ms. Barra. My understanding is the rental community is 
voluntarily complying with that, and----
    Senator Boxer. Do you support a law----
    Ms. Barra. Conceptually----
    Senator Boxer.--yes or no?
    Ms. Barra. Conceptually, it makes sense. I would like to 
understand the----
    Senator Boxer. Well, ``conceptually'' is not the question. 
Do you support the bill?
    Ms. Barra. I haven't read it.
    Senator Boxer. Well, you should, since you were the CEO of 
GM when we got an e-mail from your organization that you are 
part of, the manufacturers alliance, opposing the bill. So you 
already were CEO--this is the new GM--and you opposed the law.
    Now, you should know that my constituent, Cally Houck, lost 
her two daughters--Raechel, 24, and Jacquie, 20--in a tragic 
accident caused by an unrepaired safety defect in a rental car 
they were driving. So Senators Schumer and McCaskill, we wrote 
the Raechel and Jacqueline Houck Safe Rental Car Act. And you 
know what? The rental car people support it, but you don't. The 
automobile manufacturers don't.
    So you are essentially bragging today, if I may use the 
word, that you are telling your people, oh, go get another car. 
But at the same time, your lobbying organization is opposing a 
bill that would make sure that no one--no one--would die the 
way they died.
    So I would say, Madam Chairman, I am so grateful to you and 
Senator Heller for this hearing. These issues run deep, and we 
have work to do.
    And I am very disappointed. Really, as a woman to woman, I 
am very disappointed. Because the culture that you are 
representing here today is a culture of the status quo.
    Thank you.
    Senator McCaskill. Senator Klobuchar?
    Senator Klobuchar. Thank you, Madam Chairman.
    I just have a few specific follow-up questions, Ms. Barra.
    In your testimony, you mention the steps GM has taken in 
terms of this recall. And because the recall focuses on model-
year vehicles built way back from 2003 to 2007, I wonder how 
many of these vehicles are now on their second or third owners 
and if this is creating challenges to reach these owners and if 
there is anything more that can be done.
    Ms. Barra. One of the things we would very much support is 
some type of data base--I don't know the right agency to manage 
it--where we would have the latest owners attached to the VINs.
    What we do when we have this issue, because we want to get 
second, third, however many owners there are, is we go to Polk, 
where registration data is kept, and that is how we get the 
latest information.
    But if there was something that allowed--that there was a 
master database, as such, that you always knew what VIN and who 
was the registered owner, that would be incredibly helpful.
    Senator Klobuchar. OK. And this would be something from the 
Department of Transportation or----
    Ms. Barra. Transportation or NHTSA. I am not sure which 
agency would do that. But that would be something I think would 
be very beneficial.
    Senator Klobuchar. OK. Well, we should approach them about 
that with the next questions.
    Ms. Barra, GM received--I think some of my colleagues have 
gone over this, but--consumer complaints related to the faulty 
switch for years, evidence back to 2011. Internally, what we 
have learned is the company conducted reviews, issued service 
bulletins to dealers on how to advise customers on the problem, 
and even approved redesign to the ignition switches. But none 
of this was ever made public, and, as we know, we didn't get 
this formal investigation by 2011.
    Was it that GM management felt that they could handle this 
internally and make these changes? I am just trying to 
understand the reasoning. And I know you are doing this 
investigation, but----
    Ms. Barra. I am trying to understand it, as well, because 
it took way too long. I understand if it had been handled more 
quickly, there--once there is a safety issue, it should never 
have a business case that goes against it in making any part of 
decisionmaking. And as we go forward now, there isn't any.
    So I am as disturbed as you. I want to understand. And I 
commit to you, I will make change, both people and process.
    Senator Klobuchar. OK.
    Delphi Automotive, the company that produced the ignition 
switches that are linked to this defect, has informed 
congressional investigators that GM approved the original part 
in 2002, even though it didn't meet GM's specification for 
torque performance.
    Do you think it met those specifications?
    Ms. Barra. I understand there is documentation that exists 
that says it doesn't, and that is what I have to understand, 
why that happened.
    Senator Klobuchar. OK.
    And then last, in your testimony you mentioned you had 
named a new vice president for global vehicle safety. I think 
that sounds like a pretty good idea right now, but I was 
surprised there wasn't already a person high up in the company 
dedicated solely to safety.
    Will the person in the position be involved with key 
decisions related to safety that are made by upper management?
    Ms. Barra. This person will have free rein and have input, 
have a team and access to all information across. We are going 
to be investing in more resources for this individual so they 
can use the right data analytic tools to sometimes put the 
pieces together more quickly.
    He will sit on the staff of our head of vehicle development 
for the entire globe. And he will meet with me on a monthly 
basis and meet with our board on a quarterly basis.
    Senator Klobuchar. And how are you going to measure if it 
is working or not, what, you know, his success is in that 
position?
    Ms. Barra. Again, I will look to make sure how quickly, 
when we learn of an issue, how quickly we understand it and 
implement change and, you know, work with NHTSA and take the 
necessary steps, all the way up to and including a safety 
recall.
    Senator Klobuchar. And do other automobile companies have a 
person in place like this, a position like this?
    Ms. Barra. I haven't done a read across of other OEMs to 
look at that.
    Senator Klobuchar. OK.
    Well, I am going to put the letter on the record from our 
constituent who perished in the car crash, named Natasha 
Weigel.
    [The information referred to follows:]

Dad--

Over the past 13 years or so years of playing hockey I have learned so 
many things about life, about people, and what I've noticed/watched/
learned from you is to always keep your head in the game no matter how 
tough it may be. You've watched me go through my up's and downs and now 
that Im back home you have helped me become a better person. If you 
wouldnt have signed me up for hockey my very first year you and I both 
probably wouldn't be the same people we are today, I believe it's made 
us closer and better people. It has deffinetly helped me believe in 
myself and taught me to trust others. I wouldn't be the good goalie I 
am now if it wasn't for you standing behind the net behind the glass, 
just knowing you were there made me trust myself better and I 
deffinetly felt secure to know you had my back. I just want to thank 
you for everything you have done to help me succeed with my hockey 
career, thanks for bein the hockey Dad any girl could wish for.

            Tasha
            2006

    Senator Klobuchar. And I think just as many of these other 
senators, my thoughts and prayers are with her family as they 
pursue justice, and all the families behind you.
    And obviously there is a lot more work to do, so thank you 
for appearing today.
    Senator McCaskill. Senator Blumenthal?
    Senator Blumenthal. Thank you, Madam Chairman, and thank 
you for committing to continue these hearings.
    Ms. Barra, we were talking about the recall notice, and I 
was pointing out that you said there is no risk as long as 
people don't add keys to the ignition key; is that correct?
    Ms. Barra. I said that there has been extensive engineering 
analysis and testing done that demonstrates that the weight of 
the key or the key and just the ring----
    Senator Blumenthal. Who has done the analysis?
    Ms. Barra. General Motors engineers.
    Senator Blumenthal. Would you commit to making them 
available to us?
    Ms. Barra. Yes.
    Senator Blumenthal. And would you commit to providing 
documents that support that analysis, any documents in 
connection with that analysis?
    Ms. Barra. Yes.
    Senator Blumenthal. Thank you.
    Now, are you saying the recall notice is wrong? Because the 
recall notice says risk increases with rough roads or jarring 
events.
    Ms. Barra. I think it was trying to capture the elements of 
when----
    Senator Blumenthal. Well, do you agree or disagree? I 
apologize again for interrupting. Are you saying that the 
recall notice is wrong?
    Ms. Barra. No.
    Senator Blumenthal. So that people should not drive on 
rough roads or with jarring events using one of the recalled 
unrepaired automobiles.
    Ms. Barra. I think the notice was trying to be descriptive 
of the situation where it is most likely to occur. But, again, 
the testing is related to the key.
    Senator Blumenthal. What would it take to change your view, 
that people should not be driving these unrepaired recalled 
cars? If I came to you with 100 events of people finding that 
they lose power and control of their cars, would that persuade 
you?
    Ms. Barra. It wouldn't take 100 events. I mean----
    Senator Blumenthal. It would take 10?
    Ms. Barra. It wouldn't--it would take--I mean, my 
understanding is, with the key or the key and the ring, this 
phenomenon that caused these issues will not occur. If it was 
anything more than that----
    Senator Blumenthal. But if I came to you with those 
events--and there are those events--would that persuade you?
    Ms. Barra. I am not aware of any events where it was just 
the key or the key ring where that occurred.
    Senator Blumenthal. If I came to you----
    Ms. Barra. Yes, it would.
    Senator Blumenthal. If I came to you with the death of a 
young woman, who went to school not far from here, who was 
driving one of these cars unrepaired and was killed when her 
airbag was disabled because of this defect, would it change 
your view?
    Ms. Barra. Senator Blumenthal, my response is to if there 
is just the key or the key and the ring. That is the analysis 
we have done to indicate that these vehicles are safe to drive.
    Senator Blumenthal. I know you have done that analysis, but 
would it change your view on whether you would recommend to 
your customers that this car is fine to drive, no risk, as long 
as you don't add keys to the ignition?
    Ms. Barra. I guess I am not clear on what you are asking 
me.
    Senator Blumenthal. I am asking whether that additional 
information--you are an engineer----
    Ms. Barra. But----
    Senator Blumenthal.--you make decisions based on----
    Ms. Barra. What additional information are you providing?
    Senator Blumenthal. About deaths or loss of power and 
control over cars, those kinds of events, in cars that have 
this defect and encounter rough roads or jarring events.
    Ms. Barra. Senator, if I had any data, any incidents where 
with just the key or the key and the ring there was any risk, I 
would ground these vehicles across the country.
    Senator Blumenthal. Have you ever been in a car that has 
lost control over power-steering, brakes?
    Ms. Barra. I have been in a vehicle that lost power-
steering and power-brakes.
    Senator Blumenthal. Driving privately, not in a test 
vehicle?
    Ms. Barra. I was driving on public roads. So it wasn't a 
test vehicle; it was a motor--safe vehicle to be on the roads.
    Senator Blumenthal. Pretty frightening.
    Ms. Barra. It can be startling.
    Senator Blumenthal. And have you spoken to the families?
    Ms. Barra. I did speak to the families on Monday night.
    Senator Blumenthal. And you have mentioned GM's civic 
responsibility. Don't you believe it has a moral responsibility 
here to advise more strongly its customers about these 
potential risks?
    Ms. Barra. We are engaging in a multi-dimension 
communications effort--letters to people, we are monitoring 
social media, we have a dedicated website. We are working 
multiple channels to make sure we communicate with the 
individuals that would own these vehicles or drive these 
vehicles.
    Senator Blumenthal. Well, let me just say, because my time 
has expired, again, first, my thanks for facing these 
questions.
    This GM is not the old GM; it is not even the pre-2014 GM. 
What you are doing now is incurring both legal and moral 
responsibility for the actions that you are taking or failing 
to take.
    And I will tell you that the more I hear and see in these 
documents, the more I learn about what happened before the 
reorganization and in connection with the reorganization, the 
more convinced I am that GM has a real exposure to criminal 
liability. In fact, I think it is likely and appropriate that 
GM will face prosecution based on this evidence. And I think 
the more that you can do as a leader of GM to come forward and 
do the right thing now, the better it will be for the future of 
the company.
    So I hope to continue to work with you and hope that you 
will review the legislation that has been offered, because, 
going forward, it came make a real difference.
    Thank you, Madam Chairman.
    Senator McCaskill. Senator Ayotte?
    Senator Ayotte. Thank you, Madam Chair.
    As I understand it, at this point, nobody within GM has 
been fired as a result of the issue that comes before us today 
on the ignition switch and obviously this long pattern of 
having information and not providing disclosure and recall to 
the public. Is that true? Nobody yet has been fired?
    Ms. Barra. I think it is important to do a complete 
investigation, but we will take the appropriate action. But, 
yes, that is true.
    Senator Ayotte. So one thing, you have hired to conduct 
this internal investigation. And I assume GM is paying Mr. 
Valukas, correct?
    Ms. Barra. Correct.
    Senator Ayotte. Now, I am aware of his qualifications, and 
certainly I think that he is a very qualified individual. 
However, it seems to me--how will you guarantee that--
basically, all of the individuals who--or maybe not all of 
them. Maybe some of them are no longer with the company. But I 
think we can guess that many of the individuals who were 
involved in the decisions that led us to where we are today are 
still at GM or potentially could be at GM.
    And we already have the situation that the chair mentioned 
with regard to the failure to disclose in the litigation 
documentation that was directly relevant to the litigation that 
showed the change in terms of the part and the failure to 
create a new number for the change in the defective ignition 
switch.
    And I guess I am very concerned, how are you, as CEO, going 
to guarantee that no documents are withheld from not only Mr. 
Valukas but also investigations that are being conducted by the 
Government?
    And how are you going to ensure that, given that the people 
that Mr. Valukas is going to be focused on, I think many of 
them are going to be worried about their own future and 
liability, whether it is civil or criminal liability, that you 
actually can get to the bottom of this with this internal 
investigation?
    Ms. Barra. Again, Mr. Valukas, I think, is very experienced 
in doing this. He has several decades' worth of experience and 
has the highest integrity. I certainly know he is not going to 
compromise his reputation for General Motors. And I have 
confidence based on the fact he has done investigations in the 
past.
    And we have gotten to the truth by, you know, going to 
multiple sources to get to the truth. And we will act on it, 
and we have demonstrated that we would, up to and including 
discharging people.
    Senator Ayotte. And I have no doubt, as I have said, about 
Mr. Valukas's qualifications.
    Have you already segregated all the documents and put them 
aside that are related to this issue, and evidence that you are 
aware of now, so that Mr. Valukas at least has that set aside?
    Because, at the moment, you know, given the potential 
liability that we are facing, it seems to me--and you are 
potentially facing--that this is a very important issue, to 
ensure that no one can interfere with that at this point.
    Ms. Barra. I agree with you, it is a very important 
investigation. And that is one of the reasons we only have one 
independent person doing that investigation. And there are, I 
believe, over 200 people who already have, you know, a document 
litigation hold. So we are doing everything that we can to make 
sure he has access to everything and anyone he wants.
    Senator Ayotte. So you have actually already set aside to 
ensure that these documents are preserved and anyone that he 
needs access to he is able to have access to?
    Ms. Barra. I would say, anyone he wants to have access to 
he will have access to.
    When you use the term ``set aside,'' again, everybody has 
been placed, that is remotely in connection, on litigation 
holds so they cannot--you know, the documents exist, and they 
are on notice that they cannot do anything with their 
documents.
    Senator Ayotte. Well, it seems to me that they may not be 
on notice that they can't do anything with their documents. But 
I would hope that you, as CEO, would be making sure that it is 
not just that you are telling that to people but you actually 
are ensuring that these documents can't be interfered with 
before he undertakes his investigation.
    And my question to you would be, when this investigation is 
conducted, I appreciate that you said you are willing to come 
back to the Committee, and we thank you for that. Will you make 
Mr. Valukas available to this committee?
    Ms. Barra. I think that would be Mr. Valukas's option, not 
my decision to make for him.
    Senator Ayotte. Well, you have hired him. And as far as I 
know, when you hire someone to conduct an investigation--
because I have done it before, as attorney general of our 
state. One of the terms that I would want to work out up front 
is, will you be willing to present the results of your 
investigation, and to whom would you be willing to present 
them? So you have not come to that agreement with him?
    Ms. Barra. I would share the results of the investigation, 
as I have already said. I would share it with this committee, 
with Congress, with NHTSA, and with our employees and 
customers.
    Senator Ayotte. Well, I guess I think that if you are going 
to have confidence--and you have said multiple times in this 
hearing that you are confident with Mr. Valukas. I don't 
question his credentials. He has exemplary credentials. And it 
seems to me that we would want to hear--obviously appreciate 
your testimony as the CEO and certainly want to hear what steps 
you are taking to address this issue. But I would think it 
would be important for this committee, actually, to hear 
directly from Mr. Valukas on the investigation itself and what 
the scope of his investigation was.
    So thank you.
    Senator McCaskill. Thank you, Ms. Barra.
    I know, if I go back and review this hearing, I will say to 
myself, you got too excited and you went too hard. But the 
passion is real on this side of the table. So to the extent 
that this has been a rough day for you, it is coming from the 
right place. It is coming from a deep commitment that many of 
us have to these families and to automobile safety in this 
great country of ours. You had a great company. And you have an 
enormous responsibility to get this right.
    We appreciate you being here. And I can't promise that the 
next time you are here I will not get as aggressive as I have 
today. But I do think it is important that we point out the 
many problems that these facts present to you and your company 
and to the legacy of General Motors going forward.
    This is an incredibly important moment in your corporate 
history. And you are in charge. And you have to make some very 
tough decisions going forward, and we will be monitoring all 
those decisions. And we will look forward to having you back 
here to testify when you can go into the details of the 
investigation.
    And I would ask that you make sure that your investigator 
look at a pattern of the legal counsel in your corporation--how 
are they cooperating with litigation, why are they requiring 
confidential settlements. I think that is something that we 
need to understand, because it is, in fact, because of those 
confidential settlements that many of these problems do not get 
the light of air that they should.
    And I am just glad that in this instance Mr. Cooper and his 
engineer, Mr. Hood, did what they did, because they performed 
the valuable service to this country that should have been 
performed by your company and by the Federal regulators.
    Thank you very much for being here.
    I want to thank you, Mr. Friedman, who is the acting 
administrator of the National Highway Traffic Safety 
Administration; and Mr. Calvin Scovel, Inspector General of the 
U.S. Department of Transportation. Thank you both for being 
here today. We look forward to your testimony.
    And we will begin with you, Mr. Friedman.

          STATEMENT OF HON. DAVID J. FRIEDMAN, ACTING

            ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC

                     SAFETY ADMINISTRATION

    Mr. Friedman. Thank you, Chairman.
    Chairman McCaskill, Ranking Member Heller, and members of 
the Committee, thank you for the opportunity to appear before 
you today.
    To begin, I would like to say that on behalf of everyone at 
NHTSA, we are deeply saddened by the lives lost in crashes 
involving the General Motors ignition switch defect. The 
victims' families and friends, several of whom I know were at 
the hearing yesterday and some who may be here today, have 
suffered greatly, and I am deeply sorry for their loss.
    Safety is NHTSA's top priority, and our employees go to 
work every day trying to prevent tragedies like these. Our work 
reducing dangerous behaviors behind the wheel, improving the 
safety of vehicles, and addressing safety defects has helped 
reduce highway fatalities to historic lows not seen since 1950.
    In the case of the recently recalled General Motors 
vehicles, we are first focused on safety and ensuring that 
General Motors identifies all vehicles with a defective 
ignition switch, fixes these vehicles quickly, and is doing all 
it can to inform consumers about how to keep themselves safe.
    We are also investigating whether General Motors met its 
responsibilities to report and address this defect, as required 
under Federal law. If it failed to do so, we will hold General 
Motors accountable, as we have in other cases over the last 5 
years, which have led to record fines on automakers.
    Internally at NHTSA and the department, we have already 
begun a review of our actions and assumptions in this case to 
further our ability to address potential defects. Today I will 
share what I have learned so far.
    In this case, NHTSA used consumer complaints and early 
warning data, three special crash investigations on the Cobalt, 
industry websites, and agency expertise on airbag technology.
    Some of that information did raise concerns about airbag 
nondeployments in these vehicles, so in 2007 we convened an 
expert panel to review that information. Our consumer complaint 
data on injury crashes with airbag nondeployments showed that 
neither the Cobalt nor the Ion stood out when compared to 
similar vehicles.
    The two SCI crash reports we reviewed at the time were 
inconclusive on the cause of nondeployment. The reports noted 
that the airbags did not deploy and the power mode was in 
accessory mode, but these crashes involved unbelted occupants 
and off-road conditions that began with relatively small 
collisions where, by design, airbags are less likely to deploy 
in order to avoid doing more harm than good.
    Further, power loss is not uncommon in crashes where 
airbags deploy and did not stand out as a reason for 
nondeployment.
    In light of these factors, NHTSA did not open an 
investigation.
    We continued monitoring the data, however, and in 2010 
found that the related consumer complaint rate for the Cobalt 
had decreased by nearly half since the 2007 review. Based on 
our engineering expertise and our processes, the data available 
to NHTSA at the time was not sufficient to warrant opening a 
formal investigation.
    So the question we are all asking is, what does this all 
mean? From my perspective, it means that NHTSA was concerned 
and engaged on this issue. This was a difficult case, where we 
used tools and expertise that over the last decade have 
successfully resulted in 1,299 recalls, including 35 recalls on 
airbag nondeployments alone.
    Those tools and expertise have served us well, and we will 
continue to rely on them but also to improve them. For example, 
we have already invested in advanced computer tools to improve 
our ability to spot defects and trends and are planning to 
expand that effort.
    But what we now know also clearly means that we need to 
challenge our assumptions and look at how we handle difficult 
cases like this going forward. So we are looking to better 
understand how manufacturers deal with vehicle power loss and 
airbags, especially when the ignition switch is turned.
    We are also considering ways to improve the use of crash 
investigations in identifying defects. We are reviewing ways to 
address what appear to be remote defect possibilities and 
evaluating our approach to engaging manufacturers in all stages 
of our defects process.
    Between these efforts and those of the department's 
Inspector General, I know that we will continue to improve our 
ability to identify vehicle defects and ensure they are fixed.
    But now I want to close on one important note. Our ability 
to find defects also requires automakers to act in good faith 
and provide information on time. General Motors has now 
provided new information definitively linking airbag 
nondeployment to faulty ignition switches, identifying a part 
change, and indicating potentially critical supplier 
conversations on airbags.
    Had this information been available earlier, it would have 
likely changed NHTSA's approach to this issue. The reality, 
however, is both NHTSA and the auto industry as a whole must 
look to improve.
    Madam Chairman, Ranking Member, members of the Committee, I 
greatly appreciate the opportunity to testify before you today. 
Thank you.
    [The prepared statement of Mr. Friedman follows:]

  Prepared Statement of Hon. David J. Friedman, Acting Administrator, 
             National Highway Traffic Safety Administration
    Chairman McCaskill, Ranking Member Heller, and Members of the 
Subcommittee:

    Thank you for the opportunity to appear before you today to discuss 
the recall process of the National Highway Traffic Safety 
Administration (NHTSA) and the General Motors (GM) ignition switch 
recall.
    Let me begin my testimony by saying, on behalf of everyone at 
NHTSA, that we are deeply saddened by the loss of life in vehicle 
crashes involving the GM ignition switch defect. Our deepest sympathies 
are with the families and friends.
    It is this kind of tragedy that our defects investigation team 
works long hours trying to prevent. Our core mission to save lives and 
prevent injuries on America's roadways is something we take very 
seriously, whether we are trying to curb dangerous driver behavior, 
improve the safety of vehicles, or find safety defects and ensure that 
automakers correct them.
    In today's testimony, I will give you an overview of NHTSA, who we 
are and what we do. I will go over the agency's defects investigation 
and recalls process that have led to thousands of recalls of millions 
of vehicles. Next, I will discuss where we are on each of three key 
priorities regarding this case.
    Our first priority is the recall; we need to ensure that GM gets 
the vehicles fixed quickly and that it is doing all it can to keep 
consumers at risk informed and to identify all vehicles that may have a 
defective ignition switch. Second, we are pursuing an investigation of 
whether GM met its timeliness responsibilities to report and address 
this defect under Federal law--an investigation that will end with 
holding GM accountable if it failed in those responsibilities. Third, 
we are examining the new facts and our efforts in this case to 
understand what took place and to determine how to continue to improve 
our efforts.
    NHTSA has an aggressive and effective defects investigation program 
with staff who is deeply and personally dedicated to their mission, 
often working nights and weekends in pursuit of potential defects. That 
work has resulted in thousands of recalls involving hundreds of 
millions of vehicles and items of motor vehicle equipment, which have 
helped to protect millions of consumers from unanticipated safety 
hazards in their vehicles (Figure 1).
Figure 1. Total Number of Vehicle Recalls, 1993-2013
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Based on our review of NHTSA's actions concerning airbag non-
deployment in the recently recalled GM vehicles, we know the agency 
examined the available information multiple times using consumer 
complaints, early warning data, special crash investigations, 
manufacturer information about how airbags function, and other tools, 
but did not find sufficient evidence of a possible safety defect or 
defect trend that would warrant opening a formal investigation. This 
was a difficult case pursued by experts in the field of screening, 
investigations and technology involving airbags that are designed to 
deploy in some cases, but not in cases where they are not needed or 
would cause greater harm than good. GM had critical information that 
would have helped identify this defect. With that and other information 
in hand, we can look for lessons learned from this experience that may 
further improve our process.
An Overview of NHTSA and its Mission
    NHTSA is not a large agency. We currently have 591 employees. The 
President's budget for Fiscal Year 2015 requests $5.2 million for 
additional staff to help strengthen our ability to address the enormous 
safety mission that this agency faces.
    NHTSA is a data-driven organization that approaches highway safety 
by considering both the behavioral and the vehicle aspects of crashes. 
Human behavior remains the leading cause of highway crashes and deaths, 
so NHTSA places an emphasis on reducing impaired driving, encouraging 
seat belt use at all times, and underscoring the dangers of distracted 
driving. These programs have shown enormous success over the years in 
driving down the number of deaths involving alcohol and driving up the 
percentages of vehicle occupants who wear seat belts. More work, 
however, is required, as nearly one-third of fatalities involve alcohol 
and more than half involve an unbelted occupant.
    As those efforts seek to change human behavior, NHTSA's vehicle 
safety program focuses on ways to save lives through safety 
improvements to vehicles, ensuring that vehicles meet all safety 
standards, and eliminating vehicle defects that pose an unreasonable 
risk to safety.
    Our research and rulemaking priorities concentrate on finding the 
areas of highest risk where new or amended vehicle standards can make a 
significant impact on reducing the death toll on our Nation's highways. 
In 2012, there were 5.6 million police-reported crashes in America, and 
tragically, 33,561 Americans died in fatal crashes. Because we know 
that most fatal crashes are caused by human behavior, and we know that 
vehicles are driven and controlled by humans who will make errors, we 
must continue to find more ways to protect drivers and passengers when 
crashes happen. NHTSA's regulation of occupant crash protection has 
resulted in significant improvements in the crashworthiness of today's 
vehicles. These standards have saved many thousands of lives and 
prevented countless injuries. Highway fatalities over the past five 
years are at lows not seen since 1950. NHTSA has also used its vehicle 
crash ratings to inform consumers and motivate vehicle manufacturers to 
voluntarily improve the safety of their vehicles above the Federal 
standards. This New Car Assessment Program (NCAP), known generally as 
the Government's 5-star safety rating program, has been an overwhelming 
success in driving improvements in vehicle safety. NHTSA was the first 
vehicle safety agency in the world to implement such a program. Today, 
these programs have been implemented around the world.
    Fatal crashes where a vehicle problem is a cause or contributing 
factor are relatively rare in comparison to crashes caused by human 
factors in properly functioning vehicles. But such cases receive 
significant scrutiny because NHTSA requires that automakers sell 
vehicles that meet specific safety standards and that they find and fix 
defects as soon as they are aware of them. As a result, we invest 
significant effort to find those problems through NHTSA's vehicle 
safety enforcement program.
    For vehicles and vehicle equipment in the U.S., manufacturers must 
certify that their products meet applicable Federal Motor Vehicle 
Safety Standards (FMVSS). The Office of Vehicle Safety Compliance 
(OVSC) tests a sample of new vehicles and equipment each year to 
determine whether they meet those standards. If the vehicles or 
equipment do not comply, manufacturers must recall them and provide a 
remedy to the consumer.
    The Office of Defects Investigation (ODI) has a different mission. 
ODI searches through consumer complaints, manufacturer data, data from 
NHTSA's National Center for Statistics and Analysis (NCSA), special 
crash investigations, and other sources for information that might 
indicate the presence of a defect or defect trend. Where it can find a 
possible defect or defect trend posing an unreasonable risk to safety, 
it investigates. If NHTSA can demonstrate that a defect exists and that 
it poses an unreasonable safety risk, the agency can order a recall.
    NHTSA's ability to influence or order recalls is its greatest 
strength in safeguarding against problems in the vehicles traveling our 
roads today. Since 2000, NHTSA has influenced, on average, the recall 
of nearly 9 million vehicles every year, as well as millions of items 
of equipment, for safety related defects.
An Overview of the Defects Investigation and Recall Process
Defects Investigations
    Each potential defect investigation is unique and dependent on the 
data gathered in each case. NHTSA uses a number of tools and techniques 
to gather and analyze data and look for trends that warrant a vehicle 
safety investigation, and possibly a recall. These tools include 
customer complaints to NHTSA, early warning data, as well as other 
sources that might provide related information, such as crash 
investigations and industry-related websites. Additionally, the law 
requires manufacturers to inform NHTSA within five business days of any 
noncompliance or defects that create an unreasonable risk to safety. 
They are then required to initiate a recall to remedy the defect and 
notify affected consumers.
    NHTSA's defects investigation office, ODI, has a staff of 51 
people. Their goal is to find possible defects or defect trends that 
may indicate significant safety risks in particular makes, models, and 
model years; determine whether there is an unreasonable safety risk 
apparently being caused by a defect; and, if so, persuade--or require--
the manufacturer to conduct a recall. The staff also performs other 
important functions, such as responding to inquiries and tracking the 
hundreds of recalls that occur each year. That entails monitoring 
quarterly reports on completion rates, ensuring the scope of the 
recalls is correct, and compiling information on recalls for the 
public.
    The defects investigation process begins with the screening of 
incoming information for evidence of a potential safety defect. 
Complaints from consumers are the primary source of information. NHTSA 
receives over 45,000 complaints a year through SaferCar.gov and the 
Vehicle Safety Hotline, and reviews each one promptly. Human eyes 
review every single complaint. Follow-up is sometimes required to get 
additional information, and in cases of interest, NHTSA staff will 
contact the complainants directly to obtain clarifying information. 
Screeners also look at technical service bulletins issued by 
manufacturers, reports of foreign recalls, crash investigations done by 
NHTSA's Special Crash Investigations office, and supplemental 
information such as occasional reports from insurance companies and 
information available on the Internet. When appropriate, the screeners 
consult NHTSA's crash databases, including the Fatality Analysis 
Reporting System (FARS) and National Automotive Sampling System (NASS). 
Also, members of the public may file petitions asking NHTSA to 
investigate and order a recall on a particular matter. The agency 
carefully reviews each petition before making a decision on whether to 
grant or deny it. If granted, a formal investigation is opened. Since 
2004, the agency has opened 980 investigations. These safety defect 
investigations have resulted in 1,299 recalls involving more than 95 
million vehicles, equipment, tires, and child restraints, which have 
helped reduce vehicle fatalities to historic lows. For example, a NHTSA 
investigation recently led to the recall of over 4 million child safety 
seats and is still underway regarding the possible recall of infant 
seats.
    Another important source of information is Early Warning Reporting 
(EWR) data submitted quarterly by manufacturers of vehicles, tires, and 
child seats. For light vehicle manufacturers, the data include counts 
of property damage claims, warranty reports, consumer complaints, and 
field reports, which are efforts by the automaker to look into specific 
incidents. These aggregate data are broken down by make, model, and 
model year and by component category (e.g., steering, braking, engine, 
speed control). Manufacturers must also submit brief reports on each 
claim against the company for death or injury allegedly related to a 
possible vehicle defect. The volume of the data received is enormous. 
NHTSA uses sophisticated data mining techniques to identify trends in 
the data that may be evidence of a safety defect. When potential trends 
are found, the EWR division can make a referral to the team involved in 
the screening process.
    Those who screen NHTSA's various sources of information are in 
constant communication and support each other in their efforts to 
identify potential defect issues. When patterns emerge from any source, 
the screeners look very carefully at what may be behind the patterns. 
Where there is possible evidence of a defect trend, the screening staff 
recommends that the appropriate investigating division consider opening 
an investigation. ODI staff meets regularly to determine which 
recommendations warrant opening an investigation and which may warrant 
continued monitoring. With preliminary evidence and 16 investigators, 
ODI must analyze all of the fact patterns and discern whether potential 
defects likely involve more serious risks or are likely to reveal a 
defect trend.
    If it is determined that an investigation is warranted, a 
preliminary evaluation begins. This often entails detailed interviews 
with complainants, requesting relevant information from the 
manufacturer, and analysis to determine whether there is sufficient 
evidence either to seek a recall or continue to a more in-depth 
investigation. If it is determined that sufficient evidence exists, the 
next stage is the engineering analysis, which involves gathering 
additional information from consumers and the manufacturer, perhaps 
testing of vehicles or equipment by NHTSA's Ohio based test facility, 
surveys of peer vehicle experience, and further in-depth analysis of 
the underlying problem.
    If, at any stage, ODI staff believes there is enough information to 
determine that a specific defect exists and that it creates an 
unreasonable risk to safety, they urge the manufacturer to conduct a 
recall. Where the manufacturer is not persuaded by NHTSA to undertake a 
recall, NHTSA's Associate Administrator for Enforcement may issue an 
initial decision requiring that the manufacturer conduct the recall. 
Following the initial decision, NHTSA convenes a public meeting in 
which interested parties--including the manufacturer, consumers, 
suppliers, public interest groups--may provide testimony. The 
manufacturer is given another opportunity to submit comments on the 
testimony heard at the public meeting. If, after review of all the 
information generated by the administrative process, the Administrator 
concludes that a recall should occur, the Administrator issues a recall 
order. A recall order is not self-enforcing. If the manufacturer does 
not follow the order, NHTSA would seek enforcement. To prevail in 
court, NHTSA must be able to prove that a defect exists and that the 
defect creates an unreasonable safety risk.
    Manufacturers generally adhere to their legal duty to identify non-
compliance or safety defects and initiate recalls, but the NHTSA 
investigation process helps to ensure that these steps are occurring 
and to recognize when they are not. Over the last 10 years, 
manufacturers have recalled more than 83 million vehicles for safety 
defects where NHTSA has not investigated, and have recalled over 86 
million additional vehicles based on NHTSA's defect investigations. No 
other country has a defects investigation program of this scope.
Recalls
    When a manufacturer recalls a vehicle at NHTSA's urging during or 
after an investigation, we call it an ``influenced recall.'' Whether a 
recall is influenced or not, the recall process is the same. When a 
manufacturer recalls a vehicle model or vehicle equipment, the 
manufacturer files a defect information report with NHTSA under 49 CFR 
Part 573, known in the industry as a ``573 Report.'' Certain 
information is required in the report under 49 CFR 573.6(c), including, 
for example, identification of the line of vehicles or vehicle 
equipment under recall, the number of affected vehicles or pieces of 
vehicle equipment, a description of the defect, and a description of 
the remedy.
    The regulations require manufacturers to submit the 573 report 
within five business days of their determination that a defect is 
safety related. For this reason, the 573 report must also include a 
chronology of events that led to the recall decision. NHTSA reviews 
every recall to ensure that the manufacturer has met its obligation to 
inform the agency of safety-related defects or to make a timely 
decision that its products contain a safety defect. If indications show 
that it has not, NHTSA may open another investigation called a 
Timeliness Query (TQ) to collect additional relevant information. This 
Administration has placed an emphasis on timeliness in order to 
safeguard the integrity of the process and encourage automakers to 
aggressively pursue potential safety defects. Since 2009, automakers 
have paid record fines totaling more than $85 million for lack of 
timeliness in reporting vehicle safety defect issues to NHTSA. Because 
of this emphasis, we believe that all manufacturers in the automobile 
industry are now paying much closer attention to their responsibility 
to protect their customers and the driving public.
    Upon receipt of a 573 report, NHTSA enters it to NHTSA's Artemis 
database as ODI investigators screen it for completeness, proper scope, 
timeliness, and effectiveness of the proposed remedy. NHTSA sends an 
acknowledgement letter and recall summary to the manufacturer, 
requesting the manufacturer to supply any missing information. NHTSA 
posts each new recall on its website at SaferCar.gov.
    Under 49 CFR Part 577, manufacturers are required to notify owners 
of vehicles and vehicle equipment under recall. The ``577 letter'' must 
state that the manufacturer has determined that there is a safety 
defect in a vehicle or piece of vehicle equipment that the consumer 
owns. It must provide information about where and when a remedy to the 
defect can be acquired, and it must inform the consumer that the remedy 
will be provided by the manufacturer free of charge.
    The manufacturer must then track how many of the items under recall 
receive the remedy (``recall completion'') and report the numbers to 
NHTSA for six quarters. NHTSA uses these numbers to later calculate a 
completion rate analysis and work with manufacturers where the 
completion rate is below average.
    We believe our defects investigation program and recalls process 
has functioned extremely well over the years in identifying defects 
that create unreasonable risks and ensuring that recalls occur whenever 
appropriate. Even so, we continually seek ways to improve. In 2011, the 
Department of Transportation's IG reviewed the ODI investigation 
process and issued 10 recommendations for improvement. In response to 
actions taken and/or information provided by the agency, the IG has 
closed nine of the 10 recommendations and we are in the process of 
finalizing our report to the IG addressing the remaining recommendation 
which concerns developing a staffing model. A list of the 
recommendations is attached (Attachment 1).
    In addition to implementing the IG recommendations, ODI has taken 
steps to further improve its ability to find defects. One recent 
improvement is the deployment of a new Business Intelligence and 
Natural Language Processing suite focused on our consumer complaints, 
which helps supplement the human review process and has expanded our 
ability to harvest data and identify defect trends. Even after 
implementing this software and all of the IG's recommendations, we will 
continue to look for ways to make our processes more effective.
An Overview of NHTSA's Special Crash Investigation (SCI) Program
    NHTSA's Special Crash Investigations (SCI) Program provides in-
depth crash data ranging from basic information obtained from routine 
police and insurance crash reports to comprehensive data from reports 
by professional crash investigators. Hundreds of data elements relevant 
to the vehicle, occupants, injury mechanisms, roadway, and safety 
systems involved are collected for each of more than 130 crashes 
studied annually.
    SCI investigations are quite different from ODI defects 
investigations. While defects investigations look for defect trends in 
a line of vehicles or vehicle equipment, SCI investigations provide 
data and observations associated with a specific incident that are 
useful for examining new, emerging, and rapidly changing technology, 
including the safety performance of alternative fueled vehicles, child 
safety restraints, adapted vehicles, safety belts, airbags, vehicle-
pedestrian interactions, and potential safety defects. SCI 
investigators locate and analyze unique real-world crashes to generate 
data that can be used to improve the performance of automotive safety 
systems. This information may be helpful to NHTSA's research and 
rulemaking offices in considering possible new or amended standards, to 
ODI in considering whether to investigate an issue or in support of an 
ongoing investigation, or to industry and other interested observers. 
Cases of interest are selected from a diverse network of sources, 
including NHTSA's Auto Safety Hotline, the Department of 
Transportation's National Response Center, NHTSA's regional offices, 
NASS FIELD Offices, automotive manufacturers, other government 
agencies, law enforcement agencies, engineers, and medical personnel.
    Professional crash investigators obtain data and take photographs 
of the crash sites. They locate the vehicles involved, photograph them, 
measure the crash damage, and identify interior locations that were 
contacted by the occupants, and if equipped, obtain the Event Data 
Recorder (EDR) data for evaluating safety system performance. The 
investigators follow up their on-site investigations by interviewing 
crash victims and other involved parties, and by reviewing medical 
records to determine the nature and severity of injuries. Each 
investigation provides extensive information about pertinent pre-crash, 
crash, and post-crash events involving the occupants, vehicles, rescue, 
and environmental factors, which may have contributed to the event's 
occurrence or severity. Included in each report is an analysis and 
determination of the occupant kinematics and vehicle dynamics as they 
occurred throughout the crash. The reports provide detailed performance 
evaluations of the airbag, the use of seat belts, and any other safety 
features.
NHTSA and DOT's Current Efforts on GM's Recall
GM's Recall
    GM reported this defect and initiated its recall on February 7, 
2014. As of March 28, 2014, the GM recall currently covers 
approximately 2.1 million vehicles, including the 2005-2007 Chevrolet 
Cobalt, 2007 Pontiac G5, 2003-2007 Saturn Ion, 2006-2007 Chevrolet HHR, 
2006-2007 Pontiac Solstice and 2007 Saturn Sky vehicles. NHTSA is 
working to ensure that GM has accounted for the full scope of vehicles 
that may be covered by the recall, is ensuring that consumers receive 
the needed remedy as soon as possible, and is providing consumers 
information and resources essential to keep them safe until the 
vehicles can be fixed. GM has indicated to dealers that it expects to 
have parts on or about April 7 and will notify consumers that it can 
begin scheduling repairs soon after that date. Given the number of 
vehicles, the repairs may take several months to be completed.
    At this time, NHTSA urges owners and drivers to follow GM's 
recommendation to ``use only the ignition key with nothing else on the 
key ring'' when operating the vehicle, contact GM about added resources 
available to keep themselves safe, and seek the permanent repair remedy 
from GM as soon as replacement parts become available.
NHTSA's Timeliness Investigation
    GM first provided NHTSA a chronology of events on February 24, 
2014. The information in GM's chronology raises serious questions as to 
the timeliness of GM's recall. As a result, on February 26, NHTSA 
opened its present investigation, a timeliness query. On March 4, to 
obtain more detailed information than GM provided in its recall 
notification letter, NHTSA issued a special order seeking answers and 
documents, submitted under oath, to questions relevant to how quickly 
GM acted on information about the defect. GM's response is due to NHTSA 
on April 3.
    NHTSA is a data driven organization and we will take whatever 
action is appropriate based on our findings, including issuing civil 
penalties of up to the statutory limit of $35 million.
NHTSA and DOT's Processes
    NHTSA and DOT's Office of General Counsel (OGC) are currently 
engaged in a continuous improvement and due diligence process regarding 
past efforts on airbag non-deployments in GM vehicles under its 
ignition switch defect recall. Secretary Foxx recently requested the 
Department of Transportation Inspector General to initiate an agency 
audit in connection with the GM recall. These efforts will ensure that 
DOT and NHTSA have a full understanding of the facts regarding the GM 
recall and can take corrective actions to enhance NHTSA's safety 
function to the extent necessary and appropriate. These processes will 
also benefit from any findings from NHTSA's timeliness investigation, 
which may shed light on what additional information NHTSA could have 
had in evaluating airbag non-deployments in this case.
NHTSA's Past Efforts on Airbag Non-Deployments in the GM Vehicles
    NHTSA's timeliness investigation and joint due diligence review 
with OGC are ongoing, and the DOT OIG audit is pending, so any 
understanding of NHTSA's past efforts is preliminary at this time. We 
are not aware of any information to suggest that NHTSA failed to 
properly carry out its safety mission based on the data available to it 
and the process it followed. NHTSA examined the available information 
multiple times using consumer complaints, early warning data, special 
crash investigations, manufacturer information about how airbags 
function, and other tools, but did not find sufficient evidence of a 
possible safety defect trend that would warrant opening a formal 
investigation. This was a difficult case pursued by experts in the 
field of screening, investigations and technology involving airbags 
that are designed to deploy in some cases but not others. GM had 
critical information that would have helped identify this defect.
    What follows is an outline of our current understanding of NHTSA's 
past efforts and related background information.
Background on Advanced Airbags
    Airbags are a vitally important, supplemental restraint system used 
to mitigate injuries and death in the event of a crash. The term 
``supplemental'' is used with regard to airbags because it enhances the 
protection of the seat belts, which are the primary occupant restraint 
system in a vehicle. NCSA estimates that in 2012, 2,213 lives were 
saved by frontal airbags, adding to the estimated 12,174 lives saved by 
seat belts. Between 1986 and 2012, frontal airbags are estimated to 
have saved almost 37,000 lives.
    Advanced airbags are not intended to deploy in all crashes, even 
frontal crashes. Advanced airbag systems are designed not to deploy 
when doing so will cause more harm than good. Smaller occupants who sit 
closer to the airbag are at risk as are unrestrained occupants, because 
those occupants will move closer to the airbags during the course of a 
crash, putting them at risk of being hit with the force of a rapidly 
expanding bag. Airbags also may not deploy during crashes that occur 
off-road with multiple minor impacts because such minor impacts involve 
much slower changes in speed than on-road vehicle-to-vehicle crashes. 
Even on-road, airbags may not deploy if the crash was not severe enough 
to warrant the supplemental protection.
    Advanced airbags began to be introduced in the 2004 model year in 
response to a May 2000 NHTSA rule intended to reduce injuries and 
deaths resulting from previous airbag designs. These prior designs 
presented risks to smaller occupants and infants in rear-facing car 
seats placed on the front passenger seat. Advanced airbags factor in 
additional data to determine when to deploy, such as the size of the 
individual, the change in velocity, location of the individual within 
the vehicle, and whether the occupants are belted.
Special Crash Investigations Regarding Vehicle Subject to the GM Recall
    The Model Year (MY) 2005 Chevrolet Cobalt was among the first 
vehicles equipped with advanced airbag features, although the Cobalt's 
advanced airbag system was not certified as such by GM until 2006.
    In 2005, a fatal crash in Maryland came to the attention of our SCI 
team. SCI investigated the Maryland accident as well as two others 
involving MY2005 Cobalts, one in Wisconsin in 2006 and one in 
Pennsylvania in 2009. All three crashes, tragically, resulted in the 
deaths of unrestrained occupants. All three also involved airbags that 
did not deploy and event data recorder (EDR) information indicating the 
vehicle power was in an accessory position. (When a vehicle is an 
accessory position, certain features, or accessories, such as the radio 
are powered, but others remain off to prevent the vehicle's battery 
from being drained.) The 2005 and 2006 crashes involved vehicles 
exiting the roadway and striking trees. The 2009 crash involved being 
struck by an oncoming vehicle in the wrong lane.
Office of Defects Investigation Activities Regarding the Subject 
        Vehicles
    As the SCI team examined these individual crashes, NHTSA reviewed 
other sources of available data to determine whether a problem existed 
related to airbag non-deployment in certain GM vehicles. In particular, 
NHTSA's early warning division (EWD) collected and reviewed available 
data on airbag non-deployment in Cobalts. After receiving early warning 
data from GM, and searching through available information sources, EWD 
identified 43 incidents where airbags may not have deployed in a crash. 
As a result, in 2007, EWD referred the case to NHTSA's data analysis 
division (DAD) for further screening.
    Following this referral, DAD reviewed data on non-deployment of 
airbags in the Cobalt and Ion. In connection with this evaluation, DAD 
considered a variety of sources of data, including complaints 
concerning alleged non-deployments and available information concerning 
the relevant special crash investigations described above. During the 
course of this evaluation, NHTSA brought the airbag non-deployment 
issue to the attention of GM on at least one occasion.
    A defects assessment panel convened in 2007 to review the available 
information on non-deployment of airbags in the Cobalt and Ion, 
considering vehicle owner questionnaire (VOQ) complaints reporting non-
deployments, early warning data, SCI investigations, and the 
circumstances of the crashes. The data available at the time of this 
evaluation did not indicate a safety defect or defect trend that would 
warrant the agency opening a formal investigation. In particular, the 
available data did not indicate that the Cobalt or Ion were 
overrepresented compared to other peer vehicles with respect to injury-
crash incident rates (Figure 2). Moreover, the crash data available to 
NHTSA included incidents involving unbelted occupants and off-road, 
long-duration events, where it could not be determined that the airbag 
should have deployed.
Figure 2. 2007 NHTSA Chart of Airbag Non-Deployment Injury-Crash 
        Incident Rates
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
        
    Against this backdrop, NHTSA continued to monitor the performance 
of the Cobalt in frontal crashes, including EWR information, consumer 
complaints, and one additional SCI report. Again in 2010, NHTSA 
reviewed cumulative data on consumer complaints for data the airbag 
non-deployment rate of Cobalts (Figure 3). The data showed that the 
injury-crash incident rate for Model Year 2005 and 2006 Cobalts had 
decreased by nearly half since the 2007 review and did not provide a 
basis for a formal investigation.
    At the time of these reviews, NHTSA did not have the information 
that GM has since provided--for instance, new evidence linking airbag 
non-deployment to faulty ignition switches--which is why we have 
launched an aggressive investigation into the timing of their recall.
Figure 3. 2010 NHTSA Chart of Airbag Non-Deployment Injury-Crash Rates
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Critical Issues Regarding ODI Work and the Subject Vehicles
    In evaluating the potential for a defect or defect trend, ODI 
relies on expertise regarding the technology and the dynamics of the 
incidents involved. In this case, ODI was looking for a defect or 
defect trend regarding airbag non-deployment in circumstances where it 
appeared a deployment should have occurred. At the time, ODI did not 
have clear evidence of a connection between the ignition switch being 
in the accessory mode and the airbag non-deployment.
    Our understanding at the time was that airbag systems were designed 
to continue to function in the event of power loss during a crash, 
which is not uncommon. ODI's understanding of airbag systems, which was 
verified by available GM service literature reviewed during our due 
diligence effort, was that an airbag system would be armed and ready to 
fire for up to 60 seconds after all power to the system was cut off. At 
the time ODI was evaluating whether to open an investigation, the two 
SCI reports showed indications of power loss and identified the vehicle 
power mode as accessory. The preliminary SCI report on the 2006 
Wisconsin crash did identify the issue of the ignition switch being in 
the accessory position, raising the possibility of an issue, but 
concluded that, ``At this point, it appears the yielding of the tree 
may have been the likely cause of the non-deployment.'' The final 
report produced in 2008 identified both the yielding nature of the 
impact and power loss due to movement of the ignition switch prior to 
impact as potential causes of non-deployment, but removed any 
conclusion as to which was the likely cause. However, due to the timing 
of the report and investigation, the final version of the report was 
not complete prior to the determination of whether or not to open an 
investigation.
    As noted previously, advanced airbags are designed to deploy in 
some cases, but not in others. The two SCI cases used in making the 
2007 determination of whether or not to open an investigation included 
unrestrained occupants in vehicles that exited the roadway and struck 
yielding objects before rapidly decelerating and coming to rest. These 
situations, where unrestrained occupants may be out of position, are 
instances where airbags are less likely to deploy because doing so may 
harm the occupants.
    When data available to NHTSA reveals a basis to investigate a 
potential risk to motor vehicle safety, the agency takes decisive 
action. Over the last 10 years, NHTSA investigations have influenced 35 
recalls related to airbags involving 6.5 million vehicles, including 18 
recalls of 3.5 million vehicles specifically involving non-deployment. 
In those cases, information available to NHTSA demonstrated the need to 
investigate.
    In February 2014, GM submitted information to NHTSA that, for the 
first time, acknowledged a link between the ignition switch to the 
airbag non-deployment, as well as key information regarding parts 
changes, discussions with suppliers, and other efforts currently under 
consideration in our Timeliness Query. Had the information newly 
provided to NHTSA by GM been available before now, it would have better 
informed the agency's prior reviews of airbag non-deployment in GM 
vehicles and likely would have changed NHTSA's approach to this issue.
Conclusion
    NHTSA's dedicated and professional staff works to monitor and 
secure the safety of the U.S. automotive fleet. The work that they do 
saves lives on a daily basis, and the importance of that work cannot be 
overstated. NHTSA continually seeks new ways to improve our processes. 
We are reviewing the events leading up to this recall to see if there 
areas that can be improved. We are looking to improve our understanding 
of the way that various manufacturers design airbags to function when 
the vehicle loses power, considering whether we need to improve the use 
of Special Crash Investigation (SCI) in our defects screening process, 
reviewing ways to better incorporate information about remote defect 
possibilities into the investigative process, and evaluating our 
process for engaging manufacturers around issue evaluations.
    I greatly appreciate the opportunity to testify before you today. I 
believe it is important that the Members, and the American public, have 
a better understanding of the vitally important safety work that we do 
at NHTSA. I look forward to your questions.
                             Attachment #1
               Office of Inspector General Audit Report:
PROCESS IMPROVEMENTS ARE NEEDED FOR IDENTIFYING AND ADDRESSING VEHICLE 
                             SAFETY DEFECTS
             National Highway Traffic Safety Administration
                       Report Number: MH-2012-001
                      Date Issued: October 6, 2011
Recommendations
    We recommend that the National Highway Traffic Safety 
Administrator:

   1.  Revise the pre-investigation processes to ensure that the review 
        of each complaint is recorded and that complaints are tracked 
        to associated investigations in Artemis.

   2.  Establish pre-investigation processes for retaining and storing 
        pre-investigation records, such as investigation proposals and 
        insurance company data.

   3.  Require that decisions made and actions taken by ODI Defect 
        Assessment Panels are recorded, including justifications for 
        not proceeding to investigations.

   4.  Establish systematic processes for determining when a third-
        party or the Vehicle Research Test Center should be used to 
        verify manufacturer information or assist in identifying a 
        potential defect.

   5.  Revise the ODI investigation process to require justifications 
        for continuing or closing investigations that exceed timeliness 
        goals for PEs and EAs.

   6.  Revise the ODI investigation process to establish criteria for 
        documenting evidence, such as associated complaints, meetings 
        with manufacturers and other stakeholders, and third-party 
        analysis or testing conducted.

   7.  Strengthen ODI's redaction policy and process to better protect 
        consumers' personal information from public availability, such 
        as by using automated redaction software.

   8.  Conduct a workforce assessment to determine the number of staff 
        required to ensure that ODI meets its objectives and determines 
        the most effective mix of staff.

   9.  Develop a formal training program to assist ODI staff in 
        acquiring the knowledge and staying abreast of ODI processes 
        and current and new automobile technologies.

  10.  Develop and implement a strategy for increasing coordination 
        with foreign countries to enhance ODI's ability to identify 
        safety defects and to exchange information on foreign recalls.

    Senator McCaskill. Thank you, Mr. Friedman.
    Mr. Scovel?

STATEMENT OF HON. CALVIN L. SCOVEL III, INSPECTOR GENERAL, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Scovel. Chairman McCaskill, Ranking Member Heller, 
members of the Subcommittee, thank you for inviting me to 
testify at this important hearing on vehicle safety.
    Since 2002, our office has identified opportunities for 
NHTSA to improve its efforts to address safety defects. Today, 
I will focus on NHTSA's actions to address major weaknesses we 
reported in 2011. I will also discuss how our work can help 
lead to strong actions against automakers that choose to 
withhold critical safety data from NHTSA.
    In 2011, we reported that NHTSA's Office of Defects 
Investigation needed improvement in four key areas.
    The first area concerns one of ODI's most critical 
functions: to determine when to investigate allegations of 
safety defects. ODI did not adequately track its disposition of 
consumer complaints or document decisions about whether to 
investigate, leaving its decisions open to interpretation and 
subject to questions after the fact.
    NHTSA completed actions to address the three 
recommendations we made to improve ODI's process for 
recommending investigations, including modifying its central 
data base for safety defect information to track its reviews of 
consumer complaints.
    We identified similar process weaknesses in ODI's 
documentation of open investigations. Some investigation files 
did not include sufficient information on meetings with 
manufacturers, consumer complaint identification numbers, or a 
determination of testing needs. In one investigation, ODI did 
not sufficiently document the basis for its decision to close 
the case.
    Consistent with our recommendation to strengthen controls, 
NHTSA developed a standard checklist for documenting the 
evidence investigators collect.
    ODI also lacked a systematic process for determining when 
to use third-party assistance to test for potential mechanical 
or electronic defects and to validate information manufacturers 
provide. In response to our recommendation, NHTSA established a 
framework for determining when third-party assistance should be 
used.
    Finally, NHTSA lacked processes for ensuring an adequate 
and well-trained investigative work force. In response to our 
recommendations, NHTSA developed a formal training program to 
help ensure its investigators stayed current on technology 
advancements in the automotive industry and plans to complete 
by the end of May a work force assessment to determine the 
number and most effective mix of staff needed to achieve ODI's 
objectives.
    We believe NHTSA's enhanced processes will put the agency 
in a better position to identify and investigate vehicle safety 
defects. However, the success of these process improvements 
will depend on how effectively ODI uses and applies them when 
conducting its analyses and investigations. At the secretary's 
request, we will initiate an audit, building on our previous 
reviews of NHTSA's efforts, to identify and investigate vehicle 
safety defects.
    Despite the department's best efforts to improve its safety 
defect analyses and investigations, vehicle safety will remain 
a concern if automakers conceal vital information. The Toyota 
case perfectly demonstrates the risk involved when automakers 
withhold critical safety data and fail to report defects to 
NHTSA.
    Our investigators participated in the multi-agency criminal 
probe of Toyota, reviewing approximately 400,000 documents and 
interviewing more than 100 individuals. Last month, Toyota 
forfeited $1.2 billion for intentionally concealing information 
on vehicle defects from NHTSA. This penalty, the largest of its 
kind, sends a clear message to auto manufacturers: Safety is 
and will remain DOT's and OIG's highest priority.
    To this end, we expect the industry to be vigilant and 
forthcoming to keep the public safe. We will continue to assess 
NHTSA's efforts to identify and investigate vehicle safety 
defects and stand ready to investigate allegations of 
wrongdoing by auto manufacturers.
    Finally, Chairman McCaskill, with your permission, I would 
like to offer these words to the families and friends of those 
who have been lost in crashes involving GM's defective ignition 
switches.
    I offer you my deepest sympathy. My staff in the Office of 
Inspector General and I are resolved to determine what NHTSA 
knew of this safety defect, when it knew it, and what actions 
NHTSA took to address it. We will also examine NHTSA's current 
safety defect investigation processes and make recommendations 
for improvement. The secretary has asked us for this, the 
Congress expects this of us, and you, the family and friends 
and victims, deserve this of us. I give you my word, we will do 
our duty.
    This concludes my prepared statement. I will be happy to 
answer any questions you or other members of the Subcommittee 
may have.
    [The prepared statement of Mr. Scovel:]

  Prepared Statement of Hon. Calvin L. Scovel III, Inspector General, 
                   U.S. Department of Transportation
    Chairman McCaskill and Members of the Subcommittee:

    Thank you for the opportunity to testify on the National Highway 
Traffic Safety Administration's (NHTSA) efforts to identify and 
investigate vehicle safety defects. As you know, several high-profile 
cases of safety defects--notably at Toyota Motor Company and General 
Motors--have prompted the public, Congress, and the media to question 
whether the automotive industry and NHTSA's Office of Defects 
Investigation (ODI) have acted in a timely manner to address safety 
defects. Since 2002, our office has issued three audit reports with 
recommendations to enhance ODI's vehicle defect identification 
processes.\1\ Most recently, we reported major weaknesses in these 
processes--including a lack of systematic procedures for tracking 
consumer complaints and for documenting significant investigative 
decisions. At the Secretary's request, we plan to initiate an audit 
building on our previous reviews of NHTSA's efforts to identify and 
investigate vehicle safety defects.
---------------------------------------------------------------------------
    \1\ Review of the Office of Defects Investigation (OIG Report 
Number MH-2002-071), Jan. 3, 2002; Follow-Up Audit of the Office of 
Defects Investigation (OIG Report Number MH-2004-088), Sept. 23, 2004; 
Process Improvements Are Needed for Identifying and Addressing Vehicle 
Safety Defects (OIG Report Number MH-2012-001), Oct. 6, 2011. OIG 
reports are available on our website at: www.oig.dot.gov.
---------------------------------------------------------------------------
    Today, I will focus on the status of NHTSA's actions to address 
major weaknesses that we reported in 2011. In addition, I will discuss 
our efforts to support strong action against companies that elect to 
withhold critical safety data from NHTSA.
In Summary
    In 2011, we reported that ODI needed to improve its processes for 
identifying vehicle safety defects. Notably, NHTSA's central database 
for safety defect information did not track the disposition of consumer 
complaints--ODI's primary means for determining whether an 
investigation is warranted. We identified similar weakness in processes 
for determining when to use third-party assistance, documenting 
investigation information, and assessing workforce needs. NHTSA has 
taken actions to address our recommendations for enhancing these 
processes (see attachment 1). However, one recommendation remains 
outstanding--conducting a workforce assessment for determining the 
number and most effective mix of staff needed to achieve ODI's 
objectives. In addition, our investigative efforts can help lead to 
strong sanctions against companies that withhold critical safety data 
from NHTSA. Investigators from the Office of Inspector General (OIG) 
participated in the criminal probe of Toyota, which recently forfeited 
$1.2 billion for intentionally concealing information on vehicle 
defects from NHTSA. We will continue to assess NHTSA's efforts to 
identify and investigate vehicle safety defects and stand ready to 
investigate allegations of wrongdoing by auto manufacturers.
Background
    NHTSA administers highway safety and consumer programs intended to 
save lives, prevent injuries, and reduce economic costs resulting from 
motor vehicle crashes. The National Traffic and Motor Vehicle Safety 
Act authorizes NHTSA to issue vehicle safety standards and to require 
manufacturers to recall vehicles and equipment that have safety-related 
defects or that do not meet Federal safety standards.
    ODI conducts tests, inspections, and investigations to identify 
safety defects in motor vehicles and equipment. Based on its findings, 
NHTSA can require manufacturer recalls notifying the public and 
correcting the defects. When conducting investigations, ODI can request 
that manufacturers provide data on complaints, injuries, warranty 
claims, modifications, parts sales, and other items. Attachment 2 
describes ODI's investigative processes.
    To conduct its work, ODI uses NHTSA's Advanced Retrieval of Tire, 
Equipment, and Motor Vehicle Information System, or Artemis, which 
provides a central repository of data on motor vehicle and motor 
vehicle equipment defects. Artemis captures consumer complaints, 
manufacturer recalls and early warning reporting, documentation related 
to safety defect investigations, and information from other Government 
agencies. Some Artemis data is made available to the public through a 
Website.\2\
---------------------------------------------------------------------------
    \2\ www.safercar.gov
---------------------------------------------------------------------------
NHTSA Has Taken Actions to Strengthen Its Processes for Vehicle Defect 
        Investigations
    In 2011, we reported major weaknesses in NHTSA's vehicle defect 
identification processes. Specifically, ODI needed to improve its 
processes for (1) recommending investigations of potential defects, (2) 
determining when to use third-party assistance, (3) documenting 
investigation information, and (4) ensuring an adequate and well-
trained workforce. In response to our recommendations, NHTSA has 
implemented more robust defect investigation processes. However, the 
effects of these process enhancements are unknown and depend on whether 
ODI systematically uses and applies the new processes when conducting 
its analyses and investigations. Additionally, NHTSA has yet to 
complete a workforce assessment for determining the number and most 
effective mix of ODI staff. We will continue to assess NHTSA's 
processes for identifying and investigating vehicle safety defects and 
will follow up on our past work as needed.
NHTSA Lacked Adequate Processes for Recommending Investigations of 
        Potential Safety Defects
    Consumer complaints are ODI's primary means for determining whether 
an investigation is warranted. However, Artemis did not track whether 
complaints were reviewed within established timelines or used to 
support investigations. As a result, ODI could not demonstrate the 
extent to which consumer complaints prompted recommendations for 
investigations. Further, ODI did not use Artemis to track evidence 
supporting potential defects, and its Defect Assessment Panel \3\ did 
not thoroughly document its decisions on which risks to investigate. 
For example, ODI did not upload prepared investigation proposals \4\ 
into Artemis or track their disposition using a central database. As a 
result, the factors and analyses ODI considered when determining 
whether to open investigations were not delineated, leaving ODI's 
decisions open to interpretation and subject to questions after the 
fact.
---------------------------------------------------------------------------
    \3\ NHTSA's Defect Assessment Panel reviews proposals for 
investigation and decides whether to open an investigation.
    \4\ An investigation proposal is a report that summarizes the 
available information on a potential safety defect. The proposal 
includes but is not limited to early warning data, manufacturer service 
bulletins, and complaints.
---------------------------------------------------------------------------
    We made three recommendations to address weaknesses in ODI's 
processes for recommending investigations, and NHTSA took sufficient 
action to address these recommendations (see table 1). For example, 
NHTSA modified Artemis to track complaint reviews and established a 
case management system to maintain pre-investigation data.

 Table 1. Status of OIG Recommendations Related to NHTSA's Processes for
         Recommending Investigations of Potential Safety Defects
------------------------------------------------------------------------
         Recommendation                Status          Actions Taken
------------------------------------------------------------------------
Revise the pre-investigation      Closed           ODI provided
 processes to ensure that the     June 19, 2012     documentation
 review of each complaint is                        demonstrating that:
 recorded and that complaints                      <bullet> Artemis
 are tracked to associated                          tracks complaint
 investigations in Artemis.                         reviews (who and
                                                    when),
                                                   <bullet> all relevant
                                                    complaint numbers
                                                    are included in the
                                                    resume for each
                                                    phase of an
                                                    investigation, and
                                                   <bullet> investigatio
                                                    n process documents
                                                    have been updated to
                                                    reflect these policy
                                                    changes.
------------------------------------------------------------------------
Establish pre-investigation       Closed           ODI provided
 processes for retaining and      Dec. 5, 2012      documentation
 storing pre-investigation                          demonstrating that a
 records, such as investigation                     process for using a
 proposals and insurance company                    case management
 data.                                              system had been
                                                    established to
                                                    maintain pre-
                                                    investigation data.
------------------------------------------------------------------------
Require that decisions made and   Closed           ODI provided
 actions taken by ODI Defect      Dec. 5, 2012      documentation
 Assessment Panels are recorded,                    demonstrating that:
 including justifications for                      <bullet> Defects
 not proceeding to                                  Assessment Panel
 investigations.                                    minutes are added to
                                                    a standardized form
                                                    and uploaded to the
                                                    repository for the
                                                    relevant issue
                                                    evaluation (IE),
                                                   <bullet> IEs that do
                                                    not proceed to
                                                    investigation are
                                                    marked with one of
                                                    two codes: ``minimal
                                                    hazard indicated''
                                                    or ``no actionable
                                                    trend indicated,''
                                                    and
                                                   <bullet> specifics
                                                    concerning panel
                                                    dates and IE
                                                    dispositions are
                                                    recorded in Artemis
                                                    annotations for the
                                                    appropriate IEs.
                                                    These data can be
                                                    analyzed and
                                                    presented in report
                                                    form.
------------------------------------------------------------------------
Source: OIG analysis of NHTSA documentation

NHTSA Lacked a Systematic Process for Determining When To Involve 
        Third-Party Assistance
    ODI investigators did not have direct access to test facilities and 
relied on third parties to test for potential mechanical or electronic 
defects and validate information provided by a vehicle manufacturer. 
However, not all investigators requested third-party assistance during 
investigations, and NHTSA lacked a process for identifying the need for 
third-party assistance.
    We recommended that NHTSA establish a systematic process for 
determining when to use third parties to verify manufacturer 
information or assist in identifying a potential defect (see table 2). 
NHTSA has taken action to satisfy our recommendation.

Table 2. Status of OIG Recommendations Related to Third-Party Assistance
------------------------------------------------------------------------
         Recommendation                Status          Actions Taken
------------------------------------------------------------------------
Establish systematic processes    Closed           ODI provided revised
 for determining when a third     Mar. 27, 2012     office procedures,
 party or the Vehicle Research                      including a
 Test Center should be used to                      framework for
 verify manufacturer information                    obtaining third-
 or assist in identifying a                         party resources.
 potential defect.
------------------------------------------------------------------------
Source: OIG analysis of NHTSA documentation

ODI Did Not Properly Document Investigations
    ODI did not have criteria to ensure proper documentation for 
investigations. Specifically, some investigation files did not include 
documentation of meetings with manufacturers and third parties, 
consumer complaints, testing needs, and justifications for closing 
investigations. For example:

  <bullet> Eleven of the 42 NHTSA investigation cases we sampled 
        involved meetings with manufacturers; however, ODI did not 
        always document the information exchanged during the meetings 
        or the decisions ODI made based on the meetings. In addition, 
        21 cases included some type of vehicle testing, but ODI did not 
        document its determinations of testing needs.

  <bullet> ODI recorded only the number of complaints, not the 
        complaint identification numbers, which did not allow ODI to 
        identify the specific complaints.

  <bullet> For one investigation we sampled, ODI did not provide 
        sufficient documentation to justify closing the investigation. 
        In our interviews with ODI officials, we learned that the 
        investigation was closed based on factors such as trending, 
        frequency and severity rates, forecast analysis, and a review 
        of crashes, injuries, and deaths. While the justification 
        provided supported closing the case, ODI agreed that such 
        evidence needs to be documented in the case file.

    NHTSA has revised its investigative process to establish criteria 
for documenting evidence, as we recommended. Specifically, NHTSA 
established an ``Investigation Documentation Checklist'' (see table 3).

   Table 3. Status of OIG Recommendations Related to Fully Documenting
                         Investigation Decisions
------------------------------------------------------------------------
         Recommendation                Status          Actions Taken
------------------------------------------------------------------------
Revise the ODI investigation      Closed           ODI provided
 process to establish criteria    Mar. 1, 2013      documentation that
 for documenting evidence, such                     it developed an
 as associated complaints,                          ``Investigation
 meetings with manufacturers and                    Documentation
 other stakeholders, and third-                     Checklist.'' This
 party analysis or testing                          checklist is a
 conducted.                                         process for
                                                    documenting evidence
                                                    collected by the ODI
                                                    investigators--inclu
                                                    ding consumer
                                                    complaints, meetings
                                                    with manufacturers
                                                    and third parties,
                                                    and testing.
------------------------------------------------------------------------
Source: OIG analysis of NHTSA documentation

NHTSA Lacked Processes for Ensuring an Adequate and Well-Trained 
        Investigative Workforce
    To ensure NHTSA has an adequate workforce to investigate vehicle 
defects, we recommended that the agency conduct a workforce assessment 
to determine the number of ODI staff and the specialized skills needed 
to conduct these investigations. NHTSA plans to complete its assessment 
by May 30, 2014 (see table 4).
    We also recommended that NHTSA develop a formal training program to 
ensure its investigators stay current on technology advancements in the 
automotive industry. NHTSA developed a program that satisfies our 
recommendation.

 Table 4. Status of OIG Recommendations Related to Workforce Assessments
                              and Training
------------------------------------------------------------------------
         3Recommendation               Status          Actions Taken
------------------------------------------------------------------------
Conduct a workforce assessment    Open             ODI estimates that it
 to determine the number of                         will complete its
 staff required to ensure that                      workforce assessment
 ODI meets its objectives and                       by May 30, 2014.
 determines the most effective
 mix of staff.
------------------------------------------------------------------------
Develop a formal training         Closed           ODI provided a copy
 program to assist ODI staff in   May 29, 2013      of its new training
 acquiring knowledge and staying                    plan. According to
 abreast of ODI processes and                       NHTSA officials,
 current and new automobile                         this plan will
 technologies.                                      assist ODI in the
                                                    development of its
                                                    current and future
                                                    workforce; ensure
                                                    the continuity of
                                                    institutional
                                                    knowledge; and
                                                    ensure that
                                                    investigators and
                                                    other ODI staff
                                                    become proficient in
                                                    new automotive,
                                                    investigative, and
                                                    vehicle safety
                                                    technologies.
------------------------------------------------------------------------
Source: OIG analysis of NHTSA documentation

    We believe the enhanced processes NHTSA put in place to address our 
2011 recommendations will put the Agency in a better position to 
identify and investigate vehicle safety defects--to the extent that ODI 
uses and applies these process enhancements when conducting its 
analyses and investigations. In response to the Secretary's request, we 
will assess whether NHTSA has further opportunities to improve its 
oversight and performance.
Investigative Efforts Have Resulted in Strong Sanctions for Withholding 
        Critical Safety Data from NHTSA
    While continued focus on NHTSA's processes will help ensure the 
Agency identifies and addresses vehicle safety defects, NHTSA cannot do 
its job effectively if auto manufacturers withhold critical safety 
information. Working with our law enforcement and prosecutorial 
partners, our work can help lead to strong action against companies 
that elect to withhold information from NHTSA. Most recently, our 
investigators participated in the multi-agency criminal probe of 
Toyota, subpoenaing and reviewing approximately 400,000 documents and 
interviewing more than 100 individuals.
    The Toyota case perfectly demonstrates the risk involved when 
automakers fail to timely report safety defects to NHTSA. The Toyota 
case involved two unintentional acceleration issues. The first related 
to floor mats trapping gas pedals and causing unintended acceleration--
sometimes to high speeds. In fall 2009, Toyota reported that it had 
addressed the root cause of the unintended acceleration by issuing a 
safety recall of eight Toyota and Lexus models for improperly secured 
or incompatible floor mats. However, our joint investigation with the 
Federal Bureau of Investigation and the Manhattan, NY, U.S. Attorney's 
Office revealed that, at the time the statements were made, Toyota did 
not recall some cars with design features that made them equally 
susceptible to floor-mat entrapment as some of the recalled cars. We 
also determined that, only weeks before these statements were made, 
Toyota had also taken steps to hide from NHTSA a second problem 
involving accelerators getting stuck at partially depressed levels, 
known as sticky pedal.
    Ultimately, Toyota admitted that it concealed and made deceptive 
statements about safety issues affecting its vehicles, misleading U.S. 
consumers and NHTSA. Toyota was charged with wire fraud for providing 
the misleading information, and on March 19, 2014, the Department of 
Justice announced a criminal charge against Toyota and a deferred 
prosecution agreement that requires Toyota to forfeit $1.2 billion--the 
largest penalty of its kind ever imposed on an automotive company. The 
deferred prosecution also imposes an independent monitor to review and 
assess policies, practices, and procedures relating to Toyota's safety-
related public statements and reporting obligations.
    This case sends a clear message to auto manufacturers: Safety is 
and will remain DOT's and OIG's highest priority. To this end, we 
expect the industry to be vigilant and forthcoming to keep the public 
safe.
    This concludes my prepared statement. I will be happy to answer any 
questions you or other Members of the Subcommittee may have.
                                 ______
                                 
Attachment 1. Status of 2011 OIG Recommendations for NHTSA's Vehicle 
        Defect Investigation Processes

------------------------------------------------------------------------
         Recommendation                Status          Actions Taken
------------------------------------------------------------------------
Processes for Recommending Investigations
------------------------------------------------------------------------
Revise the pre-investigation      Closed           ODI provided
 processes to ensure that the     June 19, 2012     documentation
 review of each complaint is                        demonstrating that:
 recorded and that complaints                      <bullet> Artemis
 are tracked to associated                          tracks complaint
 investigations in Artemis.                         reviews (who and
                                                    when),
                                                   <bullet> all relevant
                                                    complaint numbers
                                                    are included in the
                                                    resume for each
                                                    phase of an
                                                    investigation, and
                                                   <bullet> investigatio
                                                    n process documents
                                                    have been updated to
                                                    reflect these policy
                                                    changes.
------------------------------------------------------------------------
Establish pre-investigation       Closed           ODI provided
 processes for retaining and      Dec. 5, 2012      documentation
 storing pre-investigation                          demonstrating that a
 records, such as investigation                     process for using a
 proposals and insurance company                    case management
 data.                                              system had been
                                                    established to
                                                    maintain pre-
                                                    investigation data.
------------------------------------------------------------------------
Require that decisions made and   Closed           ODI provided
 actions taken by ODI Defect      Dec. 5, 2012      documentation
 Assessment Panels are recorded,                    demonstrating that:
 including justifications for                      <bullet> Defects
 not proceeding to                                  Assessment Panel
 investigations.                                    minutes are added to
                                                    a standardized form
                                                    and uploaded to the
                                                    repository for the
                                                    relevant issue
                                                    evaluation (IE),
                                                   <bullet> IEs that do
                                                    not proceed to
                                                    investigation are
                                                    marked with one of
                                                    two codes: ``minimal
                                                    hazard indicated''
                                                    or ``no actionable
                                                    trend indicated,''
                                                    and
                                                   <bullet> specifics
                                                    concerning panel
                                                    dates and IE
                                                    dispositions are
                                                    recorded in Artemis
                                                    annotations for the
                                                    appropriate IEs.
                                                    These data can be
                                                    analyzed and
                                                    presented in report
                                                    form.
------------------------------------------------------------------------
Third-Party Assistance
------------------------------------------------------------------------
Establish systematic processes    Closed           ODI provided revised
 for determining when a third     Mar. 27, 2012     office procedures,
 party or the Vehicle Research                      including a
 Test Center should be used to                      framework for
 verify manufacturer information                    obtaining third-
 or assist in identifying a                         party resources.
 potential defect.
------------------------------------------------------------------------
Documentation of Investigation Decisions
------------------------------------------------------------------------
Revise the ODI investigation      Closed           ODI provided
 process to establish criteria    Mar. 1, 2013      documentation that
 for documenting evidence, such                     it developed an
 as associated complaints,                          ``Investigation
 meetings with manufacturers and                    Documentation
 other stakeholders, and third-                     Checklist.'' This
 party analysis or testing                          checklist is a
 conducted.                                         process for
                                                    documenting evidence
                                                    collected by the ODI
                                                    investigators--inclu
                                                    ding consumer
                                                    complaints, meetings
                                                    with manufacturers
                                                    and third parties,
                                                    and testing.
------------------------------------------------------------------------
Workforce Assessments and Training
------------------------------------------------------------------------
Conduct a workforce assessment    Open             ODI estimates that it
 to determine the number of                         will complete its
 staff required to ensure that                      workforce assessment
 ODI meets its objectives and                       by May 30, 2014.
 determines the most effective
 mix of staff.
------------------------------------------------------------------------
Develop a formal training         Closed           ODI provided a copy
 program to assist ODI staff in   May 29, 2013      of its new training
 acquiring knowledge and staying                    plan. According to
 abreast of ODI processes and                       NHTSA officials,
 current and new automobile                         this plan will
 technologies.                                      assist ODI in the
                                                    development of its
                                                    current and future
                                                    workforce; ensure
                                                    the continuity of
                                                    institutional
                                                    knowledge; and
                                                    ensure that
                                                    investigators and
                                                    other ODI staff
                                                    become proficient in
                                                    new automotive,
                                                    investigative, and
                                                    vehicle safety
                                                    technologies.
------------------------------------------------------------------------
Other \5\
------------------------------------------------------------------------
Revise the ODI investigation      Closed           ODI established
 process to require               Mar. 27, 2012     processes for
 justifications for continuing                      justifying and
 or closing investigations that                     documenting
 exceed timeliness goals for                        investigations that
 preliminary evaluations and                        exceed timeliness
 engineering analyses.                              goals.
------------------------------------------------------------------------
Strengthen ODI's redaction        Closed           ODI issued a revised
 policy and process to better     Oct. 13, 2011     redaction policy in
 protect consumers' personal                        August 2011.
 information from public
 availability, such as by using
 automated redaction software.
------------------------------------------------------------------------
Develop and implement a strategy  Closed           ODI stated that it
 for increasing coordination      Oct. 13, 2011     planned to form an
 with foreign countries to                          informal working
 enhance ODI's ability to                           group to discuss
 identify safety defects and to                     issues of mutual
 exchange information on foreign                    interest to the
 recalls.                                           international
                                                    enforcement
                                                    community. NHTSA
                                                    would chair the
                                                    group, and the group
                                                    would meet once or
                                                    twice a year--with
                                                    the first meeting
                                                    taking place on
                                                    November 17, 2011.
------------------------------------------------------------------------
Source: OIG analysis of NHTSA documentation

Attachment 2. Overview of ODI's Investigative Processes
    NHTSA's ODI conducts defect investigations and administers safety 
recalls. The following illustration breaks down the processes by which 
ODI conducts defect investigations and administers safety recalls.
---------------------------------------------------------------------------
    \5\ These 2011 recommendations are related to NHTSA's processes for 
identifying and addressing vehicle safety defects but were not 
discussed in the body of the statement.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

---------------------------------------------------------------------------
    Source: OIG analysis of ODI processes

    The first phase, pre-investigation, involves the Defect Assessment 
Division, which screens consumer complaints, external manufacturer 
communications, and other information related to alleged safety 
defects. The screenings provide ODI the basis for determining whether 
to open an investigation, grant a petition for a defect investigation, 
determine the adequacy of safety recalls, and grant a petition for a 
public hearing on the adequacy of a safety recall. The pre-
investigation phase also involves the Early Warning Division, which 
conducts preliminary reviews and analyses of early warning reporting 
information manufacturers submit to identify potential risks within 
these documents and alerts the Defect Assessment Division. When the 
Defect Assessment Division identifies a potential risk, it prepares an 
issue evaluation package. Ultimately, each IE is proposed for 
investigation, resolved with an action by the manufacturer, or reverted 
to a less active status for monitoring for future action. If the Defect 
Assessment Division determines that it needs to conduct additional 
discussion to determine the status of an IE proposed for investigation, 
the Defect Assessment Division can present the IE before the Defect 
Assessment Panel.\6\
---------------------------------------------------------------------------
    \6\ The Defect Assessment Panel includes the Associate 
Administrator for Enforcement, ODI management and staff, a 
representative from the NHTSA Chief Counsel Office, and other 
individuals that may have related knowledge or experience of the issue 
under review.
---------------------------------------------------------------------------
    The Defect Assessment Panel reviews IEs to decide collectively 
whether to open an investigation. The panel draws on the institutional 
knowledge and experience of ODI to identify high-priority cases. 
Although complaints and some early warning data are available to the 
public, ODI does not publically release pre-investigation analyses and 
decisions.
    Defect petitions prompt some investigations. For example, any 
interested person may file a petition requesting that ODI conduct an 
investigation into an alleged safety-related defect in a motor vehicle 
or motor vehicle equipment. ODI can deny or grant a defect petition, or 
investigate it based on office workload and the nature of the petition. 
If ODI denies a defect petition, it sends a denial letter to the 
petitioner and publishes the action in the Federal Register. If ODI 
grants a defect petition, it sends a grant letter to the petitioner and 
opens an investigation.
    The second phase, investigation, involves the formal investigation 
of alleged safety defects and recall adequacy. One of three ODI 
divisions--the Vehicle Control Division, Vehicle Integrity Division, 
and the Medium and Heavy Duty Vehicle Division--conducts 
investigations. The Vehicle Integrity Division investigates light 
vehicles, passenger cars, door integrity, airbags, seat belts, and 
child restraints. The Vehicle Control Division investigates engines, 
throttle, steering, brakes, suspension, wheels and tires, and control 
vehicle dynamics. The Medium and Heavy Duty Vehicle Division 
investigates all vehicles over 10,000 pounds, school buses, emergency 
vehicles, and motorcycles. The results of ODI investigations are 
available to the public.
    Generally, investigations are conducted in two phases--a 
preliminary evaluation (PE) and engineering analysis (EA). A PE is the 
first phase of an investigation. During the PE, ODI sends an 
information request letter to the manufacturer, reviews applicable 
information, and conducts tests as needed. A recall query (RQ) is an 
investigation opened on a recall because the recall remedy appears 
inadequate or the scope of the recall appears to be insufficient. ODI 
conducts the RQ in a manner very similar to the PE, and attempts to 
complete the PE or RQ within 4 months. ODI may close a PE or RQ if it 
determines that further investigation is not warranted, or because the 
manufacturer has decided to conduct or expand a recall. If ODI 
determines that further analysis is warranted, the PE or RQ is upgraded 
to an EA. An EA is the second phase of an investigation. During the EA, 
ODI conducts a more detailed and complete analysis of the character and 
scope of the alleged defect. ODI attempts to complete the EA within 1 
year or 360 days. If the results of the EA lead ODI to believe that 
there is a safety-related defect and the manufacturer has not conducted 
a recall, a Multi-Disciplinary Review Panel will be convened to 
consider what further action would be appropriate.
    The Multi-Disciplinary Review Panel consists of senior NHTSA 
officials and representatives from ODI. If the panel agrees with ODI's 
assessment that a recall is warranted, it issues a Recall Request 
Letter to the manufacturer calling for a mandatory recall.
    The third phase, post-investigation, involves the Recall Management 
Division, which monitors safety defect and noncompliance recalls 
assessing manufacturers' compliance with statutory and regulatory 
requirements. A manufacturer initiates a safety-related recall when it 
determines that any of its products contain a safety-related defect or 
fails to comply with a Federal Motor Vehicle Safety Standard. A safety-
related recall involves notifying NHTSA, owners, purchasers, and 
dealers of a safety defect, and providing a free remedy. Once the 
manufacturer notifies NHTSA that it is conducting a recall, the 
manufacturer must submit six quarterly reports to the Recall Management 
Division on the progress of the recall. If any of those quarterly 
reports identify issues with a recall, the Recall Management Division 
can conduct an audit query, equipment query, or timeliness query. These 
queries assess the adequacy of the recall. If the recall has a 
relatively low completion rate, the Recall Management Division may 
initiate an audit query (AQ). The intent of an AQ is to ensure that all 
safety recall campaigns comply with all statutory requirements by 
examining the procedures and processes used by a manufacturer to 
conduct a safety recall. If the AQ questions the installation of a 
defective component in vehicles not subject to a recall, an equipment 
query (EQ) may be initiated. The intent of an EQ is to ensure the 
identity and recall of all the affected vehicles or motor vehicle 
equipment. If the Recall Management Division questions the timeliness 
of the recall, it may initiate a timeliness query (TQ).

    Senator McCaskill. Thank you very much, Mr. Scovel.
    I know that there was a $1.2 billion settlement in 
conjunction with a criminal investigation. Actually, 
technically, it was a wire fraud charge that the forfeiture 
occurred around. But the failure to give information to NHTSA 
or lying to NHTSA, that is capped at $35 million.
    So if you don't have a situation that the facts lend 
themselves to a criminal prosecution but, rather, it is a 
withholding of information--which, by the way, could be a 
negligent withholding of information. It wouldn't have to be an 
intentional withholding of information.
    Is $35 million enough? I mean, is that really a deterrent 
to companies like General Motors or Toyota or Chrysler or any 
of the companies that are supposed to be giving this data?
    Mr. Friedman. Senator, when we find evidence that 
automakers have not acted in a timely manner, we will fine them 
to the maximum extent allowed by law. In the last Congress, we 
did support increasing that fine to $300 million.
    Senator McCaskill. And do you believe that is necessary 
too, Mr. Scovel?
    Mr. Scovel. Senator McCaskill, I believe that is a policy 
consideration for the administration and for the Congress.
    In considering the purposes behind such penalties, whether 
it can be those that can be similarly related the basis for 
sentencing in criminal proceedings--retribution, prevention, 
deterrence, rehabilitation--certainly, deterrence is one factor 
that the Congress and the department ought to consider in 
deciding whether to raise the penalty from $35 million to any 
figure above that.
    Whether it is a question of is $35 million regarded by some 
automakers as simply a cost of doing of business, that can 
certainly be a conclusion that some may draw from it. There may 
well be information that an Inspector General or the Government 
Accountability Office may be able to derive through an audit 
process to help the Congress and the department make that 
determination.
    Senator McCaskill. I know you mentioned the work force 
assessment that is ongoing. I think I was struck when I was 
going through the materials for this hearing, because I asked 
the question about your budget, Mr. Friedman, especially for 
defect investigations. Your budget has been at $10 million for 
defect investigations for a decade.
    Now, this is a decade that has seen major changes in 
automobile manufacturing. It has seen a much more complicated 
engineering scenario, where we have interdependence of 
computers. You know, the complexity has gone up exponentially 
over the last decade.
    Do you believe that $10 million is adequate to spend in 
this country for defects investigation for the entire 
automobile industry?
    Mr. Friedman. Senator, the president has requested an 
increase in our budget across NHTSA in order to better increase 
our abilities to address the wide variety of challenges we 
face.
    In 2012 alone, 33,561 lives were lost on our highways due 
to a variety of factors, whether it was impaired driving, not 
wearing seatbelts, safety technology that hadn't yet been 
brought into the fleet, as well as a smaller portion of that 
associated with defects. We have been asking to increase our 
budget because each one of those lives lost is a tragedy. And 
we have----
    Senator McCaskill. But within your budget, Mr. Friedman, 
you are not asking for an increase in the defects 
investigation. I mean, the budget that has been submitted 
doesn't show an increase.
    Mr. Friedman. I believe we----
    Senator McCaskill. The money is going other places in your 
agency.
    Mr. Friedman. I believe we have asked for some increases in 
resources, certainly some increases in staff. And part of what 
we have been doing is using our resources to invest in 
technology to make our efforts significantly more efficient.
    One of the things that we have done is invest in a new 
computer tool that is derived from IBM's Watson technology in 
order to enhance our ability to find patterns, to quickly get 
to those patterns, to connect information. And we do have plans 
to continue expanding that effort. We need to put more tools in 
place to be able to sift through the data that we have so that 
we can find these patterns or examples of defects and get them 
fixed.
    Senator McCaskill. In 2007, you considered opening an 
investigation into airbag nondeployment, as you mentioned in 
your testimony. You chose not to. Was the basis of that 
decision recorded anywhere?
    Mr. Friedman. I don't believe we have complete records of 
that. This goes back to one of the findings in the----
    Senator McCaskill. Right.
    Mr. Friedman.--Inspector General's report. Frankly, it is 
something that is currently hamstringing our ability to fully 
pull together all of what happened. However, I do have staff 
actively working on making sure we understand what happened.
    But that is something that has changed, and it is something 
that we will have going forward--already have and will continue 
to have going forward, that hopefully a case like this will not 
happen again, but if it does, we will have better resources to 
be able to understand exactly what happened.
    Senator McCaskill. Well, I think we need to have the 
resources and the expertise at NHTSA to find these defects.
    And then, obviously, we have to have the transparency of 
the process that is available to the public and available to 
anyone who wants to see it. And part of the complaints I hear 
about NHTSA is that it is very difficult sometimes to get 
information out of NHTSA by safety advocates that are trying to 
do their work in the public arena in terms of safety. And I 
think we will continue to follow up on that.
    Senator Heller?
    Senator Heller. Thank you, Madam Chairwoman. Yes, thanks 
for this hearing. And thanks, for those who are testifying, for 
being here today.
    Mr. Friedman, I have to admit that I am little frustrated 
with your administration. I had sent a letter in anticipation 
of getting the results to questions prior to this hearing, and 
I think I was assured that it would come before today, last 
night in particular, and of course that didn't happen.
    So with the Chairman's permission, I will submit the 
questions in the letter to the record, if there are no 
objections.
    And I believe I have no other alternative but to ask you 
the questions here and now if I can't get it in writing.
    So the first question I have: Did GM report all consumer 
complaints related to the stalling incidents and airbag 
failures that it considered in the recall to NHTSA?
    Mr. Friedman. Senator, first, if I may apologize, I am 
sorry we were not able to get you the answers to your 
questions. I know the same is the case with several other 
members. Our focus on making sure that we are addressing the 
safety issues and responding to the Committee has taken up a 
significant amount of our time, but I will get you a response 
to your letter this week.
    Senator Heller. OK.
    Mr. Friedman. But in terms of your question, General Motors 
reports to us the counts of complaints, but they do not provide 
to us the detailed complaints themselves.
    Senator Heller. So what actions do you take based on that 
information?
    Mr. Friedman. Well, we use that information, the number of 
their complaints, along with a wide variety of other pieces of 
information, both that they provide and that we gather 
ourselves through our complaint data base, through our special 
crash investigations, through industry websites and other 
resources. We look at that data.
    We have an early warning division that is focused 
exclusively on looking at the early warning data, which would 
include complaint numbers and other data. And we have a defects 
assessment division that is focused on consumer complaints and 
compiling the information.
    We gather that data, and, in this case, there were clear 
warning signs and concerns. And, therefore, an expert panel was 
convened based on those concerns to determine, after looking 
more deeply into the issue, whether or not there was sufficient 
information to open up an investigation.
    Senator Heller. Any conclusions from that expert panel?
    Mr. Friedman. In that expert panel, the decision was made 
not to open the investigation, based on a couple of key 
factors.
    The first is that the Cobalt and Ion did not stand out when 
it came to airbag nondeployment complaints compared to their 
peers. They were a little bit above average, but they did not 
stand out.
    Second, in looking at the detailed crash investigations, 
the two that were available at the time, they were inconclusive 
as to the cause of airbag nondeployment. Understandably, many 
people expect airbags to deploy in any frontal crash, for 
example, but they are actually designed to only deploy when 
they will help the occupant and not cause more harm than good.
    Senator Heller. When were those conclusions made?
    Mr. Friedman. In 2007. That was the first time we looked at 
it.
    Senator Heller. OK. So share with me, what threshold does 
NHTSA use to determine whether a complaint like this warrants 
further investigation?
    Mr. Friedman. Senator, we don't have a specific threshold. 
Each case is different. In cases where a defect is clear, all 
it takes is one, and we will act on that one case if there is 
clear evidence of a defect. If there is not, we look for 
further evidence, we look for trends.
    But we consciously do not have a specific threshold, 
because each case is different. If there is a vehicle where 
only 5,000 are sold per year and we see 1 incident, that may be 
sufficient to open an investigation. If there is a vehicle 
where there are 500,000 sold in a year, if there is 1 incident 
that is a clear defect, we will open. But if there is a larger 
number and it is not a clear defect trend, we may not open. It 
does depend on the facts of the case.
    Senator Heller. So you are saying, in this particular case, 
that you couldn't tell me how many additional incidents or 
reports would be necessary in order for NHTSA to take further 
action?
    Mr. Friedman. We rely on a combination of our engineering 
expertise, data indicating whether or not there is a 
significant trend. So if the number of complaints had gone up 
significantly, that would have caused us to act. In fact, what 
happened when we looked at this again in 2010, the complaint 
rate overall went down.
    Senator Heller. OK.
    I will hold off for additional questions.
    Senator Blumenthal?
    Senator McCaskill. Go ahead, Senator Blumenthal.
    Senator Blumenthal. Thank you.
    Thank you both for being here, Mr. Friedman and General 
Scovel. I, first of all, want to thank you for your service to 
our Nation and now for your service at NHTSA as Inspector 
General. And thank you, Mr. Friedman, for your service at 
NHTSA.
    Let me ask you, Mr. Friedman, I take it from what you said 
yesterday and what you have said here today that GM concealed 
material significant information from NHTSA. Is that correct?
    Mr. Friedman. We are very concerned that they didn't 
provide us with sufficient information. The----
    Senator Blumenthal. Well, I know you are concerned. We are 
all concerned. Did they conceal information, so far as you 
know?
    Mr. Friedman. That is exactly the subject of an open 
investigation that we have into General Motors. And if we find 
that they did violate their responsibilities to report 
information and to act quickly, we will hold them accountable. 
But because that is an open investigation, I don't want to 
prejudge that.
    But I am very concerned that they did not provide us with 
part number changes, I am concerned that they had conversations 
with suppliers about the algorithms, and that we weren't aware 
of it.
    Senator Blumenthal. In your view, was the faulty ignition 
switch a defect?
    Mr. Friedman. With what we know now, very clearly it was a 
defect.
    Senator Blumenthal. Was it a design defect?
    Mr. Friedman. I am not sure--it was clearly a defect. It 
was a defect that represents an unreasonable risk to safety. 
And from my understanding of the situation, it is a combination 
of factors. The key itself, with low torque, could turn, and 
there is clearly something about their algorithm that appears 
to disable the airbags in that case. That, to be honest, 
doesn't make sense to me, because if the vehicle is moving----
    Senator Blumenthal. Well, it cuts off the car, which in 
turn disabled the airbag; is that correct?
    Mr. Friedman. I don't know if that is--we are actually 
asking them very specific questions to understand that. Power 
loss in a vehicle in a crash is not uncommon. There are 
capacitors built in to these airbag systems to ensure that they 
have power in the case of losing----
    Senator Blumenthal. Well, I have limited time, so let me 
just ask you very directly. It is your testimony today that it 
was a defect?
    Mr. Friedman. Based on what we know now, absolutely.
    Senator Blumenthal. And defects are supposed to be 
reported, correct?
    Mr. Friedman. Absolutely.
    Senator Blumenthal. Let me ask you, General. I know that 
you have made various recommendations about changes and reforms 
at NHTSA. And looking at your testimony, I understand that many 
of those recommendations have been made, correct?
    Mr. Scovel. Yes, Senator, the recommendations have been 
made. NHTSA has taken steps to address nearly all of those. The 
most significant one still outstanding has to do with a 
workforce assessment.
    Senator Blumenthal. Right.
    But I noted that in one of the paragraphs of your 
testimony, page 6, you say, ``We believe the enhanced processes 
NHTSA put in place to address our 2011 recommendations will put 
the agency in a better position to identify and investigate 
vehicle safety defects to the extent that ODI uses and applies 
these process enhancements when conducting its analysis and 
investigation.''
    The way I interpret that sentence is, you know they have 
said they adopted the recommendation, but you don't know, in 
fact, whether they are doing them.
    Mr. Scovel. Precisely. We don't know how effective these 
new process enhancements will be. We believe, based on our 
assessment of NHTSA's processes as of the 2012-2011 timeframe, 
using the Toyota case as a case study, if you will, assessing 
NHTSA's processes and what we recommended to improve those, 
that the steps that NHTSA step should help.
    Now, are they the silver bullet, would they have avoided or 
prevented any of the problems that we might see with GM? That 
we don't know.
    But what we do want to answer now is the mail from the 
secretary, where he asks us specifically whether NHTSA acted in 
an expeditious and timely manner to identify and pursue safety 
defects covered by the GM recalls and whether NHTSA had and 
currently has sufficient resources, processes, and data 
available to it to fulfill its safety function with respect to 
the recall. So we want to see how it is being applied.
    Senator Blumenthal. Are you involved, as you were in 
Toyota, in a criminal investigation of GM?
    Mr. Scovel. Senator, I can't confirm or deny that a 
criminal investigation is under way. Based on our Toyota 
experience----
    Senator Blumenthal. You were involved in the Toyota 
criminal investigation?
    Mr. Scovel. Absolutely. We were critical to the criminal 
investigation of Toyota. Our agents were identified by name a 
couple of weeks ago by the attorney general at his press 
conference where he announced the forfeiture. And we have 
gained a tremendous amount of expertise in this area.
    Senator Blumenthal. And let me ask you, finally--I would 
ask both of you to support the legislation that Senator Markey 
and I have introduced. Are you willing to do so?
    Mr. Friedman. Senator, I am very open to working with 
yourself and Senator Markey on how to make sure that we can 
best move forward and how we can improve and very open to 
further discussions on your legislation.
    Mr. Scovel. Sir, if I may--and my response is also more 
complicated, and I will apologize in advance.
    I am sure you appreciate that, as an Inspector General, my 
presumption is that more transparency is almost always better 
than less. By virtue of the fact that I serve as DOT Inspector 
General, by statute and by executive order I serve on the 
Recovery Accountability and Transparency Board, the Government 
Accountability and Transparency Board, so transparency is 
literally our middle name.
    However, I am fully cognizant of the policy factors, the 
considerations on the other side regarding confidential 
business information and so forth.
    Senator Blumenthal. Thank you.
    Thank you very much.
    Senator McCaskill. Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Madam Chair.
    Mr. Friedman, maybe you heard earlier about the case of the 
three young women in the car in Wisconsin. Two were killed; one 
of them was one of my constituents, Natasha Weigel.
    And following the crash, NHTSA opened up an investigation 
and found incidences of similar ignition switch problems but 
was unable to determine what was causing the problem. The 
report found that--this is a quote--``such a determination 
would most likely require an analysis of the airbag system to 
determine if, in fact, the airbag is capable of deploying when 
the ignition is switched from the on position to the accessory 
position. Such an undertaking is beyond the scope of this 
investigation.''
    Mr. Friedman, do you think that this report should have 
raised enough red flags to trigger further investigations into 
this question?
    Mr. Friedman. This report was one of the pieces of 
information that did raise concerns and that the panel did 
consider. At that time, our understanding of airbags indicated 
that, first of all, power loss in a crash was not uncommon and 
that airbag systems were designed to be able to function in 
those circumstances.
    Based on that expertise and based on the information we had 
available, it was determined that it wasn't sufficient 
information to open up at the time.
    This is, frankly, one of the clear lessons that we are 
learning from this, a lesson that clearly comes too late, that 
we needed to question that assumption. And going forward, one 
of the things that I have talked to my staff about and that we 
are looking at is, how can we better consider remote defect 
possibilities? How can we better integrate these special crash 
investigations even further? They are already part of the 
process, but how do we better integrate them into this process?
    This was a tragedy. The----
    Senator Klobuchar. And this report, I think, the crash was 
one of the first, where they barreled 71 miles per hour into a 
grove of trees, it was one of the first to be linked to the 
faulty ignition switch. So do you think if you had something 
better in place, there was potential for trying to prevent 
these tragedies in the future?
    Mr. Friedman. Well, that is, without a doubt, my goal.
    One of the challenges in this specific instance was that, 
as you noted, the vehicle hit trees. The first set of trees 
that they hit was kind of a softer strike with an unbelted 
occupant, which is the exact kind of condition where airbags 
are designed to often not deploy, because if the driver or 
passenger is moving forward as the airbag is expanding, sadly 
it could do more harm than good. More than 200 lives had been 
lost previously because of that challenge.
    And so our understanding of the system indicated that, 
under those conditions, the conditions of the crash were the 
more likely reason for nondeployment. But, clearly, as I said, 
we need to relook at our assumptions and relook at our 
understanding of these systems. And we are actively doing that. 
We are talking to automakers to better understand their 
algorithms and if there is a problem out there.
    Senator Klobuchar. Investigators, as you know, are still 
gathering the recall data and records to understand what 
actually happened here with GM. But based on the records we 
have so far, one thing we know is that NHTSA is very dependent 
on the automobile companies for the data and the context that 
is needed to tell whether something is, in fact, an isolated 
event or a dangerous trend or a defect.
    Is it your view that NHTSA has to rely too heavily on auto 
manufacturers to get this information?
    Mr. Friedman. Senator, we rely on auto manufacturers for 
some information, but we also have significant resources with 
information that have nothing to do with the automakers.
    One of the most important pieces of our database are 
consumer complaints. Right now we get about 45,000 of those a 
year, which we look through each and every one. I would like to 
see that number grow. We have plans and efforts under way to 
try to get more and more consumers, when they see problems, to 
report them to us.
    There is added data that we get from automakers, and we do 
use that as part of the process. I don't think we are too 
dependent on them, because we try to make sure, and in this 
case we did, rely on our expertise and our data as part of the 
process.
    Senator Klobuchar. So what was it, you got about 260 
complaints about the faulty ignition? Is that about right?
    Mr. Friedman. I believe that is one of the numbers that was 
reported on the ignition switch. At the time, what we were 
trying to understand and what we were looking at was airbag 
nondeployments. At the time, we did not have the information 
directly linking them.
    Senator Klobuchar. So you didn't know it was linked. But--
well, I know we are going to find all this out, I hope very 
soon. But you didn't know that it was about ignition switches? 
You just thought it was some--you were looking at the airbags 
instead of the----
    Mr. Friedman. At the time, our focus was trying to 
understand why airbags may not have been deployed. There were 
these added complaints about ignition switches or stalling. I 
believe the 260 number may have been all stalling complaints; I 
would have to check on that to be sure. It is not clear that 
all of those were related to the ignition switch. There are 
many causes of stalling.
    Senator Klobuchar. Did the airbags not deploy because it 
wasn't a traditional crash right away, it just shut down, so 
then the airbags don't deploy?
    Mr. Friedman. The dynamics of these crashes, to the 
investigators, to our crash investigators, indicated that that 
was the more likely reason. But it is very possible, now that 
we know what we know, that the ignition switch being in the 
accessory position was the problem. We now have that definitive 
link from General Motors, a link that if we had had earlier we 
would have been able to act.
    Senator Klobuchar. Mr. Scovel, you look like you wanted to 
respond.
    Mr. Scovel. Yes. Thank you, Senator. I have something that 
may help the Committee understand this point too. And I have in 
front of me a copy of the special crash investigation report 
that I know you were referring to, Senator, because you read 
from the last sentence here, too, of the main paragraph on page 
7.
    It is encouraging to hear the Administrator talk about 
reexamining processes, and specifically he used the term 
integrating'' special crash investigation reports, because we 
clearly need to--we, my office--need to understand how the 
agency intends to do that. Because we have identified that on 
the basis of, certainly, this one piece of evidence that you 
have cited as a key concern.
    The Administrator has spoken to at least the preliminary 
finding or assessment that the airbags didn't deploy because of 
the nature of the impact against softly yielding trees. In 
fact, the expert engineers conducting the special crash 
investigation about a year later submitted an amendment to the 
report that removed that as their initial assessment and said 
that they couldn't tell whether it might be that or it might be 
the loss of power through the ignition system, but that such an 
undertaking was beyond the scope of the investigation, and they 
pointed out that it would require further analysis.
    Senator Klobuchar. So they actually looked at maybe they 
were wrong and it may have been the ignition switch.
    Mr. Scovel. Right. Right.
    Senator Klobuchar. But that is not what they were asked to 
investigate; is that what is?
    Mr. Scovel. It is----
    Senator Klobuchar. It seems so strange. Wouldn't you want 
to----
    Mr. Scovel. It does. But it is properly beyond the scope of 
how NHTSA has laid out what it wants to get from a special 
crash investigation.
    Senator Klobuchar. OK. Is there a way you could change 
that, where you say, we don't know what happened here, this is 
very odd that these girls were just driving down the road and 
suddenly they, 71 miles per hour, surge into some trees? I 
mean----
    Mr. Friedman. Well, part of--so the purpose of special 
crash investigations is to better understand the circumstances 
of crashes of interest. We were very concerned about airbag 
nondeployments, which is exactly why we were having special 
crash investigators go out and gather data and information on 
these crashes. I do believe that that is a good process, that 
is the right process.
    We also make sure that the special crash investigators and 
ODI talk to each other. It is the job of the investigators to 
try to understand whether or not there is a defect.
    So SCI is a great tool for gathering the data, but we then 
also need our experts engaged in the process to translate and 
understand that data.
    Senator Klobuchar. OK.
    I have one last question on the recall process, if that is 
all right. Manufacturers can voluntarily initiate recalls 
without waiting for NHTSA to order it, or NHTSA can order 
manufacturers, right----
    Mr. Friedman. That is correct.
    Senator Klobuchar.--to initiate a recall. However, if they 
are going to do that, if they are actually going to order one, 
they need this lengthy process that includes holding a public 
hearing, completing the investigation, and giving the 
manufacturer time to file a detailed response, and perhaps even 
defending a recall in Federal court.
    Mr. Friedman, by taking so long to order a recall here, the 
recall of these cars, which seem to be rolling out a different 
one every day, are we shortchanging Americans and jeopardizing 
safety? And, in other words, when lives are at stake and when 
manufacturers may be reluctant, as appears to be in this case, 
to initiate a recall, if you go back through time, on their 
own, is the length of time it takes for NHTSA to order a recall 
a problem?
    Mr. Friedman. Senator, the good news here is that we very, 
very rarely ever have to go to that length. We are actually 
potentially involved in such a situation with a car seat 
manufacturer who has resisted moving forward with some infant 
seats, but the vast majority of the time, almost every single 
time, the industry does act. But sometimes it does take extra 
pressure.
    What I would like to see, frankly, is, when we provide 
evidence to an automaker that there is a defect, that they act 
right away. I would like to see quicker action from automakers.
    But, to be clear, the vast majority of the times, we do not 
have to go through that full process. We can get the recalls 
much earlier in the process, and we very often do.
    Senator Klobuchar. Thank you.
    Senator McCaskill. Mr. Friedman, first, do you monitor the 
legal claims against manufacturers?
    Mr. Friedman. The legal claims are one of the pieces of 
information that does come in to NHTSA through the early 
warning system, through our early warning data system. However, 
depending on where those claims are in the process, in terms of 
litigation, whether or not that litigation or the findings are 
sealed, we may not have all the access to that information.
    Senator McCaskill. But you are monitoring, because it is 
very easy to find--I mean, I could go on my iPad right now and 
Google ``lawsuits against General Motors'' and pull up hundreds 
of them, I am sure, in fairly quick order. Do you all do that 
so you know if a complaint has been filed on a defect on the 
automobile?
    Because what I am trying to do is harness the great work 
that clearly is going on, since it was a lawyer who figured 
this out, harness that work for your agency. And I don't get 
the sense that you all are paying that close of attention to 
these cases.
    Mr. Friedman. We are paying very close attention to these 
cases. We get death and injury reports, which include claims, 
unsubstantiated claims in some cases, associated with these 
vehicles. So we get those reports. And when we see some that 
raise concern, we do reach out and ask for additional details.
    In this case with the Cobalts and other vehicles, if my 
numbers are correct, I believe we reached out 98 times to 
follow up on various claims, death and injury claims, 
associated with these vehicles. We looked at that data and that 
information as part of that process.
    Senator McCaskill. So I would be interested to know the 
specifics of that. How many of those 98 claims, when you looked 
at them, how many of them had been settled, how many of them 
were tried, how many went to a jury verdict, what were the 
verdicts. If you actually did that, I would like to see that 
documentation.
    My next question is, if you look and you find one of those 
cases, it has been settled and it is confidential, do you have 
the legal authority to ask that manufacturer to give you the 
details of that lawsuit?
    Mr. Friedman. I don't know of the exact details of our 
legal authority. I do know that, for example, if it hasn't been 
sealed, depending on the case, we can ask for additional 
information.
    Senator McCaskill. Well, let's assume it has been sealed. 
Let's assume that General Motors or Toyota or Chrysler or any 
of them insist that they will not settle with the client, with 
the victim, unless there is an agreement of confidentiality. Do 
you have the ability, independent of the confidentiality 
between the victim and the defendant, do you have the ability 
to go directly to the defendant and get that information?
    Mr. Friedman. I will have to verify with my team, but I do 
not believe we have the ability to request sealed documents. I 
also----
    Senator McCaskill. What about subpoenas? You can subpoena, 
right?
    Mr. Friedman. Thank you.
    Yes.
    Senator McCaskill. OK. That worries me you didn't know.
    Mr. Friedman. It worries me, as well.
    Senator McCaskill. So how often have you utilized the 
subpoena power of NHTSA to get more information from automobile 
manufacturers?
    Mr. Friedman. That is something I will definitely get back 
to you on the record.
    Senator McCaskill. OK. I would be very interested in that.
    And then, finally, I am a little worried about this whole 
deployment of airbags, power on, power off. As you have said 
and your testimony said, you believe the specifications were 
that if the power was off the airbag would still deploy. We are 
now learning that the reason the airbag didn't deploy is 
because the power was off. This is a problem.
    Mr. Friedman. Well, and it may even be more complicated 
than that, actually. And that is one of the questions that we 
actually have in our timeliness query to General Motors. It is 
possible that it is not simply that the power was off but a 
much more complicated situation where the very specific action 
of moving from on to the accessory mode is what, didn't turn 
off the power, but may have disabled the algorithm.
    That, to me, frankly, doesn't make sense. From my 
perspective, if a vehicle--certainly if a vehicle is moving, 
the airbag algorithm should require those airbags to deploy. 
Even if the vehicle is stopped and you turn from on to 
accessory, I believe that the airbags should be able to deploy.
    So this is exactly why we are asking General Motors this 
question, to understand is it truly a power issue or is there 
something embedded in their algorithm that is causing this, 
something that should not have been there in their algorithm.
    Senator McCaskill. Yes. Well, it is pretty important we 
figure that out. And then what you need to do is you need to 
look across the entire manufacturing spectrum----
    Mr. Friedman. We have already begun.
    Senator McCaskill.--on this issue. Because either an airbag 
is dependent on power or it isn't. And if it is dependent on 
power, we have an issue.
    Mr. Friedman. Yes, Senator. In fact, I have already 
directly my staff, several days--well, it is at least days, if 
not more than a week ago, as we were digging in to this, to 
reach out to automakers and to suppliers.
    Because I have the same concern you have, and I want to 
make sure that we fully understand this issue so that Americans 
driving on our roads are safe. Safety must always be our top 
priority.
    Senator McCaskill. OK.
    Senator Heller?
    Senator Heller. Thank you.
    Mr. Friedman, how long have you been the Acting Director?
    Mr. Friedman. I have been the Acting Administrator just 
over 2 months.
    Senator Heller. What was your prior experience with NHTSA?
    Mr. Friedman. Prior to that, I was the Deputy Administrator 
for about 8 months.
    Senator Heller. OK. Anything prior to that with NHTSA?
    Mr. Friedman. Prior to that, I worked for a nonprofit 
organization, and we engaged on fuel economy and fuel-economy-
and safety-related issues, where they overlapped. I worked 
there for about 12 years.
    Senator Heller. I am just trying to get your history with 
NHTSA.
    All right, probably one of the biggest complaints I get 
when I go home, talking to businesses and companies, is, you 
know, government interference and the strong hand of government 
themselves and some of the regulations.
    Could you describe to me what the relationship between 
NHTSA and GM has been in the past?
    Mr. Friedman. Our relationship has been a relationship you 
would expect between a regulator and a regulated entity. Our 
goal, as part of that relationship, is to ensure that we are 
catching any defects involved, that we are discussing with them 
possible safety technologies, and that we are ensuring that 
they are providing information to us and we are raising 
concerns to them when appropriate.
    Senator Heller. Are you comfortable with the relationship?
    Mr. Friedman. I would like to see, from all automakers, 
increased efforts to be responsive when NHTSA reaches out on 
defects issues. I would like to have the confidence that they 
are all sharing all the information that they have.
    Senator Heller. Do you have that confidence today?
    Mr. Friedman. I think, clearly, the Toyota case indicates 
that, no, I should not fully have that confidence, because that 
is a clear case where, in fact, there was a part number change, 
a part change, that was not revealed. It is also one of the 
reasons why I am concerned in this case and one of the reasons 
why we have opened an investigation into the automakers.
    In fact, over the last 5 years, we have issued record fines 
against automakers, not just Toyota but Ford, as well, and at 
least one other manufacturer, because we were concerned that 
they did not act properly under the law and we found that they 
did not act properly under the law.
    Senator Heller. Is the Secretary of Transportation 
consulted with decisions regarding NHTSA investigations?
    Mr. Friedman. That is a very broad question. There are some 
investigations that the Secretary of Transportation is made 
aware of. But, certainly, in the defects assessment panels, or 
the defects panels, the Secretary of Transportation is not 
involved in that decisionmaking process, no.
    Senator Heller. Was he involved in this one?
    Mr. Friedman. No.
    Senator Heller. He was not.
    Mr. Friedman. No. And just to be clear, there was a panel 
that happened in 2007. That is the panel that we are 
discussing. And absolutely not.
    Senator Heller. Was anyone in the Secretary's office 
consulted?
    Mr. Friedman. No.
    Senator Heller. OK.
    Let me ask you another question. Did any government 
official outside of the Department of Transportation consult or 
provide input on the decision not to move forward in 2007 or 
2010?
    Mr. Friedman. Not that I am aware of, no. That would not be 
our standard process.
    Senator Heller. Mr. Scovel, let me ask you the same 
question. In your investigation, did you check to see, or was 
that part of your broad scope of things to find out, what 
influence may or may not have occurred in 2007 and 2010?
    Mr. Scovel. Senator, it was not part of the audit that we 
conducted in the 2010-2011 timeframe, which was prompted most 
immediately by the Toyota problems.
    Going forward, I can tell you that in the current audit, 
which the secretary has requested us to do, we will be looking 
at everything that NHTSA knew, what it didn't know, when it 
knew it, and what actions it took in response to that. Should 
we come across any documentation--and our auditors are trained 
and will be instructed to be on the lookout for such matters--
we will take them cognizance and refer them to the proper 
authorities.
    Senator Heller. Including other government influence on the 
decisionmaking process?
    Mr. Scovel. Yes, sir.
    Senator Heller. Very good.
    Thank you, Ms. Chairman.
    Senator McCaskill. I want to thank both of you for being 
here today. I think we have had a productive day and have 
learned a lot.
    And there will be follow-up hearings, and we will be 
calling on you, particularly, Mr. Friedman, to give us more 
information as your investigation continues.
    Mr. Friedman. Absolutely.
    Senator McCaskill. Thank you both.
    Mr. Friedman. Thank you.
    [Whereupon, at 1:13 p.m., the hearing was adjourned.]
                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                             Mary T. Barra
    Question 1. You made distinctions in your testimony between the 
``old'' GM and the ``new'' GM. In particular, you said that the new GM 
has a ``customer culture,'' whereas the old GM had more of a ``cost 
culture.'' You have been with GM for your entire career. While I am 
pleased that a customer culture has taken hold, I have serious concerns 
about your characterization of the so-called ``old GM.'' Many of our 
constituents drive ``old GM'' cars that were built before 2009, when GM 
emerged from bankruptcy.

    Question 1a. What was the practical impact of this ``cost culture'' 
on the safety of cars built by the old GM?

    Question 1b. Should people driving any vehicles built by GM during 
the time when the company had a ``cost culture'' be concerned about the 
safety of their vehicle?
    Answer. GM stands behind the safety of its vehicles. As stated in 
GM's 10-Q filing on April 24, 2014, in the three months ended March 31, 
2014 we experienced a significant increase in the number of vehicles 
subject to recall in North America, and we have announced further 
recalls since that time. These recalls include vehicles manufactured 
before and after 2009. These recalls reflect the results of our 
comprehensive safety review, additional engineering analysis, and our 
overall commitment to customer satisfaction. Where GM has identified 
safety issues as part of its review, cost has not been a factor in 
determining whether to conduct a recall.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                             Mary T. Barra
    Question 1. Please provide me with copies of all documents 
(including but not limited to memos, powerpoints, letters, agendas, e-
mails, meeting notes, white papers, and telephone logs) in any way 
related to (i) the March 29, 2007 meeting between GM and NHTSA that 
included a discussion of a 2005 accident involving a Chevrolet Cobalt 
whose airbags did not deploy and (ii) any subsequent meetings or 
correspondence between GM and NHTSA that were in any way related to 
potential defects associated with any of the models recently recalled 
due to the ignition switch defect.
    Answer. GM has conducted a search of locations where documents 
related to the March 29, 2007 meeting between GM and NHTSA would 
ordinarily be expected to be found, identifying documents through 
specified custodians and search terms, and has produced those documents 
identified as responsive to date. With respect to the second part of 
the question, excluding correspondence and meetings in 2014, GM has not 
identified responsive documents involving meetings or correspondence 
between GM and NHTSA regarding the ignition switch defect. GM notes 
that it has produced certain Early Warning Report (``EWR'') data to the 
Committee for the vehicles within the scope of the February 7, 2014 and 
February 25, 2014 recalls and certain documents relating to power 
steering defects in the Cobalt, G5 and Ion vehicles. GM has also 
produced documents covering other issues, such as fuel tanks and tires, 
involving some of the models within the scope of the February 7 and 
February 25 recalls.

    Question 2. Please provide me with a list of GM vehicle models 
manufactured in any model year since model year 2000 that utilized 
Delphi ignition switches. For each of these models (and for each model 
year in which the vehicle was sold), please list the model number for 
the ignition switch and GM's torque specification for the ignition 
switch.
    Answer. Based on our investigation to date and review of available 
information, please see the information in Table 1:
Table 1: Vehicle models with Delphi Ignition switches
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <SUP>*</SUP> TBD indicates that GM has not at this time been able 
to confirm the tolerance of the torque for that part number and 
application combinations.

    Question 3. Please provide me with an un-redacted copy of the 
November 14 2008 actuarial report entitled ``Loss Reserve Analysis and 
Forecast'' that was prepared by AON Global Risk Consulting, as part of 
the GM bankruptcy proceeding. Please additionally provide me with any 
data, documents (including but not limited to memos, powerpoints, 
letters, agendas, e-mails, meeting notes, white papers, and telephone 
logs) GM provided to AON that were in any way related to the potential 
for current or future liabilities associated with any of the vehicles 
GM recalled due to the flawed ignition switch, and any documents 
(including but not limited to memos, powerpoints, letters, agendas, e-
mails, meeting notes, white papers, and telephone logs) received by GM 
from AON during the preparation of this report.
    Answer. An unredacted copy of the November 2008 actuarial report is 
enclosed. GM is in the process of searching for documents GM may have 
provided to AON relating to the November 2008 report that were related 
to the potential for current or future liabilities associated with the 
recalled Cobalt, G5 Ion, HHR, Solstice and Sky vehicles, and documents 
received by GM from AON during the preparation of this report. To the 
best of our knowledge based on our inquiries to date, data for the 
report except for Insured Workers Compensation was provided by ESIS 
(GM's third party claims administrator), including direct access by AON 
to certain ESIS data. Further, to the best of our knowledge based on 
our inquiries to date, the information that AON reviewed did not 
specify the allegations involved in a particular claim. AON would have 
more direct knowledge of the information it obtained from ESIS in that 
time period.
    [NOTE: The copy of the November 2008 actuarial report has been 
submitted to and is retained by the Committee.]

    Question 4. A GM document indicated that changes to address the 
ignition switch defect were rejected in 2005 because ``none of the 
solutions represents an acceptable business case.'' Has GM attempted to 
determine whether a similar ``business case'' metric has ever been 
applied to any other potential safety defects for any of GM's models? 
If so, please provide me with all documents related to any such case. 
If no attempt has been made to learn whether other instances of such a 
``business case'' analysis for a potential safety defect have occurred, 
why not?
    Answer. In redoubling its efforts regarding customer safety over 
the last several months, GM has engaged in a comprehensive safety 
review, including additional engineering analyses. Where GM has 
identified safety issues as part of its review, cost has not been a 
factor in determining whether to conduct a recall. In the three months 
ended March 31, 2014 GM experienced a significant increase in the 
number of vehicles subject to recall in North America, and has 
announced further recalls since that time. These recalls include 
vehicles manufactured before and after 2009.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                         Hon. David J. Friedman
    Question 1. A person who fails to report auto safety defects to the 
National Highway Traffic Safety Administration (NHTSA) is subject to 
criminal penalties under 49 U.S.C. 30170. However, it is not clear the 
provision has ever been used to pursue criminal prosecutions. The 
provision further stipulates that the Attorney General may only seek 
such criminal penalties at the request of the Secretary of 
Transportation.
    In the largest settlement ever with an automaker, the Department of 
Justice on March 19, 2014, announced a $1.2 billion criminal settlement 
with Toyota over safety issues related to Toyota and Lexus vehicles in 
2009 and 2010. However, the Department of Justice pursued a wire fraud 
charge against Toyota rather than criminal penalties for violation of 
the Motor Vehicle Safety Act.

    Question 1a. Please list all cases brought by the Department of 
Justice using the criminal penalties in 49 U.S.C. 30170.
    Answer. I am not aware of any such cases.

    Question 1b. Please list all instances in which the Secretary of 
Transportation has ever asked the Department of Justice to pursue 
charges using the criminal penalties in 49 U.S.C. 30170.
    Answer. I am not aware of any formal requests. I cannot comment 
with regard to informal, privileged conversations.

    Question 1c. What, if any, obstacles does 49 U.S.C. 30170 present 
in being an adequate deterrent and proper enforcement mechanism for 
those who fail to comply with statutory vehicle safety reporting 
requirements?
    Answer. I am not aware of any obstacles to 49 U.S.C. 30170 being a 
deterrent and enforcement mechanism.

    Question 2. At the hearing, we discussed NHTSA's existing subpoena 
authority to compel information from companies, including automobile 
manufacturers.

    Question 2a. How frequently is this subpoena authority utilized? 
Are there any obstacles for NHTSA in using its subpoena power?
    Answer. NHTSA has broad compulsory information gathering authority 
that the agency exercises frequently, including through the issuance of 
information requests, general and special orders that are, in fact, 
administrative subpoenas on manufacturers, as well as officially 
denominated ``subpoenas.'' See 49 U.S.C. 30166(g) and 49 C.F.R. 
Sec. Sec. 510.4--510.12. NHTSA has no obstacles in exercising this 
authority.

    Question 2b. Please list all instances over the past decade in 
which NHTSA has issued a subpoena.
    Answer. As noted above, NHTSA has information-gathering authorities 
beyond issuing subpoenas. See 49 U.S.C. 30166(g) and 49 C.F.R. 
Sec. Sec. 510.4--510.12. For example, NHTSA's Office of Defects 
Investigation (ODI) regularly issues information requests. As noted 
above, responses to such information requests are compulsory. Over the 
past decade, NHTSA has issued more than 1,000 such information 
requests. See searchable public database of NHTSA investigations at 
www.safercar.gov. NHTSA also regularly issues special orders that are 
administrative subpoenas.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                         Hon. David J. Friedman
    Question 1. Please provide me with copies of all documents 
(including but not limited to memos, powerpoints, letters, agendas, e-
mails, meeting notes, white papers, and telephone logs) in any way 
related to (i) the March 29, 2007 meeting between GM and NHTSA that 
included a discussion of a 2005 accident involving a Chevrolet Cobalt 
whose airbags did not deploy and (ii) any subsequent meetings or 
correspondence between GM and NHTSA that were in any way related to 
potential defects associated with any of the models recently recalled 
due to the ignition switch defect.
    Answer. Information responsive to this request was previously 
provided to the Committee on March 28, 2014.

    Question 2. Please provide me with a full copy of NHTSA's 
investigation files on PE03-002 and IE02-102.
    Answer. NHTSA makes all consumer complaints, investigations, 
recalls, and summaries of associated technical service bulletins 
available to the public on its website at http://www-odi.nhtsa.dot.gov/
owners/SearchSafetyIssues. To conduct a search for the investigation 
files related to PE03-002 on the website, select ``ID Number'' and 
check ``Investigations.'' Enter PE03002 in the box and press ``Go.''
    Initial Evaluations (IEs) such as IE02-102 are preliminary, pre-
decisional analyses of potential safety defect issues conducted by ODI 
staff. As such, IEs are a direct part of the agency's deliberative 
process pertaining to the making of recommendations or expressing 
opinions on legal or policy matters having to do with issues that may 
or may not become the subject of a defect investigation. While we do 
not publicly release information related to IEs, we have attached a 
copy of IE02-102 for committee use only. [NOTE: The copy of IE02-102 
has been received and is retained by the Committee.]

    Question 3. MAP-21 required NHTSA to publish Technical Service 
Bulletins, such as the ones it received about the GM Chevrolet Cobalt 
ignition switch defect, on its website. Why hasn't NHTSA implemented 
this statutory requirement and when does it plan to do so?
    Answer. MAP-21 requires the agency to post dealer communications 
about defects and noncompliance, which includes technical service 
bulletins (TSBs). NHTSA currently posts TSBs that the agency relies 
upon as part of an ongoing investigation, as well as those that come in 
after a safety defect or non-compliance recall. NHTSA also plans to 
develop a standard format and content criteria that all automakers 
would be required to follow so that we can create a searchable index of 
such communications about defects and noncompliance. With respect to 
the recent GM recall relating to defective ignition switches, the 
associated TSBs are posted online at www.safercar.gov.
    Safety, including vehicle safety, is our top priority, and, over 
the past year, NHTSA has demonstrated its commitment to implementing 
the multiple provisions under MAP-21. For example, NHTSA now requires 
automakers to implement a VIN look-up feature that allows consumers to 
search for any recalls affecting their specific vehicle, and we are 
also implementing such a feature on the NHTSA website. To further help 
consumers, NHTSA mandated a new label to allow consumers to 
differentiate between recall letters and junk mail, and the agency also 
launched the Safercar app for consumers to receive notification of new 
recalls on mobile devices.

    Question 4. In your testimony, you stated that NHTSA's ``safety 
defect investigations have resulted in 1,299 recalls involving more 
than 95 million vehicles, equipment, tires, and child restraints, which 
have helped reduce vehicle fatalities to historic lows.'' For each of 
these recalls, please provide me with:

    Question 4a. A description of the recall, identifying the 
manufacturer, nature of the defect, number of vehicles or parts the 
recall applied to, and the date on which the recall occurred.

    Question 4b. A copy of NHTSA's investigation file related to the 
recall.
    Answer. NHTSA makes all consumer complaints, investigations, 
recalls, and summaries of technical service bulletins related to a 
defect or noncompliance available to the public on its website. You may 
download the consumer complaint, defects investigations, recalls, or 
summaries of associated technical service bulletins by going to http://
www.safercar.gov/Vehicle+Manufacturers/. Once at the website, select 
``Flat file copies of NHTSA/ODI Database'' and then select the Defect 
Investigations file to download and extract the data. The CAMPNO field 
(NHTSA Recall Campaign Number), if present, identifies the recall 
campaign initiated as a result of the investigation. The CAMPNO can be 
used to link to the Recalls file, also available on the website, for 
additional information.
    To conduct a search for the investigation files related to the 
recall, go to NHTSA's website at: http://www-odi.nhtsa.dot.gov/owners/
SearchSafetyIssues. Select ``ID Number'' and check ``Investigations.'' 
Enter associated investigation number in the box and press ``Go.''
    Additionally, attached is list of NHTSA influenced recalls from 
January 2004 through April 2014. [NOTE: The list has been received and 
is retained by the Committee.]

    Question 5. In your testimony, you stated that ``had the 
information newly provided to NHTSA by GM been available before now, it 
would have better informed the agency's prior reviews of airbag non-
deployment in GM vehicles and likely would have changed NHTSA's 
approach to this issue.'' For each of the following, please indicate 
when (i) NHTSA received the information, (ii) whether the information 
would have been available to NHTSA's Data Analysis Division at the time 
of the March 29, 2007 meeting with GM and (iii) whether the NHTSA 
employees who participated in the March 29, 2007 meeting with GM had 
obtained and reviewed the information at the time of the March 29, 2007 
meeting with GM and (iv) if the response to iii) is no, whether NHTSA 
employees attempted to obtain and review this information following the 
March 29, 2007 meeting.

    Question 5a. GM's December 2005 Technical Service Bulletin that 
described the ``potential for the driver to inadvertently turn off the 
ignition due to low ignition key cylinder torque/effort.''

    Question 5b. GM's October 2006 Technical Service Bulletin that was 
updated to include additional models.

    Question 5c. GM's public and non-public submittals to the Early 
Warning Reporting System that described instances of airbag non-
deployment and/or ignition switch issues associated with the recalled 
vehicles.

    Question 5d. Reports in the FARS database and the Early Warning 
Reporting system showing higher instances of deaths of front seat 
occupants following accidents involving airbag non-deployment in the 
recalled vehicles than for other similar vehicles.

    Question 5e. Reports in NHTSA's consumer complaint database showing 
high numbers of reports of ignition switches turning off by themselves 
in the recalled vehicles.
    Answer. My testimony related to information that NHTSA received 
from GM this year that likely would have caused NHTSA to open an 
investigation had GM disclosed it earlier. Your questions, though, 
relate to information that NHTSA received prior to this year. As 
explained in my testimony, the agency determined that the information 
provided to NHTSA prior to this year did not indicate that there may 
have been a defect trend and the information was insufficient to open 
an investigation.
    As you know, NHTSA is currently conducting an internal due 
diligence review with the Office of the Secretary of Transportation of 
NHTSA's response to the information available to the agency prior to 
GM's recalls. Additionally, we are working closely with the 
Department's Office of the Inspector General audit assessing issues 
pertaining to NHTSA's actions prior to the recent GM recalls.

    Question 6. During the hearing, you stated that the reason why 
NHTSA employees may not have connected the airbag non-deployment events 
with the ignition switch issues is because there may have been some 
expectation that airbags should deploy even when the engine stops. 
Please provide me with a copy of all documents (including but not 
limited to memos, powerpoints, letters, agendas, e-mails, meeting 
notes, white papers, and telephone logs) in which this matter was 
considered by NHTSA employees who were evaluating reports of airbag 
non-deployment in any of the recalled GM vehicles.
    Answer. The expectation that airbags should deploy even when the 
engine stops was based upon the understanding by NHTSA staff that 
airbag control modules were equipped with reserve power systems storing 
a certain amount of electrical power after the engine stops. A 
subsequent review of contemporaneous technical literature confirms 
NHTSA's understanding. See attached excerpt from ALLDATA, which we are 
providing for committee use only because ALLDATA's licensing agreement 
limits distribution rights. [NOTE: The excerpt has been received and is 
retained by the Committee.]
    Since GM provided new information directly connecting airbag non-
deployments with the ignition switch defect, NHTSA has been in contact 
with other automotive manufacturers and suppliers regarding airbag 
design and performance related to the position of the vehicle ignition 
switch, and the agency will take appropriate action based on our 
findings during this outreach.
    NHTSA continually seeks new ways to improve our processes. As noted 
above, we are reviewing the events leading up to this recall to see if 
there areas that can be improved. We are looking to improve our 
understanding of the way that various manufacturers design airbags to 
function when the vehicle loses power, reviewing ways to better 
incorporate information about remote defect possibilities into the 
investigative process, and evaluating our process for engaging 
manufacturers around issue evaluations.

    Question 7. NHTSA's former counsel Frank Berndt wrote a memo \1\ 
describing NHTSA's enforcement policy. This policy was subsequently 
upheld by the U.S. Court of Appeals D.C. Circuit Court in 1988, in a 
case that ironically involved General Motors, which had apparently 
asserted that exploding wheels in some of its vehicles created an 
unreasonable risk to safety but would not acknowledge that the wheels 
were defective. This memo characterizes the industry's posture on when 
a safety defect enforcement effort could be started as when ``some 
threshold number of accidents, injuries or deaths have occurred'' or 
will occur in the future. But Mr. Berndt went on to state that the per 
se theory of defect law was that ``the demonstrated failure of a 
critical safety component (wheels, brakes, steering, lights, etc.) 
would establish the existence of the safety defect whether supporting 
accident data exists or not.'' In other words, NHTSA does not have to 
wait until some threshold number of incidents occur, or until it knows 
the cause of a demonstrated failure of a critical safety component, 
before it can open up a defect investigation. Yet, during your 
testimony, that is effectively what you said NHTSA did when it decided 
not to open up a defect investigation into the airbag non-deployments 
of which it was aware because NHTSA ``did not find sufficient evidence 
of a possible safety defect or defect trend that would warrant opening 
a formal investigation''. This stands in stark contrast to the manner 
in which NHTSA began a defect investigation into a case of airbag non-
deployment of Ford Taurus vehicles following a single instance of a 
fatality involving an airbag non-deployment in 2003.
---------------------------------------------------------------------------
    \1\ http://www.autosafety.org/sites/default/files/enforcement2.pdf

    Question 7a. Why was a single instance of airbag non-deployment in 
the recently recalled GM vehicles not in and of itself sufficient cause 
to open up a defect investigation?
    Answer. Advanced airbags are not intended to deploy in all crashes, 
even frontal crashes. Advanced airbag systems are designed not to 
deploy when doing so will cause more harm than good. Airbags do not 
deploy in frontal impacts at low speeds. In higher speed crashes, 
smaller occupants who sit close to the airbag are at risk as are 
unrestrained occupants, because those occupants will move closer to the 
airbags during the course of a crash, putting them at risk of being hit 
with the force of a rapidly expanding bag. Airbags also may not deploy 
during crashes that occur off-road with multiple impacts because 
relatively minor impacts involve much slower changes in speed than on-
road vehicle-to-vehicle crashes.
    When NHTSA convened a panel in November 2007 to review concerns 
about airbag nondeployments in the Chevrolet Cobalt and Saturn Ion, the 
incidents being examined, including those in two Special Crash 
Investigations (SCI) crash reports, involved crashes where airbags 
might not deploy because of the risk of airbag related injury. The 
crashes involved unbelted occupants in off-road excursions ending in 
encounters with multiple objects. These final encounters began with 
impacts against trees or other objects that were moved by the impacting 
vehicles and ended with impacts against objects that did not move. In 
such events the system may decide not to deploy the airbag because an 
unbelted occupant will have moved into an area where deployment will 
cause harm. Also, impacts with yielding objects may not cause a vehicle 
to decelerate rapidly enough for the airbag system to predict that a 
severe crash has begun. In contrast, the Ford Taurus incident that 
precipitated an investigation involved a relatively rapid and violent 
impact where belted occupants were killed or injured when the vehicle 
struck an unyielding concrete bridge railing.

    Question 7b. Has NHTSA altered its enforcement policy from the one 
described in the Berndt memo to the one you described in your 
testimony? If so, please provide me with a copy of NHTSA's new policy. 
If not, then why did your testimony state that NHTSA would have 
required evidence of a defect or defect trend in order to have started 
a defect investigation into the airbag non-deployment incidents of 
which it was aware?
    Answer. The agency has not altered its approach to safety-related 
defects. NHTSA can open a defect investigation based upon a single 
incident, when warranted. It has done so in the past. Defect 
investigations, by definition, investigate alleged safety defects. In 
the absence of evidence of a possible defect or defect trend, it would 
be inappropriate for NHTSA to open a defect investigation.

    Question 8. A constituent of mine has provided me with the 
following information, which she has submitted to NHTSA, but she has 
yet to receive a response. Please provide a response to me. ``My story, 
briefly, is that I own a 2008 Trailblazer. In the fall of 2012, a new 
ignition switch was put in. Then, last summer, July 2013, my husband 
and I were driving back to Cape Cod from Connecticut on Interstate 95. 
Very heavy traffic, 65 mph. All of a sudden, my car just stopped, 
turned off, died. I drifted over into the breakdown lane and a trooper 
sat behind us for over an hour while we waited to be towed to a Chevy 
dealer in Old Saybrook. The next day, Monday, they put in a second 
ignition switch. Needless to say, the incident was pretty scary. As my 
situation seems to be identical to what others have experienced with 
other models, I am anxious to know if this is a Trailblazer issue, too, 
and why are GM and the NHTSA not looking at this model, as well?''
    Answer. Consumer complaints received through Vehicle Owner 
Questionnaires (VOQs) are important for helping the agency determine 
whether a safety issue exists. We get more than 45,000 VOQs a year. We 
read every one of them and track the information they contain. However, 
because of the volume of VOQs, we contact the submitter only when we 
need to obtain additional information.
    We received your constituent's complaint (VOQ #10568626) on March 
11, 2014, and it has been reviewed by NHTSA staff. We are monitoring 
all available data concerning ignition switch problems that may cause 
the engine to stall in 2008 Chevrolet Trailblazer vehicles, and NHTSA 
will take appropriate action as warranted.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
